<html>
<title> - [H.A.S.C. No. 111-120] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 111-120]



                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                            FEBRUARY 3, 2010



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              __________

                        U.S. GOVERNMENT PRINTING OFFICE
58-170                          WASHINGTON: 2010
________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office, http://bookstore.gpo.gov. For more information, contact the GPO
Customer Contact Center, U.S. Government Printing Office. Phone 
202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c2b3c230c2f393f382429203c622f232162">[email&#160;protected]</a>









                                     
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
PATRICK J. MURPHY, Pennsylvania      K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                DOUG LAMBORN, Colorado
CAROL SHEA-PORTER, New Hampshire     ROB WITTMAN, Virginia
JOE COURTNEY, Connecticut            MARY FALLIN, Oklahoma
DAVID LOEBSACK, Iowa                 DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             JOHN C. FLEMING, Louisiana
GABRIELLE GIFFORDS, Arizona          MIKE COFFMAN, Colorado
NIKI TSONGAS, Massachusetts          THOMAS J. ROONEY, Florida
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                Andrew Hunter, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, February 3, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Request from the Department of 
  Defense........................................................     1

Appendix:

Wednesday, February 3, 2010......................................    75
                              ----------                              

                      WEDNESDAY, FEBRUARY 3, 2010
  FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     4
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense, U.S. Department of 
  Defense........................................................     6
Mullen, Adm. Michael G., USN, Chairman, Joint Chief of Staffs....     8

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    91
    McKeon, Hon. Howard P. ``Buck''..............................    82
    Mullen, Adm. Michael G.......................................   103
    Skelton, Hon. Ike............................................    79

Documents Submitted for the Record:

    Gail H. McGinn letter, with attachments, to Dr. Snyder.......   143
    January 20, 2010 letter and attachment from Mr. McKeon to 
      Secretary Gates and Admiral Mullen.........................   125

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................   163
    Ms. Giffords.................................................   164
    Mr. Heinrich.................................................   165
    Mr. Kline....................................................   163
    Mr. Sestak...................................................   163
    Mr. Taylor...................................................   163

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................   178
    Ms. Bordallo.................................................   181
    Ms. Giffords.................................................   183
    Mr. Kissell..................................................   190
    Mr. Lamborn..................................................   181
    Mr. Loebsack.................................................   183
    Ms. Pingree..................................................   190
    Ms. Sanchez..................................................   175
    Mr. Smith....................................................   169
    Mr. Taylor...................................................   169
    Ms. Tsongas..................................................   186
    Mr. Wilson...................................................   176
  FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, February 3, 2010.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Let me start by welcoming 
today's witnesses back to the House Armed Services Committee, 
particularly in our renovated hearing room. This is a maiden 
voyage in this renovated room, and I think it will serve all of 
us, and the public better to see how laws are discussed in our 
committee.
    We thank both of you for your distinguished decades of 
service to our Nation. I know that along with it comes no small 
measure of personal sacrifice for both of you as well as your 
families. And I as well as all the members of the committee 
wish to extend our thanks to those who support you as well.
    We convene today to receive testimony not only on Fiscal 
Year (FY) 2011 budget request for the Department of Defense 
(DOD), but also to hear your perspectives on the recently 
delivered report on the Quadrennial Defense Review, also known 
as the QDR. Preparing both of these documents is an enormous 
undertaking. And while neither is a perfect document, both are 
weighty and serious efforts--both in absolute terms compared to 
prior efforts. They are remarkably well coordinated with each 
other.
    In my view the remarkable thing about both documents, 
however, is the deep commitment they reflect on the part of the 
Department and the Administration to preserving the national 
security of the United States. At a time of tremendous economic 
difficulty, unprecedented deficits, and spending freezes in 
other parts of the budget, the QDR demonstrates the clear need 
for, and the Department's budget reflects real growth in, 
defense spending.
    The budget request request is for $708 billion in Fiscal 
Year 2011, including $159 billion for contingency operations 
costs in Fiscal Year 2011, and an additional $33 billion for 
our Afghanistan operations in Fiscal Year 2010.
    Now while we have our disagreements about some of the 
details of the budget, I strongly support the Administration 
decision to request these increases for defense. Let there be 
no confusion as this committee considers the budget request. We 
will redouble our efforts to identify and eliminate wasteful 
spending. This may mean cutting funds for particular programs 
or making further changes in how we do business as we did last 
year in the Weapons System Acquisition Reform Act of 2009. And 
I compliment and thank the committee for its excellent work in 
that regard.
    However at a time when we are fighting two wars, combating 
al Qaeda, and working to provide relief to people struck by 
tragedy such as the recent devastation in Haiti, the 
Department's request for significant resources is amply 
justified.
    The critical thing about both the budget and the QDR is 
that they put the troops first. You set absolute the right 
priority by focusing on service members and their families. The 
budget includes a military pay raise, a large housing allowance 
increase, no increases in health care fees, and numerous 
initiatives to help military families.
    Second, you lay out in the QDR and in this budget how we 
are going to fight and win both today's wars and future 
conflicts. Future conflicts we do not yet foresee. And I might 
add as a footnote that the Library of Congress gathered for me 
a list of 12 military conflicts in which we have engaged since 
I have been in Congress--since 1977.
    Third, you have taken the fight directly to al Qaeda by 
deploying 30,000 additional troops to Afghanistan in December, 
and redoubling our efforts in Pakistan. Since President Obama 
came into office we have essentially tripled our forces in 
Afghanistan. These troops have directly engaged--engaging al 
Qaeda and the Taliban--that is those who attacked us on 9/11.
    And while I am pleased the President's budget request again 
acknowledges the importance of providing for full concurrent 
receipt of military retired pay and the Department of Veterans 
Affairs Disability Compensation for veterans who retired 
because of disabilities with less than 20 years of service, I 
was greatly disappointed that the budget request did not 
include the specific pay-as-you-go (PAYGO) offsets that are 
required to cover the cost.
    This committee has a deep commitment to this issue, and our 
veterans. But we simply cannot enact it unless the 
Administration identifies and advocates for specific offsets. 
That didn't happen last year. And we were standing there 
holding the bag, because there was no place to get the offsets.
    With the Army and Marine Corps both fully engaged in 
contingency operations in Iraq and Afghanistan with thousands 
of airmen and sailors serving in support of Central Command it 
is fitting that the budget request increases the Department's 
Operation and Maintenance (O&M) accounts by 9.4 percent or 
$19.4 billion. This increase is much needed.
    Repeated deployments with limited dwell time continue to 
reduce the ability of our forces to train across the full 
spectrum of conflict, increasing the risk when our military has 
to quickly respond to emerging contingencies. The committee 
also recognizes the need to be prepared across the full 
spectrum making increased O&M resources all the more important. 
This readiness deficit has been a long standing worry for our 
committee.
    We are encouraged by the Department's planning objective to 
achieve 2 years at home station for the active component for 
every 1 year deployed, and by the increases in several service 
training budgets. However I am concerned that so much of the 
funding for reconstructing the Army and Marine Corps remains in 
the overseas contingency operations (OCO) portion of the 
budget, and has not yet transitioned to the base budget itself.
    We are glad to see that the budget request for Fiscal Year 
2011 includes $23 million to implement the required transition 
for the 225,000 National Security Personnel System (NSPS) 
employees out of that system and back to personnel systems that 
are fair and work. Fiscal year 2011 budget request will ensure 
that no NSPS employee experiences a loss of or a decrease in 
pay.
    In the area of global posture I know that we will be having 
intense discussions about the requirements for the Army force 
structure in Europe, about the Navy carrier home-porting, and 
the realignment of Marines in the Pacific. These, of course, 
are critical issues.
    Any discussion of modernization accounts must begin with 
the F-35 program--the largest acquisition program in history. 
The success of which is essential to our joint force as well as 
to our allies. I applaud the Secretary for following the letter 
and the spirit of Section 101 of the Weapons System Acquisition 
Reform Act of 2009 by funding the program to the more realistic 
cost estimate of the Joint Estimating Team (JET). We do 
ourselves no favors if we attempt to manage problems by denying 
them. While the decision led to the deferral of some aircraft 
production possibly including some of the aircraft authorized 
in last year's bill, it is a prudent course.
    Let me address the question of the F-136 so-called 
alternate engine. This committee has maintained the view for 
more than a decade that having competing engine production 
lines for the F-35 program is the best way to control overall 
program costs, manage risk over the life of the program, and 
ensure engine performance and sustainability.
    When 95 percent of the Department's fighters will be F-35 
variants by 2035, this is not a question of pork. It is a 
sincere concern for the success of the F-35 program, and for 
the benefits of competition. As we have previously discussed, 
the Congress and the Department have to operate from a common 
set of facts. This committee looks forward to receiving the 
analysis that you have promised on this program.
    I hope today's discussion can explore questions of force 
structure. These questions are embedded in the strategic 
thinking of the QDR from the number of ships to potential 
shortfalls in our strike fighter inventory, to the future of 
the bomber program. There are critical issues confronting this 
Nation's defense. And this committee will spend today and the 
coming weeks focused on where we are headed on critical force 
structure issues, and of course we welcome your thoughts today.
    Let me wrap up my remarks by again applauding our witnesses 
for tackling the tough national security challenges facing this 
Nation head on. You have done so in the decision to deploy more 
troops to Afghanistan in December. And the decision to redouble 
our commitment to finding and defeating al Qaeda in the 
Afghanistan-Pakistan border region as well as around the world. 
And the decision to continue to grow defense spending last 
year, this year, and across the future years defense programs.
    As always, you have this committee's gratitude to both of 
you for your service as well as our deep gratitude to the men 
and women that you represent--those who service us in uniform. 
We are very proud of them as well as the civilian workforce, 
and of course very, very proud of their families.
    It has been mentioned that tomorrow this committee will 
hold another major hearing. We will take testimony on the QDR, 
the Quadrennial Defense Review, which outlines the Department 
of Defense position on a wide range of critical security 
related topics, and provides a--sort of a blueprint of the 
Department. And we look forward to that hearing as well as 
today.
    Thank you again for your service, and we appreciate your 
being with us.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 79.]
    Now I turn to my friend the gentleman from California, 
Ranking Member Mr. McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. I ask that my entire 
statement be submitted for the record.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 82.]
    Mr. McKeon. Secretary Gates, Admiral Mullen good morning. 
Welcome back to our committee. Thank you for your service. Our 
country is blessed to have leaders like you. And we thank you 
for all your hard work, and all that you do for the men and 
women in uniform. We look forward to your testimony here today.
    The President's Fiscal Year 2011 defense budget requests 
$708 billion for discretionary and war funding. According to 
the Defense Department this represents an increase of 3.4 
percent from the previous year, or 1.8 percent real growth 
after inflation. This is clearly not the cut to the defense 
budget that many anticipated. And I credit you and Admiral 
Mullen for ensuring that this budget request provides for our 
military men and women, and fully funds the wars in Iraq and 
Afghanistan.
    Mr. Secretary for some time now you have been pushing for 
balance in the Defense Department in an effort to focus the 
Pentagon on prevailing in today's conflicts. In your 
introduction to the 2011 Quadrennial Defense Review you write 
that your efforts to re-balance the Department in 2010 
continued in the Fiscal Year 2011 budget, and were 
institutionalized in this QDR and out-year budget plan.
    While we all commend you for your laser focus on the wars 
in Iraq and Afghanistan, I believe your efforts to make balance 
a fixture in the QDR and the out-year budget is too focused on 
the short term, and puts the Department on the wrong path for 
the next 20 years. Choosing to win in Iraq and Afghanistan 
should not mean our country must choose to assume additional 
risk in the conventional national defense challenges of today 
and tomorrow.
    Last April, we received a glimpse of the cost of balance 
when you announced over $50 billion in cuts to the defense 
programs. This year the impact is more subtle, but I fear more 
severe. In my view, the QDR understates the requirements to 
deter and defeat challenges from state actors, and it 
overestimates the capabilities of the force the Department 
would build.
    This QDR does an excellent job of delineating the threat 
posed by those with anti-access capabilities, notably China, 
but does little to address the risk resulting from the gaps in 
funding, capability, and force structure.
    If this is really a vision for the defense program for the 
next 20 years as the statute requires, then why does the QDR 
lay out a force structure for the next 5 years, not to mention 
one that looks a lot like today's force. The QDR is supposed to 
shape the Department for 2029, not describe the Pentagon in 
2009.
    I look forward to hearing from you and Admiral Mullen 
today, and Under Secretary Flournoy tomorrow, about the 
assumptions underlying the QDR's decisions. Further, I am 
anxious for the QDR's independent panel to begin its work, and 
provide the Congress with an alternative viewpoint on how the 
Pentagon should posture itself for the next 20 years.
    Let me conclude by addressing two controversial policy 
initiatives that the President has raised in recent weeks, 
repealing the Don't Ask Don't Tell policy and moving United 
States Naval Station, Guantanamo Bay, Cuba (Gitmo) detainees to 
the United States. With respect to Don't Ask Don't Tell, I also 
look forward to you addressing the President's State of the 
Union call to repeal Don't Ask Don't Tell.
    Before the President or special interests force a change in 
the policy or law, Congress deserves to see from the services 
concrete, in-depth evidence that readiness concerns require a 
change, and that such a change would not degrade wartime 
military readiness in any measurable significant way. Many of 
us on this committee have serious concerns with putting our men 
and women in uniform through such a divisive debate while they 
are fighting two wars.
    As far as the future of Gitmo, the Administration requested 
a $350 million transfer fund to finance all aspects of detainee 
operations at the U.S. Naval Station in Guantanamo, Cuba, or 
the Thompson Correctional Center, in Thompson, Illinois.
    In my view, such a flexible transfer authority reflects the 
overall problem with this Administration's detainee policy. 
There is no clear policy on how we will handle the detainees 
held at Gitmo.
    Mr. Secretary, let me make my view clear. I do not support 
authorizing funds for a facility which would hold Gitmo 
detainees in the United States. Once again, thank you for being 
here today, and I look forward to your testimony and the 
question and answer session.
    I yield back my time.
    The Chairman. Before I ask our witnesses to give their 
remarks, let me speak very, very briefly about the unexpected 
occurrences as reflected by conflicts since 1977. Unexpected. 
Operation Desert One, 1979. Lebanon, 1982. Grenada, 1983. 
Libya, 1986. Panama, 1989. Operation Desert Storm, 1990. 
Somalia, 1992. Haiti, 1994. Balkans, Bosnia, 1995. Balkans, 
Kosovo, 1999. Afghanistan, which began 2001. Iraq, which began 
2003. And it gives us a birds-eye sketch of the unexpected. 
That is why we need the full spectrum of capability and that is 
what we asked you to testify to today.
    For our committee we will take a lunch break around 12:15, 
probably along with a few votes we will have at that time. And 
we will reconvene after 45 minutes, and the hearing will 
continue until 3:00 this afternoon.
    So with that, Secretary Gates, we welcome you. Admiral 
Mullen, we thank you.
    Secretary Gates.

 STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Gates. Mr. Chairman, members of the committee, 
thank you for the opportunity to appear before you to discuss 
the President's budget requests for Fiscal Year 2011.
    I first want to thank you for your support of the men and 
women of the United States military these many years. These 
troops are part of an extraordinary generation of young 
Americans who have answered their country's call. They have 
fought our wars, protected our interests and allies around the 
globe, and as we have seen recently in Haiti, they have also 
demonstrated compassion and decency in the face of 
incomprehensible loss.
    I have a brief opening statement to provide an overview of 
the budget requests. My submitted statement includes many more 
details that I know are of interest to the committee. The 
budget requests being presented today include $549 billion for 
the base budget, a 3.4 percent increase over last year, or a 
1.8 percent real increase after adjusting for inflation, 
reflecting the Administration's commitment to modest, steady, 
and sustainable real growth in defense spending.
    We are also requesting $159 billion in FY 2011 to support 
overseas contingency operations, primarily in Afghanistan and 
Iraq, plus $33 billion for the remainder of this fiscal year to 
support the added financial costs of the President's new 
approach in Afghanistan.
    The base budget request reflects these major institutional 
priorities. First, reaffirming and strengthening the Nation's 
commitment to care for the all-volunteer force, our greatest 
strategic asset. Second, rebalancing America's defense posture 
by emphasizing capabilities needed to prevail in current 
conflicts, while enhancing capabilities that may be needed in 
the future.
    And third, continuing the Department's continuing 
commitment to reform how we do business, especially in the area 
of acquisitions. Finally, the commitments made in the programs 
funded in the OCO and supplemental request demonstrate the 
Administration's determination to support our troops and 
commanders in combat, so they can accomplish their critical 
missions and come home safely.
    The budget continues the Department's policy of shifting 
money to the base budget for enduring programs that directly 
support our war fighters and their families, whether on the 
battlefield recovering from wounds, or on the home front, to 
ensure they have steady, long term funding and institutional 
support.
    The base budget request was accompanied by and informed by 
the 2010 Quadrennial Defense Review, which establishes 
strategic priorities and identifies key areas for needed 
investment. The 2010 QDR and FY 2011 budget build upon the 
substantial changes the President made in the FY 2010 budget 
request to allocate defense dollars more wisely and reform the 
Department's processes.
    The FY 2010 budget proposal cut, curtailed, or ended a 
number of programs that were either performing poorly, or in 
excess of real world needs. Conversely, future-oriented 
programs where the U.S. was relatively under-invested, were 
accelerated or received more funding.
    The FY 2011 budget submissions in QDR are suffused with two 
major themes. The first is continued reform, fundamentally 
changing the way this Department does business. The priorities 
we set, the programs we fund, the weapons we buy, and how we 
buy them. Building on the reforms of last year's budget, the FY 
2011 request took additional steps aimed at programs that were 
excess or performing poorly.
    They include terminating the Navy EP-X intelligence 
aircraft, ending the third generation infrared surveillance 
program, canceling the next generation CG-X cruiser, 
terminating the Net-enabled Command and Control Program, ending 
the defense integrated military human resources system due to 
cost overruns and performance concerns.
    Completing the C-17 program, and closing the production 
line, as multiple studies in recent years show that the Air 
Force already has more of these aircraft than it needs. And 
ending the alternate engine for the F-35 Joint Strike Fighter 
(JSF), as whatever benefits may accrue are more than offset by 
excess costs, complexity, and associated risks.
    I am fully aware of the political pressure to continue 
building the C-17 and proceed with an alternate engine for the 
F-35. So let me be very clear. I will strongly recommend that 
the President veto any legislation that sustains the 
unnecessary continuation of these two programs.
    The budget and reviews are also shaped by a bracing dose of 
realism. Realism with regard to risk, realism with regard to 
resources. We have, in a sober and clear-eyed way, assessed 
risks, set priorities, made trade-offs, and identified 
requirements based on plausible real-world threats, scenarios, 
and potential adversaries.
    Just one example. For years, U.S. defense planning and 
requirements were based on preparing to fight two major 
conventional wars at the same time, a force-sizing construct 
that persisted long after it was overtaken by events. The 
Department's leadership now recognizes that we must prepare for 
a much broader range of security challenges on the horizon.
    They range from the use of sophisticated new technologies 
to deny our forces access to the global commons of sea, air, 
space, and cyberspace, to the threat posed by non-state groups 
delivering more cunning and destructive means to attack and 
terrorize. Scenarios that transcend the familiar contingencies 
that dominated U.S. planning after the Cold War.
    We have learned from painful experience that the wars we 
fight--apropos of the chairman's recitation of the conflicts 
since the mid-1970s--that the wars we fight are seldom the wars 
that we plan. As a result, the United States needs a broad 
portfolio of military capabilities with maximum versatility 
across the widest possible spectrum of conflict. This strategic 
reality shaped the QDR's analysis and subsequent conclusions 
which directly informed the program decisions contained in the 
budget.
    Before closing, I would like to offer two thoughts to 
consider when assessing the U.S. investment in national 
defense. First, the requests submitted this week total more 
than $700 billion, a massive number to be sure. But at 4.7 
percent of gross national product, it represents a 
significantly smaller portion of national wealth going to 
defense than was spent during most of America's previous major 
wars. And the base budget represents 3.5 percent of GDP.
    Second, as you recently read, the President recently 
exempted the defense budget from spending freezes being applied 
to other parts of the government. It is important to remember, 
however, that as I mentioned earlier, this Department undertook 
a painstaking review of our priorities last year, and as a 
result, cut or curtailed a number of major programs. These 
programs, had they been pursued to completion, would have cost 
the American taxpayer about $330 billion.
    In closing, Mr. Chairman, my thanks to you and members of 
this committee again for all that you have done to support our 
troops and their families, in light of the unprecedented 
demands that have been placed on them.
    I believe the choices made and the priorities set in these 
budget requests reflect America's commitment to see that our 
forces have the tools they need to prevail in the wars we are 
in, while making the investments necessary to prepare for 
threats on or beyond the horizon.
    Thank you.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 91.]
    The Chairman. Mr. Secretary, we thank you.
    Admiral Mullen.

STATEMENT OF ADM. MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEF 
                           OF STAFFS

    Admiral Mullen. Mr. Chairman, Mr. McKeon, distinguished 
members of this committee, thank you for the chance to appear 
before you and discuss the state of our military, as well as 
the President's Fiscal Year 2011 defense budget submission. I 
also thank you all for the extraordinary support you provide 
each and every day to our men and women in uniform, as well as 
their families.
    That they are well-equipped, well-trained, well-paid, and 
enjoy the finest medical care anywhere in the world is a 
testament in no small part to your dedication and stewardship. 
I have seen many of you in the war zone, in hospitals, and at 
bases all over this country.
    So have our troops. They know you care, just as critically, 
they know their fellow citizens care. All they want right now 
is guidance on the mission before them, and the tools to 
accomplish it. That is why I am here today, to speak on their 
behalf about the guidance they are getting from this 
Department, and to secure your continued support for the tools 
we want to give them.
    Secretary Gates has already walked you through the major 
components of the Quadrennial Defense Review and the 
President's Fiscal Year 2011 defense budget submission, both of 
which, when combined with the new Ballistic Missile Defense 
Review and our Overseas Contingency Operations fund request, 
build upon the reform effort of last year, and represent as 
comprehensive a look at the state of our military as I have 
seen in my more than 40 years of service.
    I will not endeavor to repeat his excellent summation, and 
I would ask that you accept without further comment, my 
endorsement of the findings contained in each of these 
documents. Let me leave you rather with three overarching 
things to consider as you prepare to discuss these issues today 
and as you prepare to debate this budget request in the near 
future.
    First, there is a real sense of urgency. We have well over 
200,000 troops deployed in harm's way right now and that number 
includes only those in Operations Iraqi Freedom and Enduring 
Freedom. Another 150,000 or so are meeting our security 
commitments elsewhere around the globe. And many of those 
missions are no less dangerous and certainly no less 
significant.
    I am sure you have stayed abreast of our relief efforts in 
Haiti where more than 20,000 of your soldiers, sailors, airmen, 
marines and coast guardsmen are pitching in feverishly to help 
alleviate the suffering of the Haitian people. It is truly an 
interagency and international mission and these troops are 
blending in beautifully doing what is required where and when 
it is required to support the government of Haiti, the United 
States Agency for International Development (USAID) and the 
United Nations mission there.
    We also continue to do what is required to win the wars we 
fight. And the one that needs fighting the most right now is in 
Afghanistan. You have seen the reports and you know the 
situation. The Taliban have a growing influence in most of 
Afghanistan's provinces and the border area between that 
country and Pakistan remains the epicenter of global terrorism.
    You no doubt followed with great interest the development 
of the President's strategy to deal with this threat, a 
strategy in my view that rightly makes the Afghan people the 
center of gravity and the defeat of al Qaeda a primary goal.
    We have already moved nearly 4,500 troops to Afghanistan 
and expect that about 18,000 of the President's December 1st 
commitment will be there by late spring. The remainder of the 
30,000 will arrive as rapidly as possible over the summer and 
early fall making a major contribution to reversing Taliban 
momentum in 2010.
    Indeed, by the middle of this year, Afghanistan will 
surpass Iraq for the first time since 2003 as a location with 
the most deployed American forces. Right now, the Taliban 
believe they are winning. Eighteen months from now if we have 
executed our strategy, we will know that they aren't and they 
will know that they can't.
    Getting there will demand discipline and hard work. It will 
require ever more cooperation with Pakistan, and it will most 
assuredly demand more sacrifice and more bloodshed, but the 
stakes are far too high for failure. That is why we are asking 
you to fully fund our Fiscal Year 2010 supplemental and the 
Fiscal Year 2011 Overseas Contingency Operations requests.
    It is why we want a six percent increase for Special 
Operations Command and it is why we need your support to 
develop and field a next generation ground combat vehicle, to 
allow us to grow two more Army combat aviation brigades and to 
continue rotary wing production, including nearly $3 billion 
for the V-22 Osprey program.
    In keeping with the Secretary's strong emphasis on 
Intelligence, Surveillance, and Reconnaissance (ISR), an 
emphasis more than justified by our long experience in Iraq and 
Afghanistan, we are asking for more capability in unmanned 
aircraft and ground based collection systems including nearly 
$3 billion to double the procurement rate of the MQ-9 Reaper by 
Fiscal Year 2012.
    Our future security is greatly imperiled if we do not win 
the wars we are in. As the QDR makes clear, the outcome of 
today's conflicts will shape the global security environment 
for decades to come. I am very comfortable that we can and will 
finish well in Iraq, remaining on pace despite a state of 
recent violence, to draw down American forces to roughly 
50,000, ending our combat mission there and transitioning to an 
advise and assist role, but without your continued support, we 
will not be able to show the meaningful progress in Afghanistan 
that the commander in chief has ordered, the American people 
expect, and the Afghan people so desperately need.
    This is no mission of mercy. This is a place from which we 
were attacked in 2001. The place from which al Qaeda still 
plots and plans. The security of a great nation, ours and 
theirs, rests not on sentiment or good intentions, but on what 
ought to be a cold and unfeeling appraisal of self-interest and 
an equally cold and unfeeling pursuit of the tools to protect 
that interest, ours and theirs.
    That leads me to the second thing I would like you to 
consider, proper balance. Winning our current wars means 
investment in our hard-won irregular warfare expertise, a core 
competency that should be institutionalized and supported in 
coming years. And we are certainly moving in that direction, 
but we must also maintain conventional advantages.
    We still face traditional threats from regional powers who 
possess robust regular and in some cases nuclear capabilities. 
These cannot be ignored. The freedom to conduct operations in 
support of joint, allied and coalition efforts, assuring access 
and projecting combat power, can only be preserved through 
enduring war fighting competencies.
    In the air, this means sufficient strike aircraft and 
munitions capable of assuring air superiority. At sea, it means 
having enough ships and enough sailors to stay engaged globally 
and keep the sea lanes open. On the ground, it means 
accelerating the modernization of our combat brigades and 
regiments. On the whole, it means never having to fight a fair 
fight.
    Thus, the President's budget request will buy us another 42 
F-35s. It will maintain a healthy bomber industrial base and it 
will fund development of a prompt global strike system as well 
as efforts to upgrade our B-2s and B-52s. For ship 
construction, the spending plan totals some $16 billion 
procuring 10 new ships in 2011, including two Arleigh Burke 
destroyers, two Virginia Class submarines, two Littoral Combat 
Ships (LCS) and a brand new amphibious assault ship.
    It puts the Navy on track to maintain aircraft carrier 
production on a 5-year build cycle resulting in a long-term 
force structure of 10 carriers by 2040. Our budget request also 
seeks $10 billion for ballistic missile defense programs 
including $8.4 billion for the Missile Defense Agency (MDA). 
And it devotes ample resources to improving our cyber defense 
capabilities.
    Again, it is about balance, it is about deterring and 
winning the big and the small wars, the conventional and the 
unconventional. Two challenges, one military. But where balance 
is probably most needed is in the programs and policies 
concerning our most important resource, our people.
    And that is my final point. This QDR and this budget builds 
upon superb support you and this Department have provided our 
troops and their families for much of the last 8 years. 
Stretched and strained by nearly constant combat, many of them 
on their fifth, sixth and even seventh deployments, our men and 
women are without question and almost inexplicably the most 
resilient and battle-ready force in our history.
    On the one hand, we keep turning away potential recruits so 
good is our retention and so attractive our career 
opportunities. On the other hand, we keep seeing an alarming 
rise in suicides, marital problems, prescription drug 
addictions and mental health problems. Deborah and I meet 
regularly with young troops and their spouses and though proud 
of the difference they know they are making, they too are 
tired.
    Quite frankly, many of them are worried about their 
futures, their livelihoods, their children. And so you will see 
in this budget nearly $9 billion for family support and 
advocacy programs. You will see childcare and youth programs 
increase by $87 million over last year and you will see a boost 
in warfare and family services to include counseling to the 
tune of $37 million.
    Military spouse employment will get a $2 million-plus up 
and we will increase the budget to $2.2 billion for wounded, 
ill and injured members. In fact, the healthcare funding level 
for Fiscal Year 2011 is projected to provide high quality care 
for 9.5 million eligible beneficiaries.
    Lastly, we are pushing to dramatically increase the number 
of mental health professionals on staff and advance our 
research on traumatic brain injuries and post-traumatic stress. 
We know the strain of frequent deployments causes many 
problems, but we don't know yet fully, nor understand fully how 
or to what extent. So even as we work hard to increase dwell 
time, time at home, aided in part by the additional temporary 
end strength you approved last year for the Army, we will work 
equally hard to decrease the stress of modern military service.
    Indeed, I believe over time when these wars are behind us, 
we will need to look closely at the competing fiscal pressures 
that will dominate discussions of proper end strength and 
weapon systems. A force well suited for long-term challenges 
and not necessarily married to any current force planning 
construct will be vital to our national security.
    Mr. Chairman, members of this committee, thank you again 
for your time and for the longstanding support of this 
committee for the men and women of the United States Armed 
Forces. They and their families are the best I have ever seen. 
On their behalf, I stand ready to answer your questions.
    [The prepared statement of Admiral Mullen can be found in 
the Appendix on page 103.]
    The Chairman. Admiral, thank you so very much. At the 
witness table Under Secretary Bob Hale, the Comptroller, is 
also in attendance, and I understand he will remain available 
for questions as they will arise.
    I was going to ask one question to begin with. We have 
excellent attendance today, and we will be under the five 
minute rule. Let me ask each of you, and as I mentioned before, 
since I have been in Congress we have engaged in 12 military 
operations and almost none of them did we see coming.
    Both of you have emphasized that we must win today's wars 
and, of course, we must, but we must also be prepared for the 
unexpected contingencies that, sure as God made little green 
apples, will come to pass.
    How does your strategy as embodied by the QDR as well as 
your budget prepare the Department to do both of these things, 
Mr. Secretary?
    Secretary Gates. First of all, I would say that we clearly 
are improving the capabilities and resources that we have for 
the kind of fights we have been in since the Vietnam War, a 
broad array of conflicts, requiring a broad array of 
capabilities.
    The mantra that I have used is the one that I used in my 
opening statement. We must acquire the greatest--the most 
versatile possible set of capabilities for the broadest 
possible range of conflict because I believe one of the lessons 
of Desert One and of the invasion of Iraq in 2003 is that it is 
unlikely for another power to come at us head-on. They will 
come at us asymmetrically coming at us where we are vulnerable, 
not where we are strong.
    But we have put into this budget capability such as the 
growth in capabilities of the Special Operations Command and 
forces is now in the base, but we are moving that into the base 
budget out of the supplementals and the Overseas Contingency 
Operations funds; also helicopters, ISR, the full range of 
capabilities that are needed to deal with the kind of fights we 
are in today, the kind of fights we have been in for the last 
35 years and I believe the most likely kind of fights that we 
are going to face in the future.
    But by the same token, I would take the strongest possible 
issue with those who say we are neglecting the potential future 
fight or the capabilities needed to take on high-end 
adversaries. The reality is in this budget, half the 
procurement budget is going for systems that are purely 
associated with modernization of conventional capabilities.
    About 7 percent for, if you will, the fights we are in and 
about 43 percent for dual purpose capabilities, C-17s and other 
capabilities that will be used no matter what kind of fight we 
are in, but just let me run through the list in about 30 
seconds here of what we have in this budget in terms of 
conventional modernization capabilities.
    We have an initiative for long-range strike, an initiative 
for conventional prompt global strike, a new generation bomber, 
a new SSBN, the F-35, the MQ-9, ballistic missile defense, the 
Virginia Class attack submarines, new Army ground combat 
vehicle, upgrades to the B-2 and the B-52 and a number of 
initiatives on cyber.
    And I would just use one statistic before turning the 
microphone over to Admiral Mullen and that is even with the 
restructured F-35 program, in 2020, the United States will have 
20 times more fifth generation aircraft than the Chinese and 
about 13 to 15 times more than the Russians and the gap only 
gets bigger after that.
    So I think there is a broad balance in this budget and it 
takes into account what I think is its underlying premise, 
which is the most versatile possible array of capabilities for 
the widest possible range of conflict.
    The Chairman. Thank you.
    Admiral Mullen.
    Admiral Mullen. I strongly share those sentiments. And let 
me just talk to a couple of aspects of that.
    In both the QDR and in the budget the emphasis is on 
winning today's wars. But that doesn't mean it is just the--
what we have for today that will be--that it will only be used 
today. I think a significant amount of our investments, which 
is as the secretary has laid out, will be well placed for the 
future. That the kind of ISR capabilities that we have. The 
rotary wing capabilities, the investment in special forces will 
play significantly in the future. And if you just lay out the 
12 kinds of unexpected conflicts as you did earlier, chairman, 
those kinds of capabilities--there is a versatility in those, 
that many of these capabilities would play very strongly in the 
future.
    Secondly, I have been working in the Pentagon a long time. 
And if there are thoughts that we have somehow moved out of the 
conventional world. That is just not the case. As indicated by 
the investment profile, this is a hard place to move the 
pendulum. And we continue to move it to get the right balance. 
By no means has the pendulum swung too far at this point.
    And then the third point I would make is the most important 
investment we can make to assure and ensure our security from a 
future standpoint is in our people. They are our--and their 
families. They are our most critical strategic asset. And in 
the uncertainty that you have described, and we have seen just 
in these last 8 years, they are the ones that will truly make a 
difference for the future.
    Now that is not an unbounded pot. There is a significant 
amount of money invested in our military, families and 
civilians in this budget. It is roughly 50 percent of the 
budget. And we have to make sure we have that right for the 
future. But that is what will make a difference now, and it 
will clearly make a difference in the future.
    The Chairman. Admiral Mullen, thank you.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman, Mr. Secretary and 
Admiral. I mentioned in my opening statement Don't Ask Don't 
Tell and Gitmo. With respect to Don't Ask Don't Tell, first I 
would like to echo the concerns raised by my counterpart on the 
Senate Armed Services Committee yesterday.
    You made clear in your testimony that the military stands 
ready to implement a repeal of Don't Ask Don't Tell. Yet this 
position in support of repeal comes before your service chiefs 
have had the opportunity to conduct an in-depth review of the 
impact a repeal would have on military readiness. It seems that 
your path places the cart before the horse.
    On that point I wrote to both of you outlining a series of 
issues and questions that must be answered before any objective 
decision can be made by the President, the Department of 
Defense, and this Congress about repealing or amending the 
current law. I ask that that letter and the attachment which 
set out a list of major shortcomings in the 1993 RAND studies 
be entered in the record.
    The Chairman. Without objection.
    [The information referred to can be found in the Appendix 
on page 125.]
    Mr. McKeon. I would also ask when this committee should 
expect a response from the Department to that letter.
    Secretary Gates. Let me check into it, Mr. McKeon. We will 
get back to you with an answer to that question tomorrow.
    Mr. McKeon. Thank you very much. From Istanbul?
    Secretary Gates. Do you want me to----
    Mr. McKeon. From Istanbul?
    Secretary Gates. I am sorry.
    Mr. McKeon. From Istanbul?
    Admiral Mullen. He has reach.
    Mr. McKeon. Thank you. On the transfer of the Gitmo 
detainees. Giving the rising recidivism rate--around 20 percent 
of former Gitmo detainees returning to the fight--are you re-
evaluating the Defense Department's Gitmo transfer policy?
    Secretary Gates. Well the President has made the decision 
to close Guantanamo as you know. But at the same time 
recognizing reality, and particularly after the Christmas 
bombing attempt, he has suspended the returns of the Yemenis 
from Guantanamo to the Arabian Peninsula. And while his 
decision has not changed, we are clearly looking at the next 
steps.
    We as you indicated in the opening statement, we have money 
in the budget for detainee operations which includes funding 
for our part of the prison in Illinois. I think that is about 
$150 million for that prison. And that clearly is the intent of 
the President at this point.
    Mr. McKeon. A hundred and fifty million--when we had the 
briefing before the holiday break, they added up several costs, 
and I think it was more like $500 million.
    Secretary Gates. Yes. That is just our part, Mr. McKeon. 
There is a Justice Department element, and a Homeland Security 
piece of that, too.
    Mr. McKeon. Right. Do you agree with the policy that 
prohibits transfer of Gitmo detainees to countries that are (1) 
on the state sponsored terrorism list, (2) have active al Qaeda 
cells within their borders, and (3) have confirmed cases of 
former Gitmo detainees that have returned to the fight?
    Secretary Gates. Well, I would say that I certainly would 
have a problem returning them to countries that are on the 
terrorism watch list. If you take countries where there has 
been a recidivist problem that would include both Saudi Arabia 
and Afghanistan. I don't think I am prepared to draw that kind 
of a limit. And we, after all, we don't even know if we have an 
al Qaeda cell here in the United States.
    So you know Somalia, Yemen, for sure. North Africa, and 
different places. So I think that--I frankly think that is 
probably too restrictive. Having a cell doesn't mean that the 
government isn't concerned about terrorists, and isn't acting 
aggressively against those terrorists. We find ourselves in 
that same position.
    Mr. McKeon. Last week Mayor Bloomberg made it clear that he 
was opposed to holding the trial to prosecute the September 
11th mastermind, Khalid Sheikh Mohammed (KSM) in a Manhattan 
courthouse. Do you believe that KSM and the 9/11 co-
conspirators should be tried in a federal criminal court rather 
than a military commission?
    Secretary Gates. I am comfortable deferring to the Attorney 
General in terms of the proper jurisdiction for those who have 
engaged in terrorist acts. I think it is important that we have 
available to us both the civilian courts, and the military 
commissions. I remind you, we had a lot of problems with 
terrorism in the 1970s and 1980s in this country. And they all 
went--when we would catch a terrorist they all went through the 
federal courts. We had no alternative at that time. We are 
actually in a more robust position at this point.
    Mr. McKeon. We did do a lot of work on that in the last 
reauthorization improving the military commissions. Why would 
this choice of trial forum--that is, the civil courts. Given 
that you are the chief civilian authority for military 
commissions, why would you not prefer to have them done in the 
military commission?
    Secretary Gates. Well, the attorney general did consult 
with me about the five 9/11 bombers. And where he was headed 
with his decision. And as I indicated a minute ago, I deferred 
to him on the judgment where he thought that prosecution was 
best carried out.
    Mr. McKeon. Did he consult with you before the FBI 
interrogated the Christmas Day bomber, and before they were 
given their Miranda rights?
    Secretary Gates. No.
    Mr. McKeon. What impact did giving the Miranda rights have 
on our ability to collect intelligence if anyone we gave those 
rights to--Abdulmutallab--I am having trouble learning how to 
say these all--words--a known al Qaeda operative only 50 
minutes after beginning the interrogations?
    Secretary Gates. Well I think that--I mean, I don't know, 
because I haven't read the interrogation reports. I have been 
told that valuable information was obtained from him prior to 
that time. I think we have protocols in place now for a high 
level interrogation group that is comprised of experienced FBI 
and intelligence community interrogation experts that will be 
available for future such cases.
    And the reality is under existing law if a person who has 
attempted a terrorist act, or is an alleged terrorist, is 
deemed a threat to the national security, there is the 
authority in the law to delay Mirandizing so that a full 
interrogation can take place.
    Mr. McKeon. I think the concern that I have heard expressed 
by many is that when he was caught, and was being questioned 
during that first 50 minutes, as on the 9/11 attacks, there 
could have been other planes in the air with other people 
trying to blow them up at the same time. And I don't know that 
50 minutes--I am not an expert, but I have heard from experts 
that maybe 50 minutes wasn't quite enough to get all the 
information that could have been very necessary at that time.
    Secretary Gates. I would just say that, you know, the 
President asked for a review of several aspects of this. And I 
think it is fair to say that there were some useful lessons 
learned from that experience.
    Mr. McKeon. So in your personal opinion, should al Qaeda 
detainees in the U.S. be given Miranda rights?
    Secretary Gates. I think that if a person is identified as 
an al Qaeda operative, or has attempted a terrorist act, that 
the authorities that are available in existing law, and this 
high level interrogation group that has been assembled should 
be brought to bear with that individual. And that gives them 
the flexibility not to Mirandize as long as they believe they 
can get useful intelligence about impending attacks.
    Mr. McKeon. Was Abdulmutallab considered to be al Qaeda 
during that 50 minutes, or was that found out later?
    Secretary Gates. I am just not sure.
    Mr. McKeon. Thank you. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    The gentleman from South Carolina, Mr. Spratt. We are now 
under the five minute rule.
    Mr. Spratt. Thank you all for your testimony, and for the 
service you render to our country every day. I was in 
Afghanistan last week, and impressed with the team you have got 
in place. But also impressed--as I always am--with how daunting 
the challenge is if we want to accomplish what we do there.
    Let me ask you something that may seem a bit mundane, but 
is important to getting the budget to reflect reality as well 
as possible. That is the practice of putting a plug in the out-
years for what it is likely to cost. As I understand we have 
provided so far $130 billion for Iraq and Afghanistan, and to 
some extent, Pakistan. It would add $30 billion to that, and 
take it up to $160. That will be next year's level 
approximately.
    But in the years thereafter in the budget you submitted in 
the QDR there is a plug--$50 billion--which I don't think is a 
realistic plug. Fifty billion dollars is a big come down from 
$160 billion in a 1-year period of time. How do you plan to 
fill that plug, and to give us realistic likely expenditures 
for sustaining this effort in Iraq, Afghanistan, and 
increasingly Pakistan?
    Secretary Gates. Mr. Spratt, I think that the most accurate 
answer to your question is that I don't think a $50 billion 
plug for the next couple of years reflects reality either. That 
is basically the direction that we have been given by OMB. But 
clearly as we have done with both FY 2010 and FY 2011 through 
the preparation of the overseas contingency operations budgets, 
we can closer to the time when combat is taking place, and we 
know how many troops will be available, or will be in the 
theater and so on, we can give a realistic estimate.
    While I believe for example for FY 2012 $50 billion is too 
low. By the same token, I could not give you a figure today or 
put a figure in the budget that I would have confidence would 
come close to being what the real number will be that is 
closer. So I acknowledge that the $50 billion plug is 
inadequate, but beyond FY 2011 it is just difficult to know 
what the right number would be.
    Mr. Spratt. Given the difficulties we are experiencing 
right now in Iraq, do you expect that that period for 
withdrawal or draw down could be stretched out?
    Secretary Gates. Based on recent conversations the Chairman 
and I have both had with General Odierno, we do not expect 
that. No.
    Mr. Spratt. Turning to a different subject--the F-35. You 
just went yourself personally to see what is happening with 
that program. Would you care to tell us--give us an update on 
this problem?
    Secretary Gates. Well I think if I had to put it in a 
sentence I would say that the program office was too optimistic 
in their estimates. The reality is the program has not 
experienced problems unlike those with developmental combat 
aircraft in the past. The reality is it is a good airplane. It 
is meeting the performance parameters.
    We clearly--part of the restructuring program is to put 
more money into test aircraft and a greater investment in 
software to limit the slip to about 13 months for the program. 
This means we will also be buying fewer aircraft in advance of 
testing, but we think that we have a good program, as the 
Chairman indicated in his opening statement.
    The funding now, we have funded this plane in recent years 
based on the estimates of the joint program office, partly due 
to the law that was passed here in the Congress, but partly due 
to our own Under Secretary Ash Carter.
    We now have funded this program on the basis of the Joint 
Estimating Team, the independent estimate of what the funding 
will be. So we believe that the funding we have in this budget 
in the out-years is a much more realistic profile of the 
funding for the aircraft.
    Mr. Spratt. One of the news accounts indicated that you 
visited the plant in August and thought the F-35 was in better 
shape than you learned it to be in December. Is that an 
accurate statement? And if so, do you think there needs to be 
an improvement in variance analysis in the management reporting 
system so we can keep a much better, more timely real-time 
connection with what is happening with weapons systems in 
development?
    Secretary Gates. Well, I think that what happened was that 
Under Secretary Carter--we not only had the JET estimate from 
last fall, but we also had a second JET estimate. Under 
Secretary Carter personally invested about two weeks of time, 
full time, going into every aspect of the JSF program, and 
getting into the contracts, getting into conversations with the 
contractor, program office, and various others.
    And it was basically his decision to restructure this 
program, or to recommend the restructuring of the program, and 
that decision was really only made within the last 2 or 3 
weeks. And I think it was the right decision, and obviously I 
took the personnel action I did.
    I think we have the processes in place now to monitor the 
performance of this program. And frankly, one of the reasons 
why we are getting a new program manager is to make sure that 
those kinds of things don't happen again.
    Mr. Spratt. Thank you very much, sir.
    Secretary Gates. Thank you.
    The Chairman. Thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you both for your selfless service.
    Mr. Secretary, you mentioned that they were going to come 
at us where we are vulnerable, not strong. I would suggest that 
one of our greatest vulnerabilities is our susceptibility to 
Electro-Magnetic Pulse (EMP) attack. Many of our weapons 
platforms are not hardened at all, and those that are hardened 
may not be hardened enough, if indeed the threat is 100 to 200 
kilovolts per meters, as the Russian generals told the EMP 
commission that we may have little hardening.
    I suspect that after a robust EMP laydown, we would have 
little fighting capability remaining. You mentioned the 
political interest that is driving the congressional interest 
in the joint strike fighter engine. If there is an interest in 
my district I have the honor of representing, I don't know of 
that interest. But yet, I am a strong supporter of this 
alternate engine, because I think it is the right thing to do.
    Just a couple observations that a non-initiate might make 
looking at our advance planning. First, there are a couple of 
inconsistencies. We have unmanned planes and unmanned 
submarines, yet we still have people in ships and tanks. And if 
you look at the mission of the Predator and the tank, the 
Predator in the sky gets information and blows up things, and 
that is pretty much what the tank does. And one might ask why 
do we still have people in tanks?
    I know why we have people in ships. It is not because you 
need them there to drive the ship, because there is nothing on 
the ship you couldn't do 10,000 miles away. Certainly easier to 
drive than a Predator aircraft. We have them there for damage 
control. It is because we have too few and too large platforms. 
You just can't afford to lose one, so we put people on for 
damage control.
    Which leads the non-initiate to make another observation. 
And that is that these too large and too few naval assets are a 
real vulnerability. Indeed, I am not sure we need to have that 
vulnerability. A study that was done by Art Cebrowski, one of 
three naval architecture studies, advocated a navy of 600 to 
800 ships that would cost no more than our present 200 to 300 
ships.
    Half the cost of keeping a ship at sea is the people on the 
ship. You got half the people off the ship, you could buy 50 
percent more ships. With the same budget, if you got all the 
people off ships, you could double the amount of money that 
we--or the amount of ships that we have out there.
    And then, an observation about our deep strike bombers. 
Stealth is not invisible, it is just smaller. And with the 
Chinese ability to take out a satellite, one wonders a little 
about the survivability of these deep strike bombers.
    Would you comment?
    Secretary Gates. Go ahead.
    Admiral Mullen. Thank you, Mr. Secretary.
    Secretary Gates. Do you want to hear about the ships or the 
people?
    Admiral Mullen. No, no. I think the unmanneds--at least 
where I am, Mr. Bartlett--is the unmanned piece, it has got to 
be a balance. We are never going to get to a point where there 
aren't people, first of all.
    Secondly, and importantly----
    Mr. Bartlett. There aren't any people on Predators, sir.
    Admiral Mullen. Well, before--and Predators are an 
important part, but they are not going to win it by themselves, 
nor will other unmanned vehicles and systems do that, at least 
as far as I can see into the future. That is just how I see 
things right now.
    With respect to the tanks, in particular what is 
instructive to me is when I visit with my friends from other 
countries who are in counter-insurgency fights, and when I talk 
to Generals Petraeus and McChrystal and Odierno, they will 
single out the importance of tanks in counter-insurgency and 
how many lives they have saved. So again, I think it is balance 
there.
    As far as ships are concerned, I think you know me well 
enough to know that we have worked for years to try to get 
people off of ships for the exact reason that you have 
described. And I think Admiral Roughead is clearly there as 
well in terms of future initiatives and systems, which don't 
take as many people.
    I am very aware of Cebrowski's study. It was very 
theoretical and if I were going to take LCS specifically, which 
was supposed to come in at a couple hundred million dollars, 
and is now pushing $500-to-$600 million per copy, I would use 
it as an example of a relatively small, relatively very fast 
and light ship, per se, and it would--with a much reduced crew 
give some significant capability. And without reliving that 
history it is very hard to create some kind of sustaining 
capability, which is where I am, and which the Cebrowski study 
didn't support, from my perspective.
    So I think we continue to proceed on this. And I take your 
point on stealth. We all understand that. All of it says to me 
is we have got to have a balance here. And we are not going to 
go unmanned overnight, nor should we, given the challenges that 
we have and the risks that are out there.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Ortiz, the gentleman from Texas.
    Mr. Ortiz. Thank you, Mr. Chairman. Thank you both for 
being with us today and I appreciate both of you detailing the 
Department's priorities. But you know, really many of the units 
that are not deployed face significant readiness shortfalls in 
equipment, personnel and training. Assuming that the drawdown 
in Iraq takes place on schedule, how much would readiness 
improve for non-deployed Army units in Fiscal Year 2011?
    And the reason that I ask this question is because I have 
had a chance to travel. We came back from Italy, and then we 
went to Germany and we visited some local units. How much will 
that improve, for non-deployed units in the Army especially?
    Admiral Mullen. What General Casey lays out with the 
buildup in Afghanistan and the drawdown in Iraq, it is probably 
the end of 2011 before he will be at dwell time of 2 to 1. 
Twice as long at home as I am deployed. That is what we look 
at. The Marine Corps will be there much nearer the end of 2010.
    And both the Commandant and the Chief of Staff of the Army 
talk to those--that dwell time--as a time where they can really 
start training to the broader spectrum of capability. And right 
now, they are still obviously very focused on training to the 
wars that we are in. I don't--I haven't seen for a long time 
any significant degradation in readiness for the units that are 
being tasked and trained and getting ready to fight these wars.
    There are still differences on some equipment requirements, 
those kinds of things. But nothing substantial, or nothing 
major, across the board. And that is from my visits in-country 
here, as well as in-theater and discussions with the chiefs.
    So I think it is roughly about a year from now for the 
Marine Corps and a year out before we start to build that. But 
primary for me in that is that the individuals and their 
families get to reset and get to--and build more resilience 
before the next deployment, in addition to putting the 
equipment and training piece of it.
    Secretary Gates. Mr. Ortiz, just as the Chairman has 
addressed the personnel side of it, let me address the 
equipment side. There is right now for Iraq roughly a $19 
billion bill for reset. That bill will probably be down to 
about $14 billion by the end of this fiscal year, and about $6 
billion by the end of 2011 for Operation Iraqi Freedom (OIF).
    We think that the reset then will not--will take about 2 
more years after that to be complete. So the full reset in 
terms of equipment would be for those forces in Iraq, roughly 
2013. The bill for Afghanistan for reset is estimated at about 
$15 billion, and it will remain at $15 billion until we start 
drawing down in Afghanistan, and then you will see the same 
kind of glide path that I just described for Iraq.
    Mr. Ortiz. A few moments ago I think that it was Admiral 
Mullen described the different platforms and equipment and 
airplanes and carriers that we are trying to build for the 
future now. How long do you anticipate it will take to build 
some of these weapons and some of these platforms that we are 
working on now?
    Admiral Mullen. Well, I mean, I will pick a couple. JSF, 
which certainly is in my view at a time in a major program 
where there are oftentimes struggles, not just in aviation 
programs, as the Secretary points out, but we get to this point 
when we are moving into testing and production and there is 
going to be some bumps along the road.
    I am not excusing them, it is just a really hard, difficult 
part of the program. But the Initial Operational Capability 
(IOC) for the first training squadron for 2011 is still on 
track, the IOC for the Marine Corps' first squadron of 2012 is 
on track. For the Air Force the 2013 is on track, and the Navy 
in 2014.
    So we are at a point in time in the program that to me this 
is typical, and we need to work hard to make sure we stay on 
this track. For the Predator, the unmanned vehicle, they have 
actually come on line at an extraordinary pace. Because of the 
urgency of war, oftentimes it generates that kind of both focus 
and capability, and that has really been since 2003, where we 
really didn't understand--we for the most part, didn't 
understand what ISR requirements were.
    We knew what ISR was, but how much, what kind, et cetera. 
And what the Predator gives us, as any unmanned vehicle does, 
it gives us the persistence that you can't have oftentimes with 
manned vehicles.
    So there are differences, but we are in the heart of 
building many of these systems right now, and I think they will 
start to deliver here in the next few years.
    Mr. Ortiz. Thank you so much. My time is up.
    The Chairman. Thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much. Secretary 
Gates, Admiral Mullen, thank you for your leadership for our 
Nation in leading our wonderful men and women in uniform. I had 
the pleasure of visiting Walter Reed yesterday and saw the real 
heroes, and they are very special young men and women.
    Admiral Mullen, a couple weeks ago--maybe a week ago--I got 
a press call from Jacksonville, North Carolina, the home of 
Camp Lejeune, and they had a--the question was about Don't Ask 
Don't Tell and wanted to know my position.
    And I shared it with them. I told them that in the 15 years 
I have been in Congress I have met many, many wonderful men and 
women in uniform, all services. And I felt like I had a good 
feel for how they felt. I realize that yesterday you said this 
was a personal feeling.
    And I want to say I respect you for your personal feelings. 
But as Chairman of the Joint Chiefs, somewhat along the line of 
what Mr. Buchanan--excuse me, Mr. McKeon was asking, maybe in a 
letter. But I would like to ask you today, do you know the 
feelings of the service chiefs as to how they feel on a repeal 
of Don't Ask Don't Tell?
    Admiral Mullen. Very specifically, Mr. Jones, it isn't a 
feeling on my part it is a belief. And I was very clear in the 
construct that Secretary Gates laid out in terms of going 
through the review over the better part of this year----
    Mr. Jones. Right.
    Admiral Mullen [continuing]. That I do not know what the 
impact will be, and I do not know what the implementation 
requirements will be. And I need to understand that. There is 
very little objective data on this. It is filled, as you know, 
with emotion and strongly held opinions and beliefs, and that 
is the work we have to do over the course of this year.
    And I also spoke very clearly to the need to understand 
that, in terms of what the senior military leadership's 
principle concern is, which is the readiness and military 
effectiveness of the force. I don't speak for the chiefs in 
that regard. They will have an opportunity to do that. I have 
discussed this with them at considerable length. I would sum up 
their view to say that they need to understand that impact, as 
well, should this policy change--if and when this policy 
changes, which can only change with a law change, which happens 
here.
    Mr. Jones. Certainly. I just want to make sure that I 
understand the process and your answer. There are times that 
you sit down with the service chiefs, I am sure whether we are 
talking about Afghanistan, Iraq or any other situation 
involving our military, that you do have discussions.
    I am not asking you if you would say that a general of the 
Marine Corps or the Army, or whatever, feels this way or that 
way, but you have had these kinds of discussions with the 
service chiefs and you do know--I would hope that you as 
Chairman of the Joint Chiefs, I hope that you would know their 
feelings, even though I am not going to ask you to share those 
feelings with the committee at this time, but you do know how 
they feel about this issue and----
    Admiral Mullen. We have had several discussions on this 
over--actually over many months and again, they will testify 
shortly, and certainly I would expect them to speak to it.
    Mr. Jones. Thank you. Mr. Chairman, I would just like to--
because I want to wait until the next round possibly, but 
Admiral, I would like to on the next round, if there is another 
round, I would like to talk more in depth about the psychiatric 
needs of our military. There are some real serious problems, 
and I know that you have done everything you can to reach out 
to try to bring more people who are trained as psychiatrists or 
psychologists, but this is an issue that I think I need the 
five minutes on the next round to pursue with you.
    So with that, Mr. Chairman, I will wait until the next 
round. I yield back my 59 seconds.
    The Chairman. I thank the gentlemen. Before I call on Mr. 
Taylor, Mr. Secretary, there are classified materials that were 
supposed to come with the QDR. Will they be forthcoming?
    Secretary Gates. Let me look into that. I am not sure, Mr. 
Chairman.
    The Chairman. We would certainly appreciate that, and get 
back to us, please. Mr. Taylor?
    Mr. Taylor. Thank you, Mr. Chairman. I want to thank both--
all three of you gentlemen for your service to our Nation.
    Secretary Gates, when I saw the 82nd being deployed to 
Haiti, having been through something like that in my own 
district, it really struck me going back to Admiral Mullen's 
talk about the need to get as many of our troopers home for 
dwell time as they can, that I would really hope that you would 
explore every opportunity to fill that mission with volunteers 
from the individual augmentees from the Guard and Reserve.
    I have got to believe given our Nation's economic situation 
and the willingness of the guardsmen and reservists to serve 
that you can fill that mission with people who want to be there 
and free these combat units up to have the dwell time at home 
that they deserve.
    Second thing is, and as this kind of following up on that, 
I had to, along with Chairman Spratt, the opportunity to visit 
some troopers from the 82nd down at Kandahar province. One of 
them was on his third deployment, another on the second and 
they both--and they struck me as being extremely sincere and 
really unwilling to tell me this because on one hand, they 
wanted to be good troopers. On the other hand, they felt like 
they had to get it off their chest.
    They were extremely concerned about the rules of 
engagement. The trooper on his third tour said that, you know, 
here we are in Kandahar. This is basically the first year of 
this conflict here, and I am experiencing rules of engagement 
in my first year of this conflict here that we were in, in the 
fourth year in Iraq. As things got better in Iraq, we tightened 
up the rules of engagement.
    He was particularly disturbed at the idea of using the 
Afghan National Police to search houses. And again, this isn't 
me talking. I am relaying a message that I told that young 
trooper I would. Interestingly enough, both of them mentioned 
that after this hitch, they were getting out, and I think to a 
large extent because of their concerns of the rules of 
engagement.
    Now, I understand what General McChrystal is trying to do, 
that if you unnecessarily kill an Afghan, you have got that 
entire clan against you for the rest of their lives, but I 
would hope that you would keep this in mind, there has got to 
be a better way.
    And interestingly enough, his suggestion was he had no 
problem with using the Afghan National Army to search these 
houses if you had to have an Afghan face on that search, but he 
had zero confidence that the Afghan National Police in that 
area were doing their job when it came to searching these 
houses for bomb-making materials.
    Secondly, we talked about reset. There was recently outside 
of Balad an amnesty day. A Colonel from home had told people 
turn in things that aren't on the books, no questions asked. He 
had a two-mile long line of vehicles that showed up outside his 
gate the next day for amnesty; generators, fire trucks, 
ambulances, SUVs, everything under the sun, all those things 
the taxpayers paid for that somehow made their way to Iraq. I 
don't have a problem with that, but what I really want to see 
our Department make is every effort to get those things home.
    Either get them back in your inventory, or if you deem them 
something you don't need given the budget constraints of our 
cities and states and counties, get someone in the Guard or 
Reserve who used to be in local government. Let them walk 
through and see if that generator has value back home, if that 
fire truck has value back home, if that sport utility vehicle 
(SUV) has value back home. Get the words of the state surplus 
agencies and let them decide whether or not they are willing to 
pay the cost to transport it back home.
    Taxpayers paid for these things. We shouldn't let them go 
to waste and, above all, at the end of the day if you do it 
that way, if by some chance something shows up in the black 
market in Baghdad, then we have at least given the 50 states 
and the territories an opportunity to purchase it first if they 
are willing to pay the cost of getting it home.
    And, again, the taxpayers paid for it. I know in the case 
of the Guard and Reserve they have got billions of dollars of 
shortfalls on equipment, and I just think this is a heck of a 
lot better than possibly leaving these things behind.
    Lastly, on your Army new vehicle, I would highly recommend, 
as somebody who gave this gentleman fits for the past four 
years, General Brogan for that task. He has done a remarkable 
job of getting mine resistant vehicles tested, fielded and 
delivered to Iraq and Afghanistan. It is my understanding his 
tour with the Marines is almost over.
    So whether it is in uniform or out of uniform, I would 
certainly hope that you would consider him for that job of 
developing that next generation vehicle based on the great job 
he has done in his present capacity.
    And lastly, in my 19 seconds, Admiral Mullen, someone came 
to my town meeting Monday night with their 13-year-old son and 
pointed to him and said, ``The United States Naval Ship Comfort 
saved this young man's life in the aftermath of Hurricane 
Katrina.'' You sent that ship to Pascagoula, Mississippi. Thank 
you very much for doing that.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentlemen. Gentleman from Missouri, 
Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. I have been asking a 
question for two years, and I was told I was going to get the 
answer when the Quadrennial Defense Review came out. 
Unfortunately, I am still sitting here, and I have still got 
the same question.
    So I am going to lay out a list of, I think, what I believe 
are facts and, then I am trying to ask, these things don't seem 
to add up. Here are the facts.
    First of all, the Navy's estimate of its fighter shortfall 
was 243 planes, the most recent one, over 5 years. That would 
be 48 planes a year.
    Second thing is you are talking about having 10 aircraft 
carriers, and I would submit that they work better if you put 
airplanes on them.
    Third point, you acknowledge that you need to keep the F-18 
line through 2013. Next point, JSF is badly behind schedule. 
You have had 16 of 168 flight tests that were planned for 2009, 
and I am not getting into the JSF and the condition of that 
other than the fact that it is slipping.
    Your own statement, Secretary Gates, shows you said, choose 
a 75 percent solution over the 99 percent solution. If you have 
got something that works well and doesn't cost as much, let's 
look at that.
    And then I just heard that we are talking about reform the 
requisition process that has to be based on realism. Well, 
regardless to how many aircraft you think we need, because that 
number seems to be about as slippery as an eel, if you have got 
about five years to possibly purchase them, we have several 
times now put multiyears in the budget encouraging you to look 
at that.
    And if you look at what the last number of the shortfall 
was, if you take 10 percent of 243, that is about what you 
would save, that is 24 aircraft that my taxpayers are going to 
get 24 more aircraft by getting that 10 percent discount. If 
you buy at the lower rate that you have suggested for this year 
at 34 aircraft, or whatever it is, you got--it is still 17 
aircraft, is what you make by going multiyear.
    So what doesn't add up to me, first of all, I don't think 
it--I don't have any kind of sense that there is a real number 
that you are willing to stand up to as exactly what the 
shortfall is. But second of all, even that, if you are going to 
buy some, why not get them at a 10 percent discount? That is my 
question.
    Secretary Gates. Well, as you suggest, we have orders 
outstanding for--and funding for--asking for--either have or 
asking funding for 59 F/A-18s, 23 Es and Fs and 36 Gs. The 
question of multiyear funding has come up before. We have 
looked at it and according to the analysis that is available to 
me, with multiyear funding at the numbers we are looking at, 
the savings is about six and a half percent.
    And because of the long-term financial commitment 
associated with multiyear funding, we have a threshold of 10 
percent. And so it is pretty well below the 10 percent 
threshold. I would say there have been--the shortfall in naval 
aircraft is a number that has, as you suggest accurately, has 
been moving around.
    The last figure that I saw in preparation for these 
hearings is a shortfall of about a hundred aircraft in 2018, 
and there are a number of strategies that people have in mind 
for mitigating that shortfall. So I think that is responsive.
    Mr. Akin. So the strategies would mean we are just not 
going to fly them as many hours, I suppose, cut back on 
training, or something like that? I mean, strategies----
    Secretary Gates. No, the----
    Mr. Akin [continuing]. Don't change the lift of an 
airframe.
    Secretary Gates. No, the mitigating strategies involve 
aligning air wing readiness with carrier readiness. It involves 
reducing the size of the Marine Corps' F/A-18C squadrons that 
involved using F/A-18E and F attrition reserve aircraft.
    So there are a number of things that we have.
    Admiral Mullen. The only thing I would like to add, Mr. 
Akin, to this is the whole--the investment in this budget in 
the EA-18 Growlers is a huge deal and a very positive step 
because we have been without a national expeditionary deployed 
ashore future because the Marine airplanes are going away here 
in the next few years, and that is a huge investment on the 
part of this Department, and it is one that is much needed.
    And the multiyear piece, those typically don't deliver 
unless you have got them out over many years. And the question 
obviously, I think, for the F/A-18 is when is the line going to 
end? And part of this is matching up. Certainly there are 
international buys that I am sure you are aware of that are 
being sought and try to also strategically match that up as 
well.
    It is a great airplane. It has been a great airplane. We 
know that, but the JSF is the right answer for the future from 
a war-fighting perspective, from my perspective.
    Mr. Akin. Thank you. My time is up. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you, gentleman, 
for being here. Our Nation is blessed to have you in the 
service that you provide to the country. It is particularly 
good, Secretary Gates, to see you here today without any sign 
of visible trauma from an encounter with ice or snow. I think 
the last time you were here you were --this time a year ago, 
you had, kind of, splints, braces from falls on ice.
    Mr. Secretary, I want to bring up a bit of a sore point. On 
January 27, 2009, when you testified here, I asked about the 
issue of burrowing and you didn't have a response at that time, 
but you said you would get back to me for the record. We did 
get a response back. Coincidentally, it was exactly one year to 
the day later, January 27, 2010. So it took one full calendar 
year to get a response signed not by you, but by Gail McGinn, 
the Deputy Under Secretary of Defense for Plans, performing the 
duty of the Under Secretary of Defense for personal readiness, 
and I found the response unsatisfactory.
    Were you aware that it had taken a year for you to get back 
a written response to the question, and did you see this letter 
before it was sent last week?
    Secretary Gates. The answer to both questions is no. And 
not getting a response for a year is inexcusable.
    Dr. Snyder. That is what I think, too. But thank you.
    Mr. Chairman, I would like to have this response and the 
attachments made a part of the record if we might, by unanimous 
consent.
    The Chairman. Without objection.
    [The information referred to can be found in the Appendix 
on page 143.]
    Dr. Snyder. And if there--I know there has been some press 
interest in the topic over the last year. If any press person 
would like a copy of these materials, I would be glad to get 
them.
    Before he left office, Secretary Pete Geren formally 
evaluated whether the two men that were shot in Little Rock in 
front of the recruiting station qualified for the Purple Heart. 
One was killed, and one was wounded. They were both in uniform 
at the time on active duty at the recruiting station. The 
conclusion was that they were not--that the alleged perpetrator 
was considered I believe the phrase is, ``A lone wolf,'' or 
something like that. I would--which is--all we ask is that 
anyone in any kind of a war at anywhere in the country or world 
be evaluated properly.
    I was reminded of this yesterday when Secretary Panetta--or 
I am sorry, Director Panetta--responded to a question about 
what he saw as a--threats of al Qaeda, and he specifically 
referred to one of his three threats as being loners.
    And I don't want to ask a response today. But if we now 
consider loners to be part of the national security threat from 
groups like al Qaeda, it may be time to evaluate our policy 
with regard to Purple Hearts specifically if we have--in fact 
think that people can get motivated--the alleged perpetrator of 
Little Rock in fact traveled to Yemen. No indications he had 
any connection with formal terrorist groups. But it may be that 
we need to evaluate that policy if in fact we consider part of 
the al Qaeda threat to be their ability to motivate the so-
called loners. And I would just leave that as an unanswered 
question today.
    A point--I want to respond a bit to the ranking member's 
comment about Don't Ask Don't Tell, that the military somehow 
can't have a divisive debate. Somehow the idea that men and 
women in uniform cannot participate in great public policy 
debates--I remember my time in Vietnam. We debated while we 
were in Vietnam whether we thought we should be in Vietnam.
    I mean, I know for a fact that this debate went on in March 
of 2003 when our troops went into Iraq. The debate continues. 
People don't lose their ability to debate policy issues because 
they are in the military at a time of war. So I think that that 
is a red herring that is an argument that somehow men and women 
in uniform can't handle tough policy----
    Mr. McKeon. The gentleman yields?
    Dr. Snyder. You have unlimited time, Mr. McKeon. I only 
have five minutes. I am sure the chairman will give you time at 
the conclusion here.
    The only point I would want to make, and I would extend as 
an invitation to anyone here, Republican or Democrat, who has 
doubts about changing this policy. If you have not sat down 
with somebody who is currently on active duty--I don't mean 
somebody who has gotten out, or been busted out, or quit, but 
somebody who is currently on active duty--I would be glad to 
arrange a telephone call to protect them.
    But yesterday the Secretary--or Admiral Mullen testified 
that people have to lie about who they are. They don't just 
have to lie about who they are. They have to lie about 
everything in their life. They can't come back from a weekend. 
They can't talk about family illness. They can't talk about 
their partner's mother dying without having to choose their 
words carefully.
    So if you are thinking about a policy that is bad for 
morale and divisive, think about the impact on these literally 
thousands of men and women in uniform serving on active duty 
today that have to choose every word carefully. They can't 
confide in their brothers and sisters in uniform of what--about 
what is going on in their personal life whether it is about a 
miscarriage, a child, a death, a split up.
    They have to lie about everything. That is what is divisive 
about this policy. And if anyone would like to take me up on 
that offer, I would be glad to try to arrange that kind of a 
phone call so you could actually talk to somebody who is in 
uniform today on active duty.
    Appreciate you all's service.
    The Chairman. Thank the gentleman.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    I am concerned about the divisiveness of the debate. But I 
am more concerned about the chance of something moving forward 
without a debate. That is my biggest concern. And I would be 
happy to talk to you about it. And I will be happy to take you 
up on your offer.
    Dr. Snyder. I am not afraid of the debate. I don't think 
anyone's afraid--the debate is going to be here. So I am glad 
to hear that you are not afraid of the debate. It needs--there 
is going to be a debate. There is going to be a----
    Mr. McKeon. Reclaiming my time. I am not afraid of the 
debate either. What I don't want is that the members of the 
service be precluded or excluded from the debate. Thank you.
    Secretary Gates. Mr. Chairman, could I say something?
    The Chairman. Who is it?
    Secretary Gates. This is me. Down here.
    The Chairman. Oh, yes. [Laughter.]
    Certainly.
    Secretary Gates. I have the rare, if not unique experience 
of having led three huge public institutions--the Central 
Intelligence Agency (CIA), in the American intelligence 
community; the sixth largest university in the country; and now 
the Department of Defense. In each of those I have led and 
managed change. And I have done it smart. And I have done it 
stupid.
    Happily I think the stupid was early. But stupid was trying 
to impose a policy from the top without any regard for the 
views of the people who were going to be affected, or the 
people who would have to effect the policy change.
    One of the purposes of the review that I have under--have 
directed be undertaken by General Hamm, and by Jeh Johnson, is 
precisely so we can understand not just the views and concerns 
of the chiefs, but of our military people and their families. 
And the impact on unit cohesion, on morale, on retention, so we 
understand what these things are so we get some facts into this 
debate. Or at least some data that we think is reliable and 
objective.
    We are going to expand the RAND Corporation (RAND) study as 
you suggested in your letter to cover a broader range of issues 
than they did in 1993. But the role of a leader it seems to me 
is to set the goal. But if you want lasting and effective 
change, you had better bring the people who are going to be 
affected by it into the discussion. And get their views, and at 
a minimum it will help you mitigate whatever negative 
consequences there are.
    That is the purpose of this review. That is why we have to 
do it thoroughly, and that is the way you get change in large 
public institutions where you have long-term professionals who 
care a very great deal about their culture, and about what they 
do. And I think that is the purpose of this review that we have 
underway.
    We have set the goal. The decision will be the Congress' 
decision. I think that is vitally important in part because it 
will enable us, should the Congress change the policy, to be 
able to tell our men and women in uniform this is the view of 
the elected representatives of the United States of America.
    So I think this review period is absolutely essential in 
terms of us understanding what we are doing, figuring out what 
the concerns are and the issues are. Helping us figure out how 
to mitigate them so that if the Congress does vote to change 
this policy, we have an understanding of how to go about 
implementing in a way that minimizes whatever negative 
consequences there are.
    Thank you.
    The Chairman. I thank you.
    Mr. Forbes, the gentleman from Virginia.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here. I want to shift 
the debate back to money and economics.
    And Admiral, some facts that we know. We have got about a 
$3 billion shortfall in our shipyards. You are more aware of 
those needs and the importance of that than probably anybody in 
this room. We also know we have a strike fighter shortfall, 
whether that is 240 planes or 100 planes. But if you look at 
240 we are talking about roughly $18 billion. So let's just 
take a third of that and say $6 billion.
    We also know that the shipbuilding plan that was submitted 
with the budget really brings us down from the floor of 313 
that many of us thought was too low to begin with to 300. The 
Office of Management and Budget (OMB) thinks we are more in a 
line to be 270. And we know that the Chinese are now at 290 
with their ships. And bottom line we are talking about needing 
another $2 to $3 billion a year if we wanted to ramp that up.
    And there is a provision in the QDR to carry a carrier to 
Mayport which would cost $600 million to $1 billion. Now the 
cop out is always to say we need to get balance. But we can't 
do balance. We can't build a half a ship. We can't build a half 
a facility at Mayport. Of those four things, can you just 
prioritize those for me if you had to do one through four if we 
had that $2 or $3 billion that we had to allocate? Give me a 
one, two, three, four prioritization of those items that I just 
recounted to you.
    Admiral Mullen. And I think you know this, Mr. Forbes, been 
on record and would only reemphasize what I have said over 
several years. I think this strategic dispersion issue for our 
major assets--specifically a carrier in Mayport--is critical.
    I certainly share your concern about investments in some of 
our large capital assets as you have indicated. And the $16 
billion that is in the shipbuilding budget this year is very 
important. But we have looked at--you, and I, and many others 
in the last decade--a requirement of certainly a minimum of 10 
ships a year.
    And the floor where I was when I was Chief of Naval 
Operations (CNO) of 313 ships of various--of a variety as the 
floor. And I was concerned and certainly remain concerned that 
we continue to chip away at that. And we won't have the Navy 
that we need in terms of overall size. So capital investment 
there is absolutely critical. Equally critical----
    Mr. Forbes. And Admiral, if you can--just cause my time is 
running out. I realize all of these are critical. But we have 
to come down sometime to just allocating limited--can you 
prioritize them for me. If you had to pick the top one to the 
lowest one, what would you put as the priority?
    Admiral Mullen. Actually, no. I can't. I mean----
    Mr. Forbes. You can't?
    Admiral Mullen [continuing]. Cause I think they are all 
very important actually.
    Mr. Forbes. Okay. And on the move to Mayport you said that 
you think the strategic dispersal risk is huge. But can you 
tell me what percentage of risk you have been told that would 
be?
    Admiral Mullen. We have had long discussions about this 
over years. We have got carriers spread out on the West Coast. 
Inside the Navy this debate has taken place over many years, 
and has come down time and time again on not putting all our 
eggs in one basket. And that means not all carriers in Norfolk.
    Mr. Forbes. Do you know the percentage of risk factor that 
was given to you by the strategic dispersal plan?
    Admiral Mullen. I think the risk actually should an event 
occur is very high.
    Mr. Forbes. Okay. But that was different than the admiral 
that did the plan who said it was very low. Is that correct?
    Admiral Mullen. I actually don't know.
    Mr. Forbes. Mr. Secretary, thank you for submitting a 
shipbuilding plan this year. However, in the shipbuilding plan 
that you gave, and the certification that you submitted as the 
statute requires, you are aware that OMB disagrees with you? 
They think that if we continue on the plan with the dollars 
that you have, that we would be down to more like 270 ships as 
opposed to 300 ships.
    Also we know that your shipbuilding report says that we can 
only expect $15.9 billion per year. But if you look at the out-
years of that plan, we would need about $17.9. We know we have 
had cost overruns that raise the price up, not down. We know 
that there are limited federal priorities in terms of monies 
that we are going to have.
    Based on those factors, how can we make the certification 
that the shipbuilding plan submitted is going to--that this 
budget is going to equal that shipbuilding plan and carry it 
out?
    Secretary Gates. Well, as you and I discussed the last time 
we talked about the 30-year shipbuilding plan, I would tell you 
that I think the near term estimates on the part of the plan 
have a significant degree of accuracy. I think the middle range 
in years is based on analysis and studies. And we don't really 
know for sure.
    And the out-years toward the end of the 2030s is mainly a 
fantasy, because nobody knows. So I would say that--and we have 
told the Navy that we probably need to get them to $16 or $17 
billion a year in the middle years, and later years of this 
decade in order to try and get to where they need to be.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for your extraordinary service to this 
country. I wanted to ask one or two personnel questions 
initially. As you stated--and I know this is very sincere 
coming from you. The most critical strategic asset that we have 
is our people. And over the last 11 years we have made a great 
effort to increase the military compensation to compete with 
the private sector. And yet this year the President's budget 
request really moves away from that practice by not enhancing 
the pay raise with the 0.5 percent that we have experienced.
    What is going to happen is that we are not able to close 
that gap as we would really like. It is getting there. But it 
still would have about a 2.4 percent gap. We started 11 years 
ago at about a 13.5 percent gap. So we are so close. We have 
additional high stress on our troops. Why not continue to move 
that gap along to close that gap this year?
    Secretary Gates. Well, let me start, and then maybe the 
Chairman will have anything to add. The 1.4 percent is driven 
by the employment cost index.
    Mrs. Davis. Right.
    Secretary Gates. So it is basically by law. And the reality 
is every year we come up here, you know, and I confess to a 
tactical error. The first year I was in this job we submitted 
2.5 percent, and the Congress gave us 3 percent. And so I said, 
okay, 3 percent. So I submitted 3 percent the next year, and we 
got 3.5 percent.
    And the reality is this has a cumulative effect that, as 
the Chairman talked about earlier, at a certain point--I mean, 
nobody cares more about our troops than we do, and we, as you 
say, we have put a lot of money into the budget for the troops.
    There are, as the Chairman pointed out--the Chairman of the 
committee pointed out early on, there are a number of increases 
in this budget in terms of housing and various family programs 
and so on. We are starting a renewal of the DOD schools, to 
rebuild those. So there is a lot in this budget for our 
families.
    But the pay increases, along with health care, frankly, are 
beginning to eat us alive. And, frankly, if you look at--you 
know, I think we have to be realistic about this--if you look 
at the economy today and the unemployment rate, that the pay 
for our troops at all levels is very competitive.
    Admiral Mullen. I mean, I would just re-emphasize that. And 
you know I said in my opening statement that this committee has 
been extraordinarily supportive of our men and women for the 
last eight years. It actually goes back much further than that, 
and that the overall compensation package has gotten better 
since the mid-1990s, when that gap was clearly there, and that 
we have to--we have to continue to get this right across a 
broad range of capabilities.
    If I were one, and as was pointed out, we fully funded 
health care this time, but the health care premiums haven't 
gone up since 1995. We cannot do this for free. I mean it 
just--this all comes out of the same pot. And health care, the 
total health bill, in this budget is $50 billion. It is going 
to go to $64 billion shortly. In 2001 it was 19. We, like, you 
know, many other people in the country, we got to get control 
of that, because that is where I buy my weapons, that is how I 
pay for my--it is the same pot of money.
    Mrs. Davis. Yes, I----
    Admiral Mullen. So we have got to keep the people thing 
right. And there has been a tremendous investment there.
    Mrs. Davis. Yes.
    Admiral Mullen. And so I am in favor----
    Mrs. Davis. I certainly--and I understand the trade-offs. I 
think all the members do. I think that we may see some pressure 
to do that again, and--and I just was interested in, you know, 
some of your rationale for that.
    If I may, very quickly, the other issues that are of 
critical importance are family support issues. And clearly, 
there is a lot that has been done. I applaud you for the focus 
on mental health.
    But we hear continually from families that they need some 
help, especially with special-needs children. And we in our 
last authorization had a family support--setting up a 
department for special-needs children. That is not in the FY 
2011 budget, and I want to ask you if you could respond to that 
and if we can continue to talk about this issue.
    Secretary Gates. All I can say, I will have to look into 
whether----
    Mr. Hale. You just look into it. I think that came too late 
to get in the budget, but my understanding is the intent is to 
set up the office. There was no appropriation for it, but we 
will reprogram to try to meet that need.
    Mrs. Davis. Okay. We hear continually from families 
regarding that. Thank you very much.
    The Chairman. Thank the gentlelady.
    Mr. LoBiondo.
    Mr. LoBiondo. Good morning and thank you, Mr. Chairman.
    Secretary Gates, Admiral Mullen, Secretary Hale, thank you 
for being here. Thank you for your service.
    I want to start with a brief statement on an issue that we 
have talked about before, and then I have a couple of 
questions. I have had serious concerns for some time about the 
fighter gap issue and how it will negatively impact our 
Nation's national and homeland defense, particularly as it 
pertains to the Air National Guard.
    As you know, beginning in 2015, 80 percent of the Air 
National Guard fighter fleet begins to run out of flying hours. 
Without aircraft, the Air National Guard will be unable to 
continue to perform the air sovereignty alert mission and 
unable to support the Air Force in overseas operations, which I 
think they have been doing magnificently--and very cost 
effectively, I might add.
    Many units will lose flying missions altogether and may 
lose highly skilled pilots and technicians, which simply cannot 
be replaced.
    Although I am supportive of the F-35 program, given the 
recent developments with F-35 being at least two years behind 
schedule in testing and projected cost overruns resulting in 
reduced procurement of F-35 in the early years, I am very 
concerned that even with the concurrent and proportional 
fielding of F-35 into the Air National Guard, there will simply 
not be enough aircraft in time to save the Air National Guard 
fighter fleet.
    In last year's defense authorization bill, myself and 
Representative Giffords requested a study of interim buy of 4.5 
generation fighters to address the Air National Guard fighter 
gap issue. Although the final report has not been forwarded to 
our offices yet, preliminary indications are that the 
industrial base could in very short order and for less money 
begin production of the 4.5 generation fighter for domestic 
issue--for domestic use.
    I know you have opposed such a solution in the past, but 
would not the 4.5 generation fighter meet several of your 
criteria for the FY 2011 budget, including emphasizing proven 
technologies, incorporating combat experience, avoiding the 
expensive solution that we have to face otherwise, and the need 
for balance, a mixture of 4th-, 4.5- and 5th-generation 
fighters, Secretary Gates or Admiral Mullen?
    Admiral Mullen. I understand the issue, sir, and I know 
that the Air Guard and the Chief of Staff of the Air Force are 
very focused on trying to get this balance right. And I think 
for us it has certainly been an issue of affordability.
    I talked about the JSF program before and, obviously, the 
transition, the time that we are in right now, I recognize the 
challenges that we have. And while we might be able to buy more 
airplanes, it is going to--that money has got to come from 
somewhere and, obviously, in the priorities that we have laid 
out, we chose not to do that.
    Secondly, having been through the re-capitalization of my 
own service, particularly in aviation a few years ago, the 
reality is if the Air Force is going to recapitalize, it is 
going to have to decommission a lot of airplanes, older 
airplanes. That is just a fact.
    Now, that creates challenges and tension inside the Air 
Force between the Air Force and the Guard, the active side of 
the Guard, and we are at a point where we are working our way 
through that.
    We still think we have time to work our way through that to 
meet what we think the requirements will be in the 2015-2016 
timeframe that I talk about--at least that is the feedback I 
get from both the head of the Guard as well as the Chief of 
Staff of the Air Force.
    Secretary Gates. I would just add the other reality is that 
as you look at fifth generation fighters with their advanced 
sensing capabilities and stealth, that we just need to come to 
grips with reality that it doesn't make any sense to replace 
legacy aircraft on a one-to-one basis.
    Now, some of the Guard units are shifting their mission, 
and some of the Air Guard units are providing the pilot 
training and the exercise with the pilotless or remotely 
piloted vehicles. And I know there are several Guard units that 
have made the switch and mission.
    So as the Chairman says, this is something we are just 
going to have to work our way through as we are in this 
transition period. But I think, just as a matter of principle, 
folks need to understand that there is not a requirement or a 
need to replace legacy aircraft on a one-to-one basis.
    I will just give you one example, if I might. It would 
take--you can do--in terms of persistent presence over a 24-
hour period, you can do with eight Reapers what it would take 
36 F-16s to do. And they carry the same armament. So we need to 
think in terms of not only the fighters, but also the remotely 
piloted vehicles as we think about the Air Force in the middle 
years of the 21st century.
    Mr. LoBiondo. I had a follow up, but my time is over. Thank 
you, Secretary Gates and Admiral Mullen.
    The Chairman. I thank the gentleman.
    We will call on Mr. Larsen, and then we will break. We have 
five votes, one 15-minute vote and four 5-minute votes. This 
will take approximately 45 minutes. We will use that time to 
have lunch, and at the end of the votes, which will be 
approximately 45 minutes, we will resume. And, hopefully, the 
witnesses can get a bite to eat between now and then. We are 
now recessed until the call back after Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I am going to play a little rapid fire, fill in the blank, 
so there are a couple of questions here that are unrelated 
subject by subject.
    But first, for Secretary Gates, with regards to the U.S. 
Air Force KC-X program, we have so many Requests for Proposals 
(RFP) coming up fairly soon. There has been discussions about 
perhaps only a single offer. What would be the DOD's approach 
if there is only a single response to the RFP for the KC-X?
    Secretary Gates. Well, obviously, we would like to have a 
competition for it, and we hope that both companies will agree 
to participate. But we will move forward. We have to have new 
tankers.
    Mr. Larsen. Chairman Mullen, with regards to the 
expeditionary squadrons for Growler, the Prowler replacement, I 
understand there are some amount of money to recapitalize 
existing Prowlers perhaps as a bridge to standing up 
expeditionary squadrons of Growlers. Is that the case in the 
budget?
    Admiral Mullen. What I didn't say earlier, and I will say 
very quickly is the Navy and the Marine Corps have really 
worked hard to mitigate this strike fighter shortfall, and I 
give them a lot of credit for that. And they have, from the 245 
or whatever the number was down to a very low number. And they 
are happy with that.
    Secondly, there is an investment here to retain the EA-6B 
squadrons as a bridge, as you would describe it, but also to be 
able to get to these EA-18Gs. Admiral Roughead has also made 
the decision that the first squadron is actually not going to 
be carrier-based. It is going to go with the fighters into 
Afghanistan.
    Mr. Larsen. Oh, okay, yes. So, but the--just for me to 
clarify, then, has the--has the decision been made, though, to 
stand up separate expeditionary squadrons of Growlers, four----
    Admiral Mullen. Four squadrons.
    Mr. Larsen. And they will provide the expeditionary effort.
    Admiral Mullen. Yes, sir.
    Mr. Larsen. And that is the plan.
    Admiral Mullen. Right.
    Mr. Larsen. Okay. Thanks.
    Back to Secretary Gates, the QDR outlines the need for 
security assistance reform, and there are some comments in your 
testimony and the Chairman's testimony on it. And I think it 
says that we will develop new and innovative approaches to 
reforming security sector assistance, but the budget request 
doesn't yet include authority or provisions such as the Section 
1206 to be able to train and equip.
    Can you talk a little bit about what you want to see happen 
with the global train and equip, the 1206 and the 1207 
programs, and whether or not we are going to see a specific 
legislative proposal that looks at reforming those?
    Secretary Gates. I don't know the answer to the last 
question. 1206, we have asked for an increase from $350 million 
to $500 million. This is really important money for our 
combatant commanders. It is the kind of assistance we have been 
providing, for example, to Yemen for their counterterrorism 
training and equipment and so on.
    We have undertaken an initiative within the executive 
branch to talk about new ways of doing this. We are clearly in 
a new world in terms of trying to figure out how do we get to a 
place before it becomes a crisis and, using both civilian and 
military capabilities, engage in building those countries' own 
capabilities.
    How we go about that has only begun to be discussed by the 
executive branch. I sent a paper around that made a suggestion 
about how to do this, modeled on the pooled concept that is 
used in Great Britain, where we and State both would have 
access to resources. The key here is agility and flexibility. 
And as whatever we do, that is what we have to build into this 
process going forward.
    Mr. Larsen. So to date, we are still looking at 1206 and 
1207 and presumably 1208. Is that----
    Secretary Gates. And the decision--you know, last year we 
talked about 1207----
    Mr. Larsen. Yes.
    Secretary Gates [continuing]. And we outlined a process of 
transition of that program to the State Department. The 
Administration decided to accelerate that process, so 1207 is 
now in the State Department.
    Mr. Larsen. In the State Department. But it still--
presumably, over the next year we will be hearing from you all 
about what reform--a reform might look like.
    Secretary Gates. I certainly hope so.
    Mr. Larsen. Okay. All right. So instead of phase zero, 
maybe phase minus one, so as you have said before--before the 
bad stuff happens.
    Secretary Gates. Exactly.
    Mr. Larsen. Thanks a lot.
    The Chairman. We will stand in recess approximately 45 
minutes.
    [Recess.]
    The Chairman. We will be resuming, and we will now call on 
Mr. Bishop, the gentleman from Utah, we are under the five 
minute rule.
    Mr. Bishop. Thank you, Mr. Chairman. Mr. Secretary, I 
appreciate you being here. There is much in your proposals for 
which--I am over here, right here, yes--much in your proposals 
that I appreciate what you have done.
    I know we have some difference in priorities, as we had 
last year. Those are an honest difference of opinion. And to be 
honest, in hindsight, I am still right. But beyond that----
    [Laughter.]
    Mr. Bishop. You made a couple of unilateral decisions last 
year with Kinetic Energy Interceptors (KEI). And we reduced our 
ground-based defense process. We have yet actually to commit to 
a long-range program of sustaining Minuteman Intercontinental 
Ballistic Missile (ICBM) III through the year 2030.
    But especially when you are talking about the Ground-Based 
Midcourse Defense (GMD) program, you said, not a forever 
decision, which I took to mean that there may be some time in 
the future where the Department decides to go ahead and produce 
additional ground-based interceptors in response to the ever-
changing threat picture that goes on--that is, unless we don't 
have an industrial and technical capability to do that in some 
point in the future. And to be honest, there is in my mind some 
serious doubts, especially with some drastic changes that have 
taken place in recent days.
    The Administration's silly decision to terminate the 
Constellation program without any kind of alternative program. 
And the rationale that I look at is more vendetta than common 
sense. It not only puts us in a second-rate situation, but it 
condemns thousands of jobs, good jobs that are dealing with 
math and engineering. And to be honest, this truly is about 
rocket science in some particular way.
    Now, Mr. Secretary, you have some good people working under 
you. And one of your Assistant Secretaries did write back in 
September that, ``I feel the industrial base issues are 
completely legitimate, because having the best defense 
industrial and technological base in the world is not a 
birthright.'' It is not about jobs, it is about certain kinds 
of jobs, very rare kinds of skills that are not easily 
replicated in the commercial world, and if allowed to erode 
would be difficult to rebuild.
    Now, I am concerned, because I think recent decisions that 
have been made, especially dealing with solid rocket motors, 
are putting us on the verge of having the experience that we 
need in the future walking out the doors in search of other 
employment, or simply filing unemployment benefits. Because we 
simply cannot turn the spigot on and off. And if, in the 
future, we need to increase that, we have to have the 
capability and may not have the luxury of time to reconstitute 
this capability.
    So, the question I have for you is, in the decision that 
was made, did anyone in the Obama Administration, or the 
National Aeronautics and Space Administration (NASA), or in 
OMB, may they--I understand you can say anything you want to 
about somebody that is negative, as long as you say, ``bless 
their heart'' attached to it, so OMB, bless their heart--did 
any of those consult with you or the Department of Defense on 
the potential impact for defense industrial bases, with NASA's 
termination of the Constellation program and the Ares rockets 
program?
    Secretary Gates. Not that I recall.
    But I would just say in response to a comment you made 
early on, I said these decisions on the Ground-Based 
Interceptors (GBI) and on Fort Greely aren't forever. And, in 
fact, we are going to complete the 2006 buy of 47 GBIs. This 
budget contains five more over the next several years. And we 
will complete the second missile field.
    Mr. Bishop. Mr. Secretary, I appreciate that. But my 
concern is, we need to have an industrial base. And sometimes, 
especially with the subcontractors, there is a very limited 
amount of that base.
    The decision that NASA--that is made dealing with NASA's 
going forward in the future--does have impacts on what you can 
do in the Department of Defense.
    So, I would hope you would agree that this could be 
potentially a very serious problem. I am concerned if you no 
longer have the industrial base to create the motors that are 
necessary for these programs.
    And I hope you would see--I hope you would admit that there 
is some kind of interaction. And don't you think you should 
have been consulted in some way as to the impact this will have 
on the Department of Defense?
    Secretary Gates. Well, the Department may have been 
consulted, Mr. Bishop. I wasn't. And I will find out if we were 
consulted.
    Mr. Bishop. Well, I hope you would agree that this is a 
significant issue that should--and a serious enough issue--you 
should have been impacted about--or it should have been 
discussed and should have been consulted about this particular 
potential.
    Secretary Gates. Yes, sir.
    Mr. Bishop. I thank you. With that, Mr.--you also mentioned 
in a follow up to what Mr. Akin said--and if I can do this very 
quickly--that last year the Navy--in 2008 said the Navy would 
face by the year 2008, 125 aircraft shortfall in 2020, last 
year it was up to 243--because of the cost of the extension of 
those to come up to 10,000, was not a cost-benefit analysis 
that was equitable.
    Do you have funding in this program budget to cover 
extensions for the F-15, F-16 and F-18, for their service life 
extensions programs?
    I am sorry. I ran out of time. And if you want to defer 
that, I will do it in writing, or somebody else can pick up the 
question, if you don't have time to do it.
    Secretary Gates. Sure. We will answer it for the record.
    [The information referred to can be found in the Appendix 
beginning on page 163.]
    Mr. Bishop. Thank you, sir. Sorry, Mr. Chairman.
    The Chairman. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Secretary, I am very pleased to see in your proposed 
budget the elimination of--eventually, by 2015--elimination 
altogether of the disabled veterans tax, referred to by some as 
concurrent receipt. And we have got to find offsets for $5.1 
billion worth of costs associated with that.
    And, Mr. Chairman, I certainly hope that we are going to 
work closely with Ways and Means and the Administration. It 
seems to me we ought to be able to find $5.1 billion over a 10-
year period of time, as large as our mandatory spending is. We 
ought to be able to do that and get this done once and for all.
    But I----
    The Chairman. If the gentleman will yield, and I will not 
take it out of your time. Last year, in this committee, we were 
able to find from other committees enough concurrent receipt 
for one year. Now, that is mandatory spending. It is not out of 
discretionary funds.
    And the Administration did not send over any--then or now--
send over any offset from mandatory funds. And consequently, we 
are at a loss. And I was quite concerned. I think other members 
of this committee were, too. So, I urged the Administration to 
send us over offsets, so we can be honest with these folks.
    Mr. Marshall. Well, Mr. Chairman, I applaud the efforts 
that you made last year to find the offsets we needed to do 
right by all these folks who have been treated so badly for so 
long.
    This is a tax. It is a tax on disabled veterans. And it is 
inexcusable, frankly, given priorities that we have.
    So, the Administration just needs to somehow find--help us 
find offsets. With all the mandatory spending we are going to 
do over a 10-year period of time, we can't find $5.1 billion? 
It makes no sense to me.
    But thank you for that, Mr. Secretary, trying to finally 
resolve this issue.
    You mentioned at least the possibility that two of the 
Brigade Combat Teams (BCT) that are now in Europe might be 
coming home. And there are at least three bases that might wind 
up receiving them.
    Let me put a plug in for Fort Stewart, or at least for 
keeping in mind one factor in trying to make that decision 
should be the impact on the local community that has partnered 
with DOD and the Army to prepare for the receipt of BCT. If it 
is New York City, that is a drop in the bucket. They are going 
to be able to absorb whatever investment that they have made. 
And that investment will be useful to them.
    The kind of investment that a small rural community makes 
to receive 10,000 or 15,000 people is relatively extraordinary. 
And that seems to me to be a factor that should weigh very 
heavily in favor of a place like Fort Stewart, where the local 
community really is very small, and the investment will not be 
absorbed. It will simply be lost.
    You are currently, I think, studying the possibility of 
small nuclear power plants at military installations around the 
United States. The EMP weapon is one reason we should be 
interested in this, that these are hardened facilities that 
produce power. Then perhaps we can get power out quickly after 
an EMP strike.
    And a final thing I would like to just ask some questions 
about. There is a real disconnect, Mr. Secretary, between you 
and the committee with regard to the second engine. You already 
know that. You announced in your opening statement that you 
would recommend that the President veto any bill that 
contemplates inclusion of the second engine.
    Here we are wondering, where is that coming from? We 
haven't seen a fiscal analysis that would support such a strong 
statement from you about how wasteful this is. In fact, in 
2007, DOD itself produced something that concluded that you 
really couldn't tell--you know, on the pure cost question--you 
couldn't really tell whether this was going to be more 
expensive or less expensive. And people widely concede that it 
does lessen risk having two available engines, and that the 
operational benefit associated with lessening the risk is 
something that is fairly significant. That is what we are 
hearing here.
    And we don't--you know, we have a new Secretary, and the 
Secretary simply announces that this is wasteful. But we don't 
really see it from what we receive and what we are getting from 
staff. If you could help us with that.
    Secretary Gates. Sure. And this will be the second year in 
a row that the Administration has taken this position. And I 
would just say, you know, from our standpoint, the Congress has 
added $1.8 billion for this program. We see it costing us 
another $2.9 billion over the next 5 years.
    And this is the only place in the world where a competition 
ends up with everybody winning at the end.
    The reality is, the most optimistic analyses and models 
that we have run show that there is little advantage to the 
taxpayer of having a second engine. The truth is, almost none 
of the customers will buy two engines. If there is a European 
engine or a Rolls-Royce/General Electric (GE) engine, the 
Europeans are probably going to buy--our European partners are 
probably going to buy that one. The Marine Corps and the Navy 
have both said they are only going to take one airplane, 
because of the limited logistics, space available on ships.
    So, the only piece of this that could be competed would be 
the Air Force part of it. And so, you end up having two engines 
for the Air Force.
    Look, the key is getting the F-135 engine program. It is 
doing well. It is completed 13,000 hours of testing out of 
14,700. The F-136 has completed 50 hours of testing. There is 
no reason to believe that the second engine won't encounter the 
same development problems the first one has.
    I will go on, but we can give you the analysis and provide 
you details on why we continue----
    Mr. Marshall. That would be great. But we keep getting 
cited to the 2007 analysis by DOD's Cost Analysis Improvement 
Group, which suggested that there really wasn't a cost 
difference between the two. And then, there are many people who 
think that there are operational advantages to having two 
engines.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Turner
    Mr. Turner. Thank you, Mr. Chairman. Mr. Secretary, 
Admiral, thank you for being here.
    I have two questions for you, Mr. Secretary. The first 
relates to your earlier statement. You said, nobody cares more 
about our troops than we do. And I believe that you mean that. 
There are, at times, disputes as to what does it mean to care 
for them. And this issue that I am going to raise is one of 
those disputes.
    Unbelievably, throughout our country there are family law 
courts that are taking custody away from our service members, 
based upon their deployment. With our chairman's support, and 
three committees of the House, this House has passed four 
times, unanimously, legislation which would protect those 
custody rights. It says simply that a family law court cannot 
take custody away from a service member based solely upon their 
service.
    I sent you a letter signed by, unbelievably, every member 
of this committee.
    When I raised this issue with you last year, and the fact 
that DOD has been opposed to this legislation, you told me at 
that time that you were unaware of DOD's opposition. You 
committed that your staff would work with me as the National 
Defense Authorization Act (NDAA) was approaching, so that 
perhaps we could come up with compromise legislation.
    Your staff met with me, and these are basically their 
responses. They said, first, it doesn't really happen. I gave 
them a number of news accounts explaining that, of course, it 
does happen.
    Secondly, they said that custody historically is not a 
matter of federal law. I provided them with a copy of the 65 
pages in the federal code that relate to Indian tribes and the 
instructions to state courts on how to deal with custody with 
respect to Indian tribes--65 pages.
    They said, then, it was state rights. You do not have one 
state that is objecting to our legislation. And, of course, I 
pointed out that the Servicemembers Civil Relief Act is, in 
itself each element, a violation of state rights, because it 
relates to state court matters.
    Your staff offered no text changes. And when I inquired as 
to whether there were any dire consequences to the troops, to 
kids, or if it was unfair to the ex-spouses, no information was 
provided to us of any dire consequences to anyone if this 
legislation would pass.
    Now, again, sir, we have a national military. For that we 
need a national standard. Our legislation only applies 
limitedly to the issue of custody based upon the service 
deployment and the threat of deployment.
    Now, sir, I wrote you on July 22nd and August 26th, asking 
to meet with you about this, to talk about your opposition. You 
responded on September 25th with one of the items, saying, 
first, I plan to personally contact the governors of each of 
the states that have yet to pass legislation addressing the 
special consideration of child custody.
    Well, my first question for you today, sir, is, I would 
believe that you are a very busy man. But certainly, a 
secretary that has time to contact every governor in this 
matter ought to have 30 minutes to sit down for you and I to 
have a conversation about this.
    So, my first question is, will you meet with me to discuss 
the issue of the threat to the child custody of our service 
members?
    Secretary Gates. Sure, I will meet with you.
    Mr. Turner. Thank you. I appreciate that.
    I think it would be beneficial. I do think that the current 
opposition at DOD is misplaced.
    Secondly, I am the ranking member of the Strategic Forces 
Subcommittee, and I have a question concerning the North 
Atlantic Treaty Organization's (NATO) strategic concept. Later 
this spring, former Secretary of State Madeleine Albright will 
provide recommendations for a NATO strategic concept to the 
NATO Secretary General, and next fall the Secretary General 
will provide his recommendations to NATO member-states for 
consideration at the Lisbon Summit.
    Secretary Gates, do you believe that NATO should be 
maintained as a nuclear alliance, based upon your assessment 
and your dialogue with fellow NATO defense ministers, do our 
nuclear deterrence capabilities in Europe still constitute 
reassurance to our allies?
    Secretary Gates. I believe they do.
    Mr. Turner. Thank you. There is a great deal of discussion 
that is going on as to whether or not that presence should 
remain, so I take it that your answer to my first part of the 
question is you believe it should be maintained as a nuclear 
alliance, yes?
    Secretary Gates. Yes.
    Mr. Turner. Thank you, Mr. Secretary.
    The Chairman. Thank the gentleman.
    The gentleman from Pennsylvania, Mr. Murphy.
    Mr. Murphy of Pennsylvania. Thanks, Mr. Chairman. Mr. 
Secretary, Mr. Chairman, thank you so much for your testimony 
today and your testimony yesterday regarding repealing Don't 
Ask Don't Tell. I am sure you heard the news just hours ago 
that the former Chairman of the Joint Chiefs of Staff Colin 
Powell also echoed and supported your decision.
    Mr. Secretary, you said yesterday it is not a question of 
if, it is a matter of how we repeal Don't Ask Don't Tell. And I 
am skeptical that the implementation review needs to take one 
year. When we passed in the Congress Don't Ask Don't Tell back 
in 1993, it took 90 days for it to be implemented.
    And I just want to make sure that you know review can't be 
an excuse for a delay. I also understand it is a two-track 
process, basically. It is us in the Congress doing our job to 
overturn the law that we passed almost 17 years ago. And 
secondly, the other track is the fact that the experts--the 
military leadership--needs to figure out a way to implement 
this non-discriminatory policy.
    If we do that via the vehicle that we talked about, the 
National Defense Authorization Act, I have only been in 
Congress for three years, but I understand every fiscal year 
when we pass it, it usually takes about eight months. So back 
in Fiscal Year 2009 we passed it on October 14, 2008 Fiscal 
Year 2010, we passed it last October 28th of 2009, and we will 
probably pass this fiscal year's budget--or I am sorry, 2011 
budget, this October in 2010.
    So while we in Congress do our job, you know, you will have 
ample time, at least in my opinion, to figure out how we should 
implement this to make sure that we are being careful. I think 
you would agree that that is ample time, meaning by the time we 
pass and it gets in effect, whether 2011 or mid-2011, you will 
have time to complete the study and figure out how exactly we 
are going to do this. Would that be accurate, Mr. Secretary and 
Mr. Chairman?
    Secretary Gates. Well, what I said yesterday was that I 
expected our work to be done before the end of the calendar 
year. The reality is there are a lot of assertions associated 
with this about what people believe and what they don't 
believe, and what attitudes and what they aren't. And as the 
Chairman said yesterday, we just don't know the facts. And so 
it is, for us, it is a dual purpose review.
    One is to get the--to have a dialogue with our people in 
uniform and their families about this change, identify problems 
and issues associated with its implementation, and figure out 
ways to mitigate those concerns.
    These kinds of major changes frankly, if done too quickly, 
have counterproductive consequences. And we need--the 
Department of Defense is the biggest, most complex, 
organization in the world. Our military culture is one of our 
greatest strengths, but it is also a strong culture.
    And so, we need to work with people, we need to get their 
input into how to go about this. And I just think this is not 
an excuse for delay, this is in fact a way to do this right in 
a way that it works. And that we mitigate or minimize negative 
consequences. I think rushing into it, mandating it by fiat 
with a very short time line would be a serious mistake.
    Admiral Mullen. The only thing I would add is one of my--I 
talked about it earlier today and yesterday about the issue of 
military effectiveness and readiness, and that is a huge 
concern. I would hope that there would be responsible 
leadership on both sides of this issue.
    And that we not do what we actually, from my perspective, 
having been in the fleet, did in the earlier debate, which was 
put the military in the middle of this. Because, we can't 
afford that now, because of the stress of two wars and all 
those things that have been laid out. That doesn't mean that it 
can't be accommodated, if it is done in a reasonable fashion.
    And the other thing from my perspective, this is a 
responsibility for--should it change--for the military to lead, 
and so there is an impact of this review. There is an 
implementation part of this, and they are linked. And so, young 
officers in positions that--like you held formerly--have to 
figure out how to lead this in the future as well.
    And I think saying it will take a discrete timeline is 
probably not known right now, in terms of it will take a month 
or two for somebody to figure that out. So, we haven't done 
this kind of review before. We don't know the impact on the 
force, and that is what we have got to--that is really what we 
have to do over the course of this year.
    Mr. Murphy of Pennsylvania. Thank you, Mr. Chairman, and 
thank you, Mr. Secretary. And I think that us in the Congress, 
we want to make sure that we are partnering with you, to 
implement this in the right way, so that we are taking care of 
our war fighters, and we also obviously believe in the 
principles that our country stands for. And I do appreciate 
your testimony yesterday and again today. And we look forward 
to partnering with you to make sure we do this exactly in a 
diligent fashion.
    Thank you very much. Mr. Chairman, I yield back my time.
    The Chairman. Thank the gentleman.
    The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    I have just two highly unrelated questions, but I think 
that both strike to an important point. And frankly, that is in 
responsiveness on the part of the Department.
    One, Mr. Secretary, we have been talking to your staff 
about the issue of Post-Deployment Mobilization Respite Absence 
(PDMRA). I don't know who thinks of these things for names, but 
PDMRA is an important program put in place back in January of 
2007 to address those units who were mobilized for periods 
beyond what they were supposed to be.
    For example, the Minnesota National Guard was mobilized and 
sent to Iraq. They were there for 16 months for a total of a 
22-month mobilization period. Nationally, there are over 23,000 
National Guard members, over 10 percent of them from Minnesota, 
who qualify for this PDMRA payment.
    In some cases, it is thousands of dollars. Nobody has 
received a dime, not a single dime. And so, the question is 
when can these soldiers expect to receive these PDMRA payments?
    Admiral Mullen. I am going to need to take that one for the 
record.
    [The information referred to can be found in the Appendix 
beginning on page 163.]
    Mr. Kline. Okay, please do, and please get back to us 
quickly. I will tell you that this is a gigantic issue in 
Minnesota, because we have such a large Guard. They have been 
deployed multiple times. Some of them are--they are just now 
coming back, the Red Bulls, from Iraq. Right now they are in 
the process. And some of them are expecting to be deployed 
again in 2011. And they have been told now for years that they 
have this money coming to them, and nothing is there.
    Admiral Mullen. Fine. And I would just--actually, I don't 
know about the payment piece, but I was just with them, and 
they have been spectacular. And what they have done in Basra, 
they have really become the model for this Advise and Assist 
Brigade. And General Nash and his troops are, as you know, 
incredibly proud of what they have done, and they really have 
been magnificent.
    Mr. Kline. Well, thank you. Rick Nash is one of my heroes, 
as are those men and women in the Guard. Not just the Minnesota 
Guard, but as you know, the Red Bulls stretches beyond that. 
But really this issue needs to be addressed, Mr. Secretary, it 
really does. Because they have been told month after month 
after month they have earned this, it is coming. And we haven't 
even seen the implementing instructions coming out of the 
Secretary's office. And it is in law we need to do it.
    The other issue is, and we have talked about this before, 
Mr. Secretary, and that is the issue of the charter for the 
National Reconnaissance Office (NRO). We put in the last NDAA, 
language requiring that that charter be prepared and let us see 
it. And so far, there is no charter. So the question is, do you 
know what the status of that is, and when we might expect to 
see such a thing? That is a major organization with huge 
acquisition responsibilities and a horribly antiquated charter, 
and we just ought to get it done.
    Secretary Gates. My impression is that a new charter has 
been drafted, but is in interagency coordination. But let me 
check on the status of it, and we will get back to you.
    Mr. Kline. Well, I would appreciate it.
    Secretary Gates. I would like to have an answer to you on 
both of these questions by early next week.
    Mr. Kline. I would really appreciate that. And you know, 
Mr. Secretary, Admiral. You know how this works. You have got 
some hard-charging major there who has drafted this thing. And 
I will tell you, the charter has been drafted repeatedly over 
these many years, where we haven't had one.
    And it gets into a staffing sequence, and we all know what 
that means, as it gets moved up and across and back down and 
everything. And you can staff one of these things until after I 
am long retired, and frankly, both of you are long retired. And 
somebody, maybe my son or something like that, or like Duncan 
D., will be in here, somebody's son will be asking have we 
finished staffing the NRO charter? So please, I would 
appreciate that if we could get it next week.
    Thank you. I yield back, Mr. Chairman.
    Secretary Gates. Mr. Kline, nobody is more familiar with 
that problem than I am.
    Mr. Kline. Mr. Secretary, I actually knew that. And I knew 
you would be responding. But it is, it is critical that we get 
this done. It is so important.
    Thank you.
    The Chairman. Thank the gentleman.
    Ms. Shea-Porter, the gentlelady from New Hampshire.
    Ms. Shea-Porter. Thank you, and thank you both for being 
here.
    I continue to be concerned about the open air pits, which 
have been linked to chronic disease and illnesses among service 
members. Last year, my amendment to the NDAA prohibited open 
burn pits, but you were allowed, Mr. Secretary, if you saw--to 
get an exemption--if you saw no other alternatives.
    Could you please tell me where are on those right now?
    Secretary Gates. My recollection is--and I will have to get 
you a more up-to-date report--my recollection is that a number 
of the burn pits have in fact been shut down. And they have put 
new regulations in place in terms of using them. But in terms 
of where we are in shutting them all down, I am just not 
certain. I don't know, Chairman, if you know.
    Ms. Shea-Porter. Okay.
    Secretary Gates. But we will get an update for you.
    Ms. Shea-Porter. Thank you.
    [The information referred to was not available at the time 
of printing.]
    Secretary Gates. But I know that some have been--some of 
the larger ones have been shut down.
    Ms. Shea-Porter. Thank you, and I appreciate that.
    I also wanted to ask you about the community defense 
initiatives. General McChrystal was involved in that, and I 
support that. He said that you know it would be a good way to 
get the Afghans involved in their defense. And I think it would 
provide a lighter footprint for us.
    But now, I understand that Ambassador Eikenberry has 
blocked some of the funding for that. And so, I would like to 
ask you about that as well? Is that part of our counter-
terrorism strategy, or is it not?
    Admiral Mullen. I think it still is. I am not aware that 
Ambassador Eikenberry had done that, and I can take a look at 
it and get you a more thorough answer specifically. The whole 
focus at that level is an important part of the overall 
approach as well.
    [The information referred to is classified and retained in 
the committee files.]
    Secretary Gates. I think that the--you know, my view is 
that the ultimate solution in Afghanistan is a variety of 
security elements. Local tribesmen, local community defense 
groups, police, the army, and so on. And particularly at the 
provincial and sub-provincial level, re-empowering the tribal 
elders, and so on.
    The worry that everybody shares and the source of caution 
is the last thing we want to do is re-create or re-empower 
warlords. And so, if there is a reservation on the ground, it 
is the worry that in one place or another, that the risk of 
doing that is high.
    Ms. Shea-Porter. Well, do you think that the Afghan 
councils in the communities are strong enough?
    Secretary Gates. I think if--my guess is that it probably 
varies very much from locality to locality. And it may be that 
the way to approach this is on a case-by-case basis in terms of 
whether the local governance is strong enough to have one of 
these community defense organizations without running the risk 
of warlordism.
    Ms. Shea-Porter. But you do think it is possible to do 
that? Because we know that the central government is weak, to 
be kind about it. And we also know that this is part of our 
whole overall strategy. I mean, how important would you rate 
that strategy?
    Secretary Gates. I think it is important.
    Ms. Shea-Porter. Important enough to----
    Secretary Gates. And I think this needs to be part of our 
toolkit. But I also am prepared to acknowledge that it is 
really up to the Ambassador and General McChrystal and their 
colleagues to decide where this works and where it won't.
    Admiral Mullen. I would only add, ma'am, that in the 
operations that General McChrystal directs, it is very much 
integrated with the Afghan security forces, the army and the 
police, as well as on infrastructure or a--the part of the 
hold-and-build, to be able to build beyond that, right down to 
the local level.
    So that is--it is being integrated into operations as we 
speak. And it is also informing the government in Kabul, which 
certainly has a lot of work to do as well.
    Ms. Shea-Porter. But it does seem to be a pretty big 
difference right now between the military and between the 
Ambassador. So I would appreciate it if you could get back to 
me on that as well.
    Thank you, and I yield back.
    The Chairman. The gentlelady yields back.
    Mr. Rogers from Alabama.
    Mr. Rogers. Thank you, Mr. Chairman. And I would like to 
say I had never been more proud of the chairman of this 
committee than I was in December of last year when Deputy 
Secretary Lynn spoke to us about Guantanamo Bay. And the 
chairman opened up the hearing by telling him, ``This committee 
and this Congress is not going to give you a penny to buy a 
prison in Illinois to bring detainees to this country.''
    And I can tell you he was speaking for all of us when he 
said that. So that $150 million that you got in your budget as 
far as I am concerned you can go ahead and strike it. I want 
you to know I think that this is asinine to talk about bringing 
a 100 detainees to this country, and spending $500 million to 
do it when we are in a time of these incredible deficits--10 
percent unemployment. It is just reckless spending that we 
can't afford.
    So I hope you will take that leave from the chairman of 
this committee and go ahead and strike that amount. I did want 
to speak a little bit--you told Mr. McKeon that you felt the 
arrest of the Christmas Day bomber, and turning him over to the 
private criminal authority--not the private--the criminal 
authorities. You would leave whether that is--the judgment as 
to whether or not that was a good decision to Attorney General 
Holder. Is that correct?
    Secretary Gates. Yes, sir.
    Mr. Rogers. With your background as CIA Director, and 
leading the Defense Department--very competently in both jobs--
do you really believe in 50 minutes we got the information we 
needed from that Christmas Day bomber?
    Secretary Gates. Well, as I said earlier, I think that 
there have been some lessons learned. I know we got some--I 
know we got a lot of information during that period. I believe 
that going forward we now have the protocols in place, and that 
kind of multi-agency interrogation--experienced interrogation 
team that also knows that if there is a national security 
threat they can delay Mirandizing somebody.
    I think we now have got the protocols in place that going 
forward we will be able to fully exploit anybody that gets 
caught like that.
    Mr. Rogers. Again my question though is after 50 minutes he 
was turned over to the criminal prosecution, and was given a 
lawyer. And I am a recovering attorney. His lawyer is not going 
to let him talk any more. So do you believe that we got all the 
information we needed to get from him in 50 minutes?
    Secretary Gates. No, sir.
    Mr. Rogers. Thank you.
    I wanted to ask you about the 1230 report measuring the 
progress in Afghanistan that was due last September. When will 
we see that?
    Secretary Gates. I will just have to check. I am not sure.
    Mr. Rogers. Great. And also with regard to metrics. When 
will we receive an update on how we are doing on benchmarks and 
goals in Afghanistan?
    Secretary Gates. We got this question in the Senate 
yesterday. And, frankly, I thought that they had been shared 
with the committees. They had been worked in the interagency. 
And so I will need to find out what happened to that because 
frankly I thought they were already up here.
    Mr. Rogers. Yes. I would like to get that. And then finally 
General McChrystal as I understand asked for a little more than 
30,000 troops--of our troops, and he got 30, and that is good. 
But is he capped at that? If he needs an additional 5,000 or 
10,000 troops in Afghanistan in the next 16-17 months, is he 
going to have the flexibility to get those?
    Admiral Mullen. General McChrystal worked his way, as we 
all did, through the strategy. And the overall approach is--
satisfied with the resources that have been made available to 
him. And he is a NATO commander. So it is not just U.S. 
forces----
    Mr. Rogers. Right. I understand that.
    Admiral Mullen [continuing]. As I--and there are 43 plus 
countries contributing over there, which is significant in 
terms of commitment. And we are hopeful that there are an 
additional 7,000 to 10,000 troops have come from NATO, and 
working that pretty hard as well. So General McChrystal thinks 
he has the--sorry the resources he needs to match the strategy 
that he is executing.
    There are very few commanders quite frankly that I have 
ever met--myself included--that don't want more.
    Mr. Rogers. Right. Well, and that----
    Admiral Mullen. And that is okay. Now we have matched that 
up.
    Secretary Gates. I would just also add that in his 
decisions the President gave me the authority to add up to 
within a range of about 10 percent if I identified critically 
needed enablers, counter-Improvised Explosive Device (IED), 
ISR, and so on. And so I do have some flexibility.
    Mr. Rogers. Excellent. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And thank the 
witnesses for their endurance here today.
    I wanted to focus on the shipbuilding plan for a minute. 
This year's budget and the shipbuilding plan follows on last 
year's start up investment in the follow-on class to the Ohio--
the Ballistic Missile Submarine (SSBN) program. There is 
roughly about $700 million in this year's budget. Last year 
there was close to $500 million that was approved by the 
Congress.
    Certainly an indication, as the Secretary said earlier, 
that we are not just standing still in terms of our weapons 
procurement in the future. In the shipbuilding plan it actually 
had some language that was--sounded urgent. There was no leeway 
in this plan to allow a later start or any delay in the 
procurement plan.
    So I just kind of throw you an alley-oop pass here. Can you 
explain to the committee why the replacement is a priority for 
the Department of Defense this year?
    Admiral Mullen. Well, I actually--I think that you have 
summed it up. There isn't a lot of room. We put the money in 
last year in this recognizing that the kind of long-lead that 
it takes to develop this kind of new capability. And that we 
have an expectation that it will replace those submarines that 
are out there now just in time.
    Though it is years away, but it is very long-lead to 
initiate this investment--the development piece of it. And then 
to replace those submarines. Even in the face of--and we are 
going through Strategic Arms Reduction Treaty (START) 
negotiations with the Russians. And even in the face of that, 
this part of the triad--the submarine part of the triad is--
everybody believes is an incredibly important and critical part 
of that triad.
    So the investment is right.
    Secretary Gates. Mr. Courtney, I would also add that we 
also have in this budget a little over $1 billion for the 
national nuclear security agency to begin work on a new Navy 
nuclear reactor.
    Mr. Courtney. And, again, the plan really matches up with 
what the admiral just said. What it also shows though is that 
over the mid-range that it really--that once the SSBN program 
really hits its stride, it is going to pick up a lot of space 
in terms of the shipbuilding budget.
    We had a hearing at our subcommittee a couple of weeks ago 
where there were some experts who were actually suggesting that 
because it is such an essential part of our nuclear deterrence, 
that really--and it will take up so much space in the 
shipbuilding program, that consideration ought to be given to 
sort of funding it in a separate account similar to the way 
missile defense has presently got its own place in the federal 
budget.
    Because, again, there is just going to be another zero-sum 
gain in terms of a lot of other shipbuilding programs. Once--as 
I said, the SSBN hits its full construction phase. I wonder if 
you had any comments about that sort of suggestion as a way of 
protecting----
    Admiral Mullen. Not a new idea. Everybody would like to 
have their own isolated account that gets fully funded every 
year. And this is a strategic asset. So I don't say that 
lightly. It is not the first time that has come up. And it is 
an extraordinary percentage of the shipbuilding budget. And it 
is just funding one line. So I think there--over time there 
clearly will be competition for those dollars. So isolating 
them as per suggested certainly is one solution.
    But it goes back to an earlier discussion about the overall 
investment in that account particularly as we now are at two 
submarines a year for Virginia, and then as this--which we will 
do for the foreseeable future. And as we look at the SSBN bill 
that is going to be--I don't know what the percentage is, but 
half of the Shipbuilding and Conversion, Navy (SCN) budget or 
something like that which calls for--and again I think that has 
got to grow over time in a pretty tough environment.
    Secretary Gates. I would just add there is a longer term 
issue here. For the period during from now until 2015 I believe 
that we can live within the numbers that we have been given and 
that are forecast for us without sacrificing force structure. 
But beyond that time the Defense Department cannot sustain the 
current force structure without real growth on an annual basis 
of somewhere between 2 and 3 percent.
    Mr. Courtney. And another I think important change that we 
have to pursue here is about being smarter in terms of the way 
we buy the systems. The weapons procurement reform bill that we 
passed last year, it seemed that, you know, we were trying to 
move towards, you know, a design and then build process where 
we are not sort of mixing up the two at the same time which is 
wasteful. And it--and I would just say that the SSBN investment 
that this budget has in terms of making sure that we as you 
said get this thing done right so that when the time comes to 
start building, that we can maybe even bring some of the costs 
of the vessels down once we hit that stage of the process.
    Admiral Mullen. My only comment on that would be that I 
would take what in particular Virginia class submarine program 
has done. They are actually at two-a-year quite frankly in 
great part because they were so disciplined, and were able to 
create savings in that program. We have got to do that in the 
submarine--in the SSBN program, and other major programs as 
well.
    The Chairman. Thank the gentleman.
    The gentleman from Pennsylvania, Mr. Sestak. Excuse me, Mr. 
Wittman, then Mr. Sestak.
    Mr. Wittman. Thank you, Mr. Chairman. Thank you, gentlemen. 
Thank you so much for joining us today, and thank you for your 
service to our Nation.
    Mr. Secretary, as you know I have been working with my 
Virginia colleagues to ensure that key strategic decisions are 
answered. And that we are really spending our resources 
properly specifically with regard to moving a carrier to 
Mayport. And we have asked repeatedly from your Department 
about issues and information related to cost and strategic 
necessity. And we appreciate you giving us that information 
back.
    According to an article yesterday in the Jacksonville press 
Senator Nelson is quoted as saying, ``The Secretary of Defense 
looked me in the eyes two and a half months ago, and said, `You 
don't have anything to worry about.' '' Furthermore the leaked 
copy of the QDR we saw in December didn't specifically mention 
Mayport. But the final version of the QDR we see that Mayport 
is specifically mentioned as a home-porting for another 
carrier.
    Mr. Secretary, can you verify Senator Nelson's comments in 
the press yesterday, and can you give us an idea about why 
there was a last minute change in the content of the QDR?
    Secretary Gates. Well first of all I don't remember those 
exact words, but I have known for some period of time since we 
were early into the budget process the priority that the Navy 
attaches to the strategic dispersion. And the continued 
priority that they attach to having a carrier at Mayport. And I 
pressed them very hard in the meetings. You know, you have 
limited resources. Is this how you want to spend your money? Do 
you think this is more important than other things--other Navy 
needs?
    And both the Secretary of the Navy, and the Chairman--the 
CNO said, ``Yes.'' So I have no reason to doubt that I gave 
Senator Nelson that kind of assurance based on the Navy's own 
assessment of their priorities. I was unaware that the draft of 
the QDR on that issue had changed between an earlier draft in 
December and the final draft.
    Mr. Wittman. Okay.
    Admiral Mullen, you had spoken earlier about the strategic 
dispersal plan, and Mr. Secretary you had spoken earlier about 
realism with risk in resources. And I think that is absolutely 
applicable in this particular situation. When you talk about 
strategic dispersal plan the only two areas that I have heard 
strategic dispersal talked about is in the Congressional 
Research Service report, and in the Environmental Impact 
Statement (EIS).
    Can you tell me is there a specific quantification of risk 
in either of those two documents?
    Admiral Mullen. I just--actually I don't know. I will 
repeat what I said earlier. I think the stakes are so 
exceptionally high because of the criticality of these capital 
ships. And that if we--and then in getting it wrong it costs us 
an extraordinary amount. I also certainly understand the 
investment issue.
    I mean at the same time it is oftentimes from my 
perspective too easy to just play off one investment versus 
another. This is a total capability, total portfolio, and it is 
part of the strategic view of where we have to--where I believe 
we have to place our assets. And for lots of reasons I think 
that that dispersion is important. It has been so in the past 
on the West Coast. Even on the East Coast. Kennedy was down 
there as you know, non-nuclear.
    Mr. Wittman. Yes.
    Admiral Mullen. And it is now, as well.
    Mr. Wittman. Another question. If we truly are going to 
represent realism with risk in resources, shouldn't we have 
some tangible quantification of the risk associated with 
carriers being based where they are there in Norfolk, and then 
looking at that particular risk? And then the cost associated 
with moving those carriers down there. If we do want to 
represent that realism, it seems like to me we ought to have 
that grounding, and an objective measure of risk.
    Admiral Mullen. I spend a lot of time on risk. And two 
thoughts. One is quantification is very difficult. That said, I 
would be happy to go see what work has been done and see 
where--see where we are, and where we could be. And oftentimes 
the risk assessments that I get involved in strategically, 
there is a judgment factor that is there, and it goes back to 
what we talked about earlier which is predictability or 
unpredictability about the future and all those kinds of 
things.
    And I am one that has rarely thought that we should put all 
our eggs in one basket, and that is a risk factor for me. So I 
will go back and see if there is a way to do that. I am not 
extremely positive that I can give you a number specifically.
    Mr. Wittman. Okay. Thank you. Thank you, Mr. Chairman. I 
yield back.
    The Chairman. Thank the gentlemen.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Gentlemen, thank you 
for your testimony and your presence here and your service to 
our Nation.
    If I could, I would like to turn my attention to ballistic 
missile defense issues. As the chair of the Strategic Forces 
subcommittee, this is something I would say we are following 
very closely right now, and the President's new phased adaptive 
approach to missile defense has significant force structure 
implications and have these been quantified yet, number one?
    And number two, in 2007, the Joint Capability Mix Study to 
approve by DOD's Joint Requirements Oversight Council concluded 
that combatant commanders required at least twice as many SM-3 
and Terminal High Altitude Area Defense (THAAD) interceptors as 
were planned at the time. And my question is does the 
President's budget fund procurement of a new SM-3 and THAAD 
interceptors to meet predicted inventory levels to support this 
new approach?
    Secretary Gates. To answer the second part of your question 
first, the answer is yes, there is a substantial plus up in the 
budget of both THAAD missiles and batteries and the purchase of 
SM-3 missiles and development of a land-based SM-3 that could 
be deployed to Europe or elsewhere.
    So there is the--just specifically, it adds a battery of 
ground components, it adds 67 THAAD interceptors, it delivers 
the THAAD batteries numbers 2 and 3 and 32 interceptors for 
those. So this is an area where we have, I think, significantly 
plussed up the budget. And as I commented earlier, at the same 
time, we have over $1.3 billion in this budget to continue the 
further development of the ground based interceptors as well 
including both the two-stage and three-stage and finishing the 
second missile field at Fort Greely.
    I am sorry, what was the first part of the question?
    Mr. Langevin. The first question was the President's new 
phase adapted approach to missile defense had significant force 
structure implications and have these yet been quantified?
    Secretary Gates. I don't know that they have been 
quantified.
    Admiral Mullen. Clearly the initial phase of this is--a lot 
of it is sea-based and depending on where this goes--and it is 
a threat-based regionally focused approach, which I--quite 
frankly, I applaud because I think that has been a very 
reasonable approach as do I think the decision to put SM-3s--to 
land base them because I think that has lots of possibilities.
    I think the longer-term force structure issue though, it 
will be in ships, and a concern I have had for many years is do 
you turn these into virtual SSBNs where they can--you know, 
this is all they do and I don't support that. I think these 
Aegis ships have multi-missions and we have to keep that in 
mind.
    And I also think we need to upgrade the ships that we have 
to this capability before--which is a lot less expensive than 
buying, you know, many more Aegis ships. And that is the--I 
think, the debate that we are going through right now. And it 
obviously depends on our concept of operations as to what the 
force structure implications there would be as well as on the 
ground side and where we would need them--where we would want 
to have them both either forward-based or be able to move them 
based on some kind of conflict.
    Secretary Gates. We have funding for conversion of 23 ships 
to Aegis capability and this budget adds three more.
    Mr. Langevin. Thank you. Let me turn quickly now, if I 
could, to an issue of cyber security, something that I have 
been very involved with and follow very closely with--in 
addition to my work here, I also sit on the House Intelligence 
Committee. We just had Director Blair with us this morning and 
one of the first things that he identified in his threat 
assessments was the fact that cyber security is probably one of 
the number one threats faced in the Nation right now.
    Let me ask you, what system should the government view as 
within the national security framework and what is the status 
of the establishment of the sub-unified command under Strategic 
Command (STRATCOM) and do you have updated organizational 
structures from the services and defense agencies to respond to 
Cyber Command?
    Secretary Gates. Yes. Both the Navy and the Air Force have 
stood up their own versions of a Cyber Command. The Army is in 
the process of doing that. We are ready to proceed with the 
establishment of the four-star Cyber Command, the sub-unified 
command under STRATCOM. We are awaiting the confirmation of its 
first director by the Senate.
    And we--the QDR, I think, makes very clear that we regard 
the cyber problem in cyberspace as a huge priority going 
forward, and there are substantial resources in the budget for 
cyber both for people and capabilities.
    Mr. Langevin. Thank you. I yield back.
    The Chairman. Thank the gentleman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman, and gentlemen, thanks 
for being here. Admiral Mullen, thank you, sir. My little 
brother is on his, I think, sixth months out of one year in 
Taji right now, 1st Stryker Brigade, and he appreciates 
everything you do and so does his wife and two little girls and 
his unborn son here that they have had while he has been in the 
Army. I appreciate everything that you do. And Mr. Secretary, 
thank you, sir, for everything that you do.
    The thing that concerns me, and I am only going to touch on 
this to prep us--this statement is the Senate Armed Services 
Committee has now had a full hour hearing with the full 
committee on Don't Ask Don't Tell. In this committee here or in 
that Senate committee, we have yet to have a full committee 
hearing on IEDs, the number one cause of death and casualties 
over in Iraq and Afghanistan.
    Last year, we had 322 killed because of roadside bombs, 
1,818 maimed and wounded. This year, just in January, 32 killed 
in action (KIA) and 137 wounded. I understand that there are a 
lot of budget issues, there are a lot of social issues that you 
have to work through, but I would like to make it so that our 
priority isn't the social issues in the military.
    The budget issues are important, but I think when you have 
18- and 19-year-olds and my little brother and my friends and 
family and many of us here have the exact same out there 
fighting, I think our priorities should be with winning. 
JIEDDO, the Joint IED Defeat Organization, has gotten over 
$17.2 billion since its inception. It has got a staff of 4,800 
people.
    And what I would like to know, Mr. Secretary and Admiral, 
is, do you think that they are living up to the standards that 
we set for them when they were created and do you think that 
they are doing what they should be doing? And I commend you, 
Mr. Secretary, you have the ISR Task Force, IED Task Force. I 
met with Dr. Carter, General Paxton. They have been very 
helpful, and I know that this is one of your number one 
priorities.
    So what are we doing right now because, Mr. Secretary, you 
are in that chain of command coming down from President Obama 
to where you can mobilize the industrial base and you can 
mobilize our military technology people and our military and 
you can give orders to say we are going to stop IEDs and here 
is how we are going to do it. We are going to have 24 hour 
surveillance, we are going to have persistent surveillance.
    So sir, that is--is my question--is JIEDDO living up to 
what it should be doing with the amount of money that it's been 
given and what more can we do to protect our men and women that 
are out there fighting every day?
    Secretary Gates. I think JIEDDO is doing what they have 
been asked to do and I think they are doing a good job of it, 
but JIEDDO is not the answer to the problem alone. And as you 
have suggested, ISR capabilities are very important. We have 
basically maxed out the production capability. We are pushing 
everything we can into that area.
    I met with Dr. Carter and General Paxton last week. There 
are a portfolio of capabilities that I told them to proceed 
with buying, including significantly increased number of 
aerostats that can provide persistent coverage, a variety of 
other sensors that can be used to have persistent coverage in 
the vicinity of our forward operating bases and so on.
    And I have told them not to worry about the money and not 
to worry about the numbers, but to just get them out there as 
fast as possible and they are proceeding to do that. There are 
a lot of other aspects of this.
    One is, unlike Iraq, the primary substance for IEDs in 
Afghanistan is ammonium nitrate. It is illegal in Afghanistan. 
And so we are now forming task forces--General McChrystal is 
forming task forces to try and break the smuggling that works 
for ammonium nitrate. One of our mine resistant ambush 
protected vehicles (MRAP) that was blown in half, there was 
1,500 pounds of this stuff.
    And so that is another threat. We need to get more labs 
into Afghanistan. We had a lot of labs to deal with, the IED 
forensics in Iraq and we have not been quick enough to get 
those labs up and running in Afghanistan. And so the purpose of 
appointing Dr. Carter and General Paxton to look at this is 
that there are a number of different elements of the Pentagon 
who are working the IED effort and I think each of them in 
their own way is doing a good job.
    The trouble is I don't think that effort has been 
sufficiently integrated across all of these different lines of 
effort. And one of the things that I have asked them to do is 
when their task force stands down, what do we do to make sure 
there is somebody applying a blow torch to this issue in the E-
ring to make sure that these different parts are talking to 
each other and that the equipment is flowing to General 
McChrystal as quickly as possible.
    The other concept that they have come up with that I think 
has a lot of merit is basically a warehouse approach to counter 
IED equipment at the battalion level so that a whole array of 
equipment is available to the different teams that go out so 
that they can pick and choose the equipment that is most 
appropriate to the kind of terrain they are going to be on that 
day.
    Mr. Hunter. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    The Chairman. Thank the gentleman. Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman. Mr. Secretary, on 
Don't Ask Don't Tell, thank you for the effort you and the 
Admiral have done.
    I have a question, and I liked your explanation of how to 
change an institution as far as a massive change comes about. 
At the same time, I thought the Chairman said very well the 
other day, this is a matter of integrity. You are asking 
someone to live a lie as well as an institution is abiding that 
or words to that effect.
    We are able to turn on a dime and fix protocols right away 
as you just mentioned because we didn't do them well for that 
terrorist on that aircraft. So I wondered if this is a matter 
of principle, equality, can't we turn more rapidly rather than 
wait a year to have to do a study on implementing?
    If not, would you support the President issuing an 
executive order under stop--what do they call it--stop-loss so 
that we don't have these individuals that will soon be 
permitted to stay be pushed out?
    Secretary Gates. Well, first of all, Congress passed the 
stop loss law a decade before it passed Don't Ask Don't Tell, 
and it is the view of the General Counsel at the Department of 
Defense that the President would not have the authority to do 
that under an executive order.
    Mr. Sestak. Under stop loss?
    Secretary Gates. Under stop loss. I said we would deliver--
--
    Mr. Sestak. If we did, we----
    Secretary Gates [continuing]. I said we would complete this 
review before the end of the calendar year. I don't know how 
long it is going to take. All I know is I want it to be 
thorough, and I want to have the opportunity to have the kind 
of dialogue with our men and women in uniform and their 
families to assess the facts in this situation. We are going to 
redo the RAND study of 1993 with a much expanded charter as Mr. 
McKeon has asked for.
    And I think it is we are not delaying this but it is 
important to do it right, and I----
    Mr. Sestak. Yes, sir, I wasn't trying to insinuate that 
anyone was delaying it. Just we tend to have a military that is 
very ready to do things and it just seemed to be--and I really 
thought you spoke well of it as a matter of integrity.
    If I could just--because I only have a moment, my second 
question has to do with when General Pace testified here, and 
he may have been along-side you, sir, that we could not meet 
our warfare commitments with the Army for, like, 5027, South 
Korea, but that the Air Force and the Navy and the others could 
back that up, and with acceptable risk. And I think you even 
may have testified that way, Mr. Chairman.
    With a drawdown in Iraq and with the amount that we are 
putting in Afghanistan, which I support, when will we be able 
to meet that and other commitments that we once did, prior to 
the conflict in Iraq beginning, so that we do have an Army that 
is able to meet its other commitments in terms of readiness to 
do so without asking the other units, services to fill in?
    Secretary Gates. Let me respond, then, quickly, the 
Chairman-I think what we have testified to, including General 
Pace, was that we could not get the Army units required for 
South Korea into South Korea on the timeline required by the 
plan. That is not to say they wouldn't get there. It is just 
that they wouldn't get in there as quickly because of the 
commitments that we have in Iraq and Afghanistan. And so it is 
certainly initially we would be----
    Mr. Sestak. Yes, sir.
    Secretary Gates [continuing]. Especially dependent on the 
Navy and the Air Force.
    Admiral Mullen. And I would only add that as we look at the 
timeline that you just described, end of 2011, Army is out of--
we are out of Iraq. It is the beginning of reset, really, for 
the Army in terms of equipment and actually training. And there 
is a full spectrum training both in the Army and the Marine 
Corps that just has not been----
    Mr. Sestak. Haven't been doing.
    Admiral Mullen [continuing]. Have not been doing that, so--
--
    Mr. Sestak. It is still we are seeing a number of years.
    Admiral Mullen [continuing]. Ideally, probably a year or 
two before we are well into that, to be able to do it on 
something that--on a timeline we choose. We don't always get 
that choice.
    Mr. Sestak. One last question? Actually there are two, but 
I have run out of time. Pakistan--you mentioned the benchmarks 
that you thought had come up, and I think we got a draft of 
them, actually, in September.
    Were these--I honestly feel the increase in troops has 
almost more to do with Pakistan, and it is really the linchpin 
of success for us over there, not--more so than Afghanistan, 
and whether al Qaeda is eradicated by them with our assistance.
    Are the benchmarks also, which I didn't see in the draft 
that came across for Pakistan and the success that we can 
measure or the failure or the cost for that, as that is so 
critical a part of it also----
    Secretary Gates. Let me check and get you an answer for the 
record.
    [The information referred to can be found in the Appendix 
beginning on page 163.]
    Mr. Sestak. Thank you.
    Dr. Snyder [presiding]. The gentleman's time has expired.
    The gentleman from Arizona, Mr. Franks, for five minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for all that you do for the country.
    Admiral Mullen, if it is all right, I will address you 
first, sir. You indicated in your submitted testimony on page 
14 that you were growing concerned about the defense industrial 
base, particularly in shipbuilding and space. And, of course, I 
share those concerns.
    I am concerned that the ship requirements haven't changed 
since 2006. And while there has been significant growth in the 
demand and emphasis for Aegis ships to support Ballistic 
Missile Defense (BMD) missions, in fact the QDR doesn't reflect 
an increase in Navy ships to reflect the increased mission 
requirements.
    The ballistic missile defense review acknowledges a range 
of ballistic missile threats with growing capabilities and 
inventory, so there is obviously a need for the U.S. to invest 
in robust missile defenses. But the budget doesn't seem to 
indicate that.
    And I am just wondering in terms of investing in our 
architecture that supports BMD, are you concerned that we are 
overburdening the Aegis ships with the addition of BMD missions 
without providing any additional resources for infrastructure 
to support the growing mission?
    And with the addition of BMD missions added to the Aegis 
ships, how many more ships do you think might be needed?
    Admiral Mullen. As I said, I think earlier that I think it 
is important we upgrade the ships that we have. I think we have 
84 Aegis ships. I may get that wrong by a number or two, but 
making as many of them missile defense capable as possible. At 
the level that we are upgrading, the 23, going to three more is 
a key piece. And that is the fleet that we have right now.
    I think it is to be determined how big the fleet should be 
with respect to additional ships that meet this requirement, 
which I talked about earlier. And I am, as I said earlier, 
long-term concerned about the industrial base, have been 
concerned about the industrial base in shipbuilding and in 
space, and that we need to certainly incorporate that into our 
thinking as to how we invest, because without a decent 
industrial base, we can't move forward on the systems that we 
need.
    I think we will know a lot more about the missile defense 
piece in particular, and we have invested some $8.5 billion a 
year in MDA this year, bought the Standard missiles, bought the 
THAAD missiles and batteries, so there has been a significant 
investment. I look to a future where that would continue.
    Mr. Franks. Well, I was somewhat pleasantly surprised that 
there was an increase in the missile defense budget, and I am 
glad to see that.
    Mr. Secretary, according to the Wall Street Journal, an 
article published yesterday, the U.S. and Russia have reached 
an agreement in principle on START. The delivery systems would 
fall sharply to between 700 and 800 each. However, today the 
U.S. deploys about 880 launchers when ghost or phantom systems 
are taken off the books. And this is a pretty significant 
reduction to our current nuclear deterrence.
    Where will these 10 to 25 percent cuts in the current 
nuclear triad be made?
    Secretary Gates. Let me just open and then ask the Chairman 
to respond. First of all, the agreement--there is not a 
concluded agreement yet. There are still several areas not yet 
agreed, so the agreement is still--has not been finished.
    Mr. Franks. Mr. Secretary, before I let you--I would be 
glad to hear Admiral Mullen's response, but before I let you 
go, can you provide this committee with an assurance that the 
Administration will not seek a side agreement with Russia 
outside of START that would limit our missile defense 
capabilities?
    Secretary Gates. There will be no agreement of any kind 
that limits our missile defense capabilities.
    Mr. Franks. Good enough. Thank you, sir.
    Admiral Mullen. I would only add that in the negotiations 
in which I have participated and worked very closely with the 
Secretary and the chiefs, one of--and STRATCOM, General 
Chilton--to look to how we would conclude this, and overall the 
entire architecture is taken into consideration. Again, we are 
not entirely through this, but we recognize the significance 
and the importance of the triad and needing to sustain that.
    Mr. Franks. Well, Mr. Chairman, I guess I will just throw 
one more question.
    You know, Russia now relies on its overwhelming inventory 
of tactical nuclear weapons. The Strategic Commission estimates 
the Russia has approximately 3,800 tactical nuclear weapons, 
while the U.S. has probably less than 500.
    While the U.S. reduces both its strategic and tactical 
nuclear forces, it seems that Russia continues to have the 
carte blanche to increase its inventory of tactical nuclear 
weapons. How does the Administration and the Pentagon plan to 
address this issue?
    And I will address it to you, Mr. Secretary, and then you 
can pass it to Admiral Mullen, if you choose.
    Secretary Gates. Go ahead.
    Admiral Mullen. Certainly, I am very aware of that concern, 
the negotiations that we are in right now at START follow the 
strategic weapons. But I assure you that that concern has been 
raised.
    My own view is that is that conclusion of this agreement 
opens the door to additional opportunities specifically with 
Russia and quite, as was asked earlier in--asked about earlier 
in Europe, and I would hope that including this, then, allows 
us to proceed ahead in a way that addresses some of those other 
concerns to include the number of tactical nuclear weapons that 
Russia has.
    Secretary Gates. And I would just----
    The Chairman. The gentleman's time has expired.
    Secretary Gates. I would just add that this is one of the 
reasons that I answered the question I did earlier about my 
view that the NATO alliance needs to retain a nuclear 
capability.
    Mr. Franks. Thank you both.
    Thank you, Mr. Chairman.
    Dr. Snyder [presiding]. The gentleman from Virginia, Mr. 
Nye, for five minutes.
    Mr. Nye. Thank you, Mr. Chairman.
    Mr. Secretary and Admiral, thank you for being here. 
Appreciate your dedication to our country's national security.
    The QDR is a 20-year, long-term, forward-looking planning 
document. Following up on Mr. Wittman's questions regarding the 
home-porting question, and I agree with Mr. Wittman's 
assessment that it appears that the QDR, the one single 
sentence in the QDR that has to do with home-porting East Coast 
carriers was added in a very, very late draft.
    Just noting that, Mr. Secretary, you said today that in 
your discussions with the Secretary of the Navy and the CNO, 
they had told you that that project was a priority for them, 
even when you asked them to compare with some other things. Can 
you tell us what other things did you ask them to compare it to 
that they would rank lower than this in priority?
    Secretary Gates. No, I didn't ask them to specify. I just 
said, ``Compared to your other priorities, where does this 
fit?''
    Mr. Nye. Okay. Noting that there is a sentence in the QDR 
identifying this is a project of interest to the Navy, can you 
help me understand why there is no request for the 2011 budget 
for MILCON to further the project?
    Mr. Hale. There is $239 million of MILCON in the Future 
Years Defense Program (FYDP), and I believe planning money, $2 
million fiscal year 2011, and that would be military 
construction (MILCON) and beyond fiscal year 2015 as well, as 
well as some other costs--Permanent Change of Station (PCS), et 
cetera--but there is money in the FYDP.
    Mr. Nye. But can you clarify why there is no money for 
MILCON in the 2011 budget?
    Mr. Hale. Well, I believe there is $2 million for planning 
and design funding. That is the figures I have gotten.
    Admiral Mullen. My take on that is that has been a part of 
this overall decision, if you will, in terms of when this would 
be done, what budget it would be done, et cetera. The Navy has 
been working this for years, and that the money now is 
allocated against the plan to do this.
    The only other thing I would add about the change from the 
draft document to the final document, best of my knowledge--I 
kind of walk my way from north to south--there is only one 
other port on the East Coast of this country that could 
accommodate another carrier. So I don't necessarily see that 
the change in the document is that significant, because Mayport 
has been it and is it and just identifies it, so----
    Secretary Gates. And I would just point out you are going 
to have, I think, Under Secretary Flournoy and company up here 
to brief on the QDR.
    My guess is that the change took place, because in the 
final weeks of the QDR is when it was being coordinated with 
the services and the combatant commanders. We wanted their 
input very much, and so that may have reflected service input 
and the coordination process.
    Mr. Nye. I guess my question is along these lines. If it is 
a priority, as you have said, Mr. Secretary, I am having a hard 
time understanding why the process has been allowed to continue 
to slide as it has and why there is no--why no request for 
going ahead with MILCON this year.
    Secretary Gates. Well, you got to plan it before you can 
build it.
    Mr. Nye. Admiral Mullen, I just want to follow up, 
actually, on a comment that you had made to Mr. Wittman as 
well. And I just wanted to make sure I understand what you 
meant. And just to clarify, you said that judgment is a 
factor--an individual's judgment is, of course, a factor in any 
risk assessment. I just wanted to make sure you didn't mean by 
that to suggest that it would replace an analytical study of 
risk.
    Admiral Mullen. No, I think I have spent a lot of time on 
how we assess the risk. And there are analytics which can 
support it, and it is not individual judgment, it is 
professional judgment, and oftentimes the result of a lot of 
very senior people with experience in this business that make 
the judgment. But it is not going to come out to a specific 
number.
    Mr. Nye. Okay. And that--again, that is, I think, an 
analytical study is something that we have been asking for, for 
some time to help us judge. As the Congress, we got to make 
some decisions about how we are going to spend defense dollars 
in conjunction with your recommendations. But we are talking 
about approximately a billion dollars in investment, and that 
is a lot of money, especially considering the situation that 
our country faces right now.
    And just one last follow up, Admiral Mullen. Can you just 
tell me understand why an individual's judgment could, of 
course, be applied to any risk analysis? Why wouldn't that 
apply to in terms of strategic dispersal, strategic bomber 
fleet, or our East Coast nuclear missile submarines, or indeed 
a number of the assets that we have there----
    Admiral Mullen. I think it applies in many, many areas. I 
mean this is one specific focus area, obviously, because of the 
high level of interest, but it is the kind--and I get paid to 
make those kind of judgment calls and risk calls throughout my 
life as a military leader and a have--and do here as well, as 
do others.
    Mr. Nye. Thank you, Mr. Chairman. I yield back.
    Dr. Snyder [presiding]. Thank you.
    Mr. Coffman, for five minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    And, Secretary Gates and Admiral Mullen, thank you so much 
for your service to this country.
    My first question is related to the QDR, and that is the 
future of the United States Marine Corps and whether or not we 
will have forced entry capability in terms of amphibious 
warfare. And if so we are going to retain that capability, then 
are--what about the Expeditionary Fighting Vehicle (EFV)? So 
can you all, like, just comment on that concern?
    Admiral Mullen. When you say the future of the Marine 
Corps, I think of an awful lot of things. Certainly, where the 
Marine Corps is right now, and I think General Conway says this 
as well, it is far too heavy from where the Marine Corps both 
started and wants to be in the future.
    Most of us believe that it has to have some kind of 
forcible entry capability. That usually gets into how much 
amphibious lift do you have, and I believe we have it about 
right. And the other piece is the EFV.
    Now, I mean I have been alongside EFV for a number of 
years. It is a program that has also exploded in costs. We have 
asked it to do a lot. The requirements have grown, and it has 
certainly come under visibility many times in terms of whether 
we should keep it as we make this trade. Certainly, having some 
kind of capability to move marines ashore, as EFV does, I 
think, in the future is important. What is the vehicle? EFV is 
it right now, and it is in the program. But I also think there 
are limits about how much money we can spend there.
    General Conway wants to get to a point, you know, post-
Afghanistan, if you will, where the Marine Corps is a lot 
lighter. It has gotten a lot heavier. So there is a lot of work 
to do about what the future of the Marine Corps looks like 
specifically, not just tied to one vehicle or one ship type.
    Mr. Coffman. Thank you, Admiral Mullen. And I just want to 
stress that I do believe that the Marine Corps obviously needs 
a replacement for its current amphibious vehicle if we are to 
maintain that amphibious warfare capability in terms of an 
imposed landing.
    A concern of mine in terms of Post Traumatic Stress 
Disorder (PTSD)--and that is--going to another subject--and 
that is that it seems to me that with the proper treatment, I 
think a lot of it is reversible. But yet we seem to be 
discharging a fairly significant number of military personnel 
with PTSD with no--and this goes on, I guess, beyond the 
Department of Defense. But in terms of the Veterans 
Administration--with no real capability or no ability for 
treatment, that it is not being funded.
    And so, it is certainly not fair to those of us that 
serve--those who serve this country and certainly, it is 
ultimately not fair to the taxpayers of the United States. And 
so, I wonder if you could comment on where we are in terms of 
PTSD and are we making advances.
    Secretary Gates. Yes, we both probably should take a crack 
at this. First of all, the Veterans' Administration (VA) has 
put a lot of money into this. And they have hired a lot of 
mental health care providers. And I give VA a lot of credit. 
They have made enormous progress, I would say, in the last 18 
months or so. And General Shinseki, Secretary Shinseki has 
really attached a very high priority to this, as did his 
predecessor.
    We have, I think, roughly a billion dollars in the budget 
specifically allocated to PTSD and traumatic brain injury. I 
think we all take this very seriously. I would say that the two 
problems we face are not enough mental health care providers. 
And it is not for lack of trying to hire them. We are out there 
scouring the country. We have a national shortage, if you will. 
And we are looking at ways to improve that.
    And then the other problem that we have is still the issue 
of stigma, despite the leadership of the services and service 
leaders. And I would say commanders at all levels and the fact 
that the leadership of the Army and the Marine Corps in 
particular get this. But there is still this strong culture. 
And getting these young men and women to acknowledge they have 
a problem and seek treatment is still an obstacle in front of 
us.
    Admiral Mullen. Huge problem--we are on our way, but we 
have got a long way to go. And it actually extends. We have 
seen it extend to families, quite frankly. And the stigma 
issue--I sat with a soldier the other day who was wounded 2005, 
I think, 2006 who just finally raised his hand. He is still 
active duty. He finally raised his hand. And he said, ``I need 
help.'' And it took him that long to do that. And that is the 
stigma issue.
    And we would like to figure out a way where that can be 
addressed a whole lot earlier. The fact of the matter is the 
sooner you address it, the less likely the longer term impacts 
are out there to occur.
    So that has been the real problem. But the stigma issue 
is--continues to be one that we just--that is a hurdle we have 
not gotten close to getting over.
    Dr. Snyder [presiding]. Mr. Heinrich for five minutes.
    Mr. Heinrich. Thank you, Mr. Chairman.
    And thank you, Secretary Gates and Admiral Mullen, Under 
Secretary Hale. I want to--I really appreciate your service and 
your willingness to make some really tough choices this year.
    As you know, our military involvement in places like Iraq 
and Afghanistan has placed a premium on close air support 
missions. And I wanted to ask that in recognition of this, it 
states in the QDR that the Air Force will field light mobility 
and light attack aircraft in general purpose force units in 
order to increase their ability to work effectively with the 
wider range of partner air forces.
    Can either of you talk a little bit about the need for this 
sort of aircraft and what you foresee as the future of light 
attack armed reconnaissance in the U.S. military?
    Admiral Mullen. I think, if we are talking about the same 
thing here, we really are talking about aircraft which better 
match up with some of our coalition partners, specifically. It 
is interesting. I was in a--had a conversation the other day 
as--this QDR gets reviewed by an awful lot of countries. It is 
not just here inside the Department or on Capitol Hill. But 
other countries look to the United States about where it is 
going.
    And there are discussions--and I won't name the country, 
but a discussion in that country about how it moves ahead and 
how can it complement what we are doing as opposed to compete 
with us or match us sort of capability to capability. And this 
is an ally. This is not an enemy or a potential enemy.
    So I think it is more focused on trying to match up with 
other countries with less capable, so to speak, but still 
capable enough kinds of aircraft, which is where this 
particular aircraft I think you are talking about is going, I 
think if I have that right.
    Secretary Gates. Yes, and I think this is really more about 
training them on them and then helping them buy them for their 
own forces because they are easier to maintain, simpler to fly 
and just not as complex and as--well, as complex as the 
aircraft we fly.
    Mr. Heinrich. Got you. Secretary Gates, I think last year 
you announced that the DOD was canceling the--the Combat Search 
and Rescue-X (CSAR-X) program, the Air Force's CSAR-X program 
and that the Department would--I think the quote was--look at 
whether there is a requirement for a specialized search and 
rescue aircraft along the lines of what the Air Force had in 
mind and whether it would be a joint capability or not. Can you 
talk a little bit about what determinations have been made at 
this point and where we are going with that capability into the 
future?
    Secretary Gates. I will have to get you an answer for the 
record. But my impression--and maybe the Chairman or Mr. Hale 
can correct me. But my impression is that the Air Force has 
opted to buy some additional helicopters for their own search 
and rescue.
    [The information referred to can be found in the Appendix 
on page 165.]
    Admiral Mullen. Well, there has been some additional 
investment in HH-60s, specifically, for search and rescue. And 
then I think the question for the record is--the plan was to 
look at this longer term to see where we would go from a joint 
perspective. And we are not there yet.
    Mr. Heinrich. Okay.
    Mr. Chairman, I will yield back the balance of my time.
    The Chairman [presiding]. The gentleman yields back.
    Mr. Platts from Pennsylvania.
    Mr. Platts. Thank you, Mr. Chairman.
    I certainly want to thank all three of our witnesses for 
your great leadership and service to our Nation. We are blessed 
by what you are doing and the men and women in uniform 
certainly are by your leadership.
    A couple of quick comments--first, I want to associate 
myself with the comments of Mr. Rogers from Alabama on the 
issue of Gitmo. Given the financial strains facing our country, 
the thought of spending $400 million, $500 million on 
establishing a new prison when we have one that the military is 
operating with great efficiency and security just seems pretty 
illogical to me.
    And back home I always just--common sense test just doesn't 
get passed with that proposal. So I hope that money will be 
available to some of the other needs that you have outlined in 
your budget.
    I just returned last night from Pakistan and Afghanistan, 
Congressional Delegation (CODEL) Lynch. Congressman Lynch led a 
great bipartisan team--very insightful. Come back, as always--
this was my sixth trip to Afghanistan, inspired by what our men 
and women in uniform are doing.
    We got down to a Forward Operating Base (FOB) Spin Boldak. 
And a 19-year-old Army soldier driving the Stryker that I was 
in as we got out to Chaman Gate to see the logistics challenge 
there of all of the materials. You can't be anything but 
inspired. And so, grateful for these heroic Americans.
    A couple observations--one is came back with great 
confidence in our team we have there. Our time with Ambassador 
Eikenberry--his insights, having been a commander on the ground 
there and now on the diplomatic side, just exceptional. And we 
didn't get to see General McChrystal, who wasn't in theater.
    But General Bill Caldwell--and if there is something that 
came across crystal clear of our successes in Afghanistan, it 
is the efforts of General Caldwell and the training of the 
Afghanistan Security Forces. And delighted we have somebody of 
his great caliber in that role. I think that is one of the 
linchpins to the success that we are going to achieve, is what 
he is doing.
    The one thing I wanted to mention is acquisition is a--
reform is a big part of what you talked about in both your 
testimonies and how we need to do a lot better. And, you know, 
I often think that sometimes on the ground we learn what works 
and then translate it to a bigger picture.
    And Major General McDonald, who we met with--I won't use 
his title--and the military is famous for their acronyms--but 
the ICJLPSB, Interagency Combined Joint Logistics Procurement 
Support Board. But when we met with them and all that sit on 
this organization they put together for acquisitions and how 
they are truly trouble-shooting and getting what the military 
needs on the ground and for the best price for American 
taxpayers--all of us came away extremely impressed.
    And that is the short diagram of what they are doing. I 
would just say that back home here at the Pentagon we may want 
to talk to General McDonald about the success he is having in 
the field coordinating acquisition and apply it to the bigger 
picture throughout DOD.
    A specific request that we promised to pass on when we 
return--our ambassador to Romania--we stopped in Bucharest on 
the way. And very enlightening how supportive they are to our 
military efforts, including in Afghanistan and broader issues 
in the European theater.
    The specific issue that we promised to pass on was the 
issue of the Romanian forces who are patrolling Highway One in 
Afghanistan and a standing request that is working its way 
through the channels on some of the initial MRAPs that for what 
they are doing on the highway, not the All Terrain Vehicle 
(ATV) versions and the newer versions for Afghanistan, but some 
that we are pulling out of Iraq. They are looking for a dozen, 
15 or so. And as we came to understand and appreciate their 
commitment to this joint effort, something that we promised to 
pass on to the leadership when we returned home from that trip.
    Appreciate the efforts in trying to work with our Romanian 
partners and their needs.
    Secretary Gates. When this hearing is over, I leave for 
Istanbul for a NATO Defense ministers meeting. And one of the 
initiatives that I am going to announce there is we have taken 
a look at what more we can do to share what we have learned and 
our counter-IED capabilities with our partners in Afghanistan.
    And I will be telling the other 27 Defense ministers that 
this is important for us. And within the framework, obviously, 
of the law, there is more we can do to help them. And we will.
    Mr. Platts. Wonderful, Mr. Secretary.
    Admiral Mullen. And the only other thing that I would add 
is I was with my Romanian counterpart last week in Brussels. 
And we talked about the MRAP issue many times. We are doing as 
much as we can to get them what they need, significant that 
they now want to actually buy them that--and at the same time, 
our priorities have been get them to our forces first and then 
they are----
    Mr. Platts. Understood.
    Admiral Mullen [continuing]. Who really need them. And I 
think we will get there.
    Mr. Platts. The Ambassador had just returned from 
presenting a bronze star for us to two soldiers, Romanian 
soldiers that had given their lives--to the widows of the 
soldiers that had given their lives.
    So thank you, Mr. Chairman. Again, thanks for your 
leadership for our Nation.
    The Chairman. Thank the gentleman.
    Before I call on the gentlelady from Guam, I don't believe 
it has been touched on yet. Let's talk about the DDG-1000 
program, if we may. It was truncated last year, if you will 
recall, at three vessels. And we received notice yesterday that 
due to the termination of the remaining four vessels of the 
DDG-1000 we will suffer a cost growth--have to either terminate 
or recertify.
    Do you know where we are on that whole program? And I 
understand that there is a possibility of DDG-51s being 
reconfigured and taking its place. Can you tell me or tell this 
committee where we are on that? Because I know that is going to 
be a major issue.
    Secretary Gates. Mr. Chairman, as of walking into this 
hearing, my assumption was that the program we announced last 
year of three DDG-1000s was on track, that we were doing all 
three of them. Of the information that you cite from yesterday 
I haven't heard. So I will have to check.
    The Chairman. Admiral, do you know anything about that?
    Admiral Mullen. I think--well, to some degree, I shouldn't 
do this. But I think what you are looking at are termination 
costs, given the termination of the program and whether you 
build three or a hundred of something, that at the end of the 
program you have to pay this. And so, it sounds like it is 
coming in from that perspective. I honestly don't know.
    I know that the CNO is looking at possibly the DDG-51 hull 
for the future. This program also has the cruiser cancellation. 
The issue being, you know, what is going to--what is the ship 
that is going to bear the radar for the future, a big piece of 
which will be missile defense.
    So that is about all I know right now.
    Secretary Gates. Mr. Chairman, I have just been reminded 
that the issue that has come up is--and that has raised 
concerns is that the program is going to breach Nunn-McCurdy. 
But it is going to breach, not because of performance issues, 
but because of the reduction in the buy.
    And as far as I know, our plan is to continue to go forward 
with it.
    The Chairman. Okay. Thank you.
    I asked the question, because I am sure that will come up 
in at least one of our subcommittees.
    The gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Secretary 
Gates and Admiral Mullen, thank you for your testimony today.
    I would like to begin, of course, with the Guam military 
buildup. I arrived yesterday afternoon after spending several 
days on Guam. In fact, I held five town meetings to allow my 
constituents an opportunity to discuss and share their concerns 
about the draft EIS.
    While I believe that many remain supportive of the overall 
goals of the military buildup, they are extremely concerned 
about certain aspects of it and its impact on Guam's culture 
and environment. I am working with all of the local leaders to 
form a consensus on the way forward with the draft EIS, and 
make sure that there is one message from the people of Guam.
    Now, I believe that this consensus will force DOD to look 
very closely at some of the assumptions in the draft EIS. As I 
have stated, and as Chairman Skelton has reiterated time and 
time again, we must get this buildup done right.
    However, the current draft EIS does not accomplish that 
goal in totality. I need to make it clear that I will oppose 
any effort by the DOD to utilize the power of eminent domain to 
acquire private or Government of Guam land. In fact, I would 
encourage the Department to look harder at keeping the military 
within its existing footprint on Guam.
    I also encourage the Department to look at other 
alternatives for the transit carrier berthing in Apra harbor, 
to further mitigate coral and critical habitat loss. And I 
understand the Department's position on the Futenma Replacement 
Facility (FRF) has evolved, and the U.S. is willing to wait 
until May for a final decision from the new government in 
Japan.
    I also understand that, if alternatives are proposed for 
the FRF, that the U.S. would be willing to make changes to the 
Guam International Agreement to accommodate the government of 
Japan's counter proposal.
    So, first, my question is, what has led to this evolution 
in strategy regarding the Government of Guam? And also, are you 
willing to seriously consider counter proposals that I and 
other Government of Guam officials will propose in our official 
comments on the draft EIS, and act on them?
    If we are willing to give Japan extra time, I hope that we 
can give Guam the same courtesy.
    So, I guess, Secretary Gates, this would be a question for 
you.
    Secretary Gates. Well, I met with the governor a year or so 
ago, and told him that I thought it was important for us to 
have transparency, and also for us to take into account the 
views of the people of Guam. And so, I stand by those comments.
    I would just say that, while, with respect to Futenma, that 
we are willing to be patient. We have a new government in 
Tokyo. The security alliance with Japan just--we just observed 
the 50th anniversary a couple of weeks ago, so the alliance is 
important to us. But we negotiated a long time on this, and we 
have no counter proposals from Japan. And so, we are willing to 
give this some time to see how things play out in Tokyo.
    I don't know if you want to----
    Ms. Bordallo. Thank you.
    Admiral Mullen. The only thing, ma'am, and I think you know 
this probably as well or better than anybody else, how critical 
Guam is to us, and the relationship with those who live there--
unbelievably strong supporters, not just local citizens, but so 
many who serve in our military, and that Guam plays now, and 
will continue to play, a pivotal role in the strategic latch-up 
in that part of the world.
    And I would just emphasize or add to what the Secretary 
said in terms of transparency and understanding, and as we move 
through these. These are major moves we want to get right, 
because they are going to be out there for a long time.
    Ms. Bordallo. Thank you.
    And one other question. It is on a separate matter. It is 
for either Secretary Gates or Admiral Mullen.
    As you may be aware, Congressman Fleming and I have 
established the Long Range Strike Caucus, to focus on the long-
range strike capabilities. And I note with concern, Secretary 
Gates, in your statement yesterday before the Senate, that the 
IOC for this platform will be delayed nearly a decade.
    The bomber is valuable for strike missions. And I would 
like to know from you, what is the timeline for completing this 
study? And what factors and assumptions are being considered as 
this study is being conducted?
    I just have that feeling that this initiative is going to 
fall victim to the typical Guam syndrome--I mean, or the 
Washington syndrome--of too many studies and too little action.
    Secretary Gates. Well, what both the QDR and the budget 
provide for is a family of long-range strike initiatives. And 
the things that we are looking at, there are some pretty 
substantial questions. I mean, should it be stand-off or 
attack? Should it be manned or remotely piloted? So, there are 
some fairly fundamental issues.
    We have money in the budget, as we have mentioned earlier, 
for both B-2 and B-52 modernization. And so, we are looking at 
something that will be in our inventory until 2060 or 2070. And 
so, and based on the life of the B-52, it may be there until 
2100.
    But all kidding aside, I think that the key is trying to 
figure out what the right technologies are for the future. We 
have put money--we worked with this committee in particular to 
put money in the budget to sustain the technology base in 
industry, in terms of materials and so on, so that we will 
still have those choices.
    Ms. Bordallo. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thanks for being here. Your patience and 
endurance is admirable to wade through six hours of this deal.
    Mr. Secretary, the Department of Defense is unauditable. 
Now, that may sound like a strange question or comment to make. 
I can't imagine you were briefed on this idea coming in, but it 
has got to be at least as important as Don't Ask Don't Tell.
    Six hundred and thirty-six billion dollars that we spend 
every year, and we don't know that we spend it correctly. The 
only way that is going to happen--and there is a law on the 
books right now that says, by 2017, the Department of Defense 
and all of its variety of agencies have to be clean audits. But 
that doesn't happen unless we get tone from the top, unless the 
top guy, you, look at Mr. Hale and say, Mr. Hale, we have 
really got to add this to all the other things that you have 
got going on that are important. But you can't make--I can't 
make--good decisions on bad data. And the data that you are 
getting is coming from a myriad of systems and programs that 
have been cobbled together over 50 years.
    I have worked and had conversations with the folks over at 
the Office of Business Transformation. They have got the 
responsibility to get it done, and the authority, to simply 
cajole everybody in your system to get it done.
    And so, the broad comment is--and I don't expect any 
answers, other than that you see this as an important issue. I 
tried to get the timeframe shortened from 2017 to 2013, and it 
blew up the other side of this building. The Senate came 
unwrapped over that for some reason.
    But this is important. And decisions, better decisions are 
made with better data. And the data you are getting right now 
is, as I said, unauditable.
    I do--would like one comment. I have been told--and I 
haven't confirmed this independently--I have been told that the 
Marine Corps has said they are going to get it done sooner than 
later. So, there are some individual branches and individual 
entities within the system that are making progress. But 
without your commitment to push on it, it won't get done.
    So, your thoughts.
    Secretary Gates. As the former chairman of a number of 
corporate audit committees, I feel pretty strongly about this. 
And the fact is, that for certainly the last several years, 
there has been a program underway to be able to produce clean 
audits. My impression has been that there has been steady 
progress, and that there are a growing number of units that are 
able to do that.
    But let me ask Mr. Hale to give you a 30-second update on 
where that process stands.
    Mr. Hale. Well, can I start by saying that one of the key 
things, which is, are we spending the money the way Congress 
tells us, have been auditable and are auditable--so-called 
appropriations received. The Inspector General (IG) reviewed it 
several years ago.
    So, I think you can be assured we are spending the money in 
the manner in which we are directed by law. What we can't do is 
the transaction-based and various other requirements that are 
needed, if you are going to pass a private sector audit test.
    What I did when I came into this job is realize, frankly, 
we were spending a lot of time and money trying to clean up 
data and audit it in areas where the data wasn't very useful to 
management. So, we refocused it on the budgetary information, 
which we use every day to manage the Department of Defense.
    And you are right. The Marine Corps has asserted audit 
readiness for its so-called statement of budgetary resources 
for fiscal 2010. And they will be a major test. The Army Corps 
of Engineers has a clean audit on all of its statements. And we 
are working with the other military departments.
    But the systems are old, and it will take a while to get 
this.
    Mr. Conaway. Exactly, but the tone comes from the top, and 
emphasis comes from the top and from Congress. And I am the one 
guy who serves on both the Intelligence Committee and the Armed 
Services Committee, and is a Certified Public Accountant (CPA). 
And so, this is going to be a continuing----
    Mr. Hale. It is on our--we have a list with OMB of our 10 
top priorities for business improvement. It is on it.
    Mr. Conaway. Okay. A couple of nits and gnats.
    The written testimony says that we are going to buy an F-
35, a Joint Strike Fighter, with OCO money--overseas 
contingency operations money.
    Secretary Gates. Yes, there is----
    Mr. Conaway. Is there any----
    Secretary Gates [continuing]. One F-35 to replace an F-15 
that we lost.
    Mr. Conaway. So, the F-35 is going to go into the fight?
    Secretary Gates. Well, what we have done, actually, for the 
last several years is, when we have lost an aircraft, for 
example, and when the line for that particular aircraft----
    Mr. Conaway. Okay.
    Secretary Gates [continuing]. Is closed, we then move to 
the next most modern aircraft.
    Mr. Conaway. Okay.
    We have got 111 C-5s?
    Secretary Gates. Yes, sir.
    Mr. Conaway. The test--the previous couple of years is that 
50 of them, some odd 50 of them can't get off the ground, never 
will get off the ground again.
    Not getting into the C-17 fight, I don't have any C-5s in 
my district. I don't have any C-17s in my district. But it 
seems to me that letting us know what it costs us year in and 
year out to maintain the tail numbers of the C-5s, that--and 
the 111--that those are resources that could go somewhere else.
    And I know we have got champions on my side of the aisle 
and the other side of the aisle to keep all 111 C-5s on the 
books. But it seems to me that we ought to at least know the 
wasted resources that that costs us to maintain that.
    Secretary Gates. We will provide you with that information. 
But I will tell you, as I told you last year and the year 
before, and as the Admiral just described a few minutes earlier 
in this hearing, the Air Force cannot recapitalize unless it 
retires some older aircraft. We have sought from the Congress 
the authority to retire some C-5s, and have not received that 
authority. And we would really like to get it.
    Mr. Conaway. Well, if you will give us the amount of money 
it would--could be redeployed somewhere else by retiring the 
planes that will never leave the ground again, it would be very 
helpful to support that argument.
    I yield back, Mr. Chairman.
    The Chairman. Thank the gentleman. Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. Secretary Gates, 
Admiral Mullen and Secretary Hale, thank you so much for your 
service.
    I have got a couple of questions. Following up on aircraft, 
I know at long last we now have some numbers from the 
Department that indicate that we are going to lower the 
requirement for manned fighter aircraft by 206 airplanes. And 
overall, I believe this represents a reduction of 536 aircraft 
from 2 years ago. I am talking about strike fighters, of 
course.
    So, we are looking at maybe a shortfall between 217 and 
224, and that these retirements are not offset by the Joint 
Strike Fighter.
    So, I am concerned. Congressman LoBiondo and I have worked 
on this for a couple of years. And obviously, there is a lot of 
pressure on the budget, but I was just hoping to get your 
perspective on this gap that we are facing.
    Secretary Gates. Sure. Between--we have roughly 2,240 or 
2,245 combat aircraft now. That number is projected to drop to 
1,864 in 2020. That is a drop of 377.
    On the other hand, unmanned aircraft such as the Reaper 
will increase from 204 now, to 543. So, if you count all the 
aircraft and the remotely-piloted aircraft, you actually end up 
with a difference between 2,440 now and 2,400, 2,407 in 2020.
    And it goes back to the point that I made earlier. Given 
the increased capabilities of planes like the F-22 and F-35, 
with advanced sensing and stealth, and so on, there is really 
no reason to replace them on a one-for-one basis. And as the 
Chairman said earlier, and as we just discussed, unless the Air 
Force can retire some of these third generation and even fourth 
generation legacy aircraft, they will not have the money to 
recapitalize.
    Admiral Mullen. The only thing I would add to that, ma'am, 
is I don't know of a major program that we decommissioned and 
we replaced it with the same number. And I may be wrong, but in 
aircraft, ships, missiles, my experience is that because of the 
higher-end capability, the technology investment required, the 
cost, that we just have not replaced them one-for-one, and we 
haven't needed to do that.
    Ms. Giffords. Well, thank you. This is an ongoing 
discussion, and of course there are concerns here. And unmanned 
aircraft are very capable, but, obviously, they can't replace 
manned aircraft. I mean, they are just different. They serve 
different purposes.
    I want to shift gears to an area that I know both of you 
are working on, and that is the dependency that we have on 
foreign countries for our energy.
    And, of course, the world's largest user of energy is 
actually the Air Force. In the United States, the largest user 
of energy is the Department of Defense. And the Department has 
taken tremendous steps to reduce the amount of energy being 
used by the Department of Defense.
    I am curious about comments on your short-term and your 
long-term energy reduction goals, also whether or not the 
energy saving performance contracts are proving to be 
worthwhile and what Congress can do to help streamline some of 
these projects.
    My frustration is we spend over $400 billion every year to 
buy energy from mostly hostile foreign nations. And it puts us, 
from a national defense standpoint, really in a very precarious 
situation. And this Congress is very committed to making sure 
that we can make America's energy in America, and you are on 
the front lines of that. So I was just hoping to get some 
comments on those questions.
    Secretary Gates. I think to give you an adequate answer, we 
would probably better do that for the record.
    [The information referred to can be found in the Appendix 
beginning on page 164.]
    Ms. Giffords. Okay.
    Admiral Mullen.
    Admiral Mullen. Well, I would agree with that for an in-
depth answer. I know the Air Force has led the Department. I 
know Secretary Mabus in the Navy has now made this a priority 
for the Navy. The Navy was invested, but behind with respect to 
that.
    And it is a priority in the Department. And certainly I 
share--we all share the concerns that you expressed in terms of 
where we get it, not just now but in the future.
    Ms. Giffords. Well, it is interesting. You look at, for 
example, Nellis Air Force Base, and how much of their energy is 
now coming from solar. Luke Air Force Base is on target to 
actually enlarge their installation. Davis-Monthan Air Force 
Base probably double that.
    So it is interesting from a facility standpoint the 
progress that has been made, but from the operational 
standpoint, when you look at biofuel and the ability to again 
not have these long--there is a frightening snapshot photograph 
that is the--it is the caravan for, you know, the oil re-
supplier, you know, petroleum re-supply that, you know, kills 
hundreds of our soldiers every year. And you all are the 
forefront of that.
    And I see some of that reflected in the budget. We worked 
here in the House to nominate--or to put together a director of 
operational energy, and we are hoping that the Senate confirms 
that, to be able to help free up your work.
    So, thank you. I look forward to working with you.
    The Chairman. Thank the gentlelady, Mrs. McMorris Rodgers.
    Mrs. McMorris Rodgers. Thank you, Mr. Chairman.
    And, thank you, Secretary Gates and Admiral Mullen for 
being here. I know that it has been a long day for you, but I 
just thank you for the generosity of your time in answering our 
questions.
    As you know, I represent Fairchild Air Force Base, and the 
tanker and the replacement of the tankers has been on the 
forefront of my priority list since I arrived in Congress. And 
for one reason or another, we have seen a number of delays in 
the process.
    The KC-135 represents a central piece of war plans to 
support the United States and its allies around the world. And 
now, Northrop Grumman's chief operating officer has threatened 
to not bid unless significant changes are made to the tanker 
requirement.
    And I think I join with others in just sharing a concern 
about the potential of further delaying the tanker competition 
and stretching the limits of these 50-year-old aircraft.
    I want to see a new tanker parked on the ramps of Fairchild 
Air Force Base sooner, rather than later.
    So I wanted just to ask how you are going to respond to 
this kind of pressure and change the warfighters' tanker 
requirements to meet the demands of the competitors.
    Secretary Gates. We have received a lot of comments, 
including from here on Capitol Hill, on the RFP. I think that 
the final RFP will be issued in a fairly short period of time, 
and our hope is, I think, a selection in the summer.
    Yes, a selection in the summer.
    We hope very much that there will be a real competition. We 
hope very much that both competitors stay in the competition. 
But should that not prove to be the case, we will--we have to 
move forward, for all the reasons you cite. It has been delayed 
too long. We need to get this thing started.
    Mrs. McMorris Rodgers. Good. Good to hear.
    And, Admiral Mullen, I just want to applaud you for your 
support of military families. And I know the Administration has 
really taken a new--provided a new emphasis on supporting our 
military families, and the Department of Defense, likewise.
    We are seeing the impact of multiple deployments on our 
military families. And I am hearing from families across the 
country about mental health issues.
    What are we going to do to increase access and utilization 
of mental health services for our military families?
    Admiral Mullen. Well, again, it has been a priority for 
this Department for several years. We have more than tripled 
the number of mental health care providers in recent years, but 
we are still far short of what we need.
    I talked earlier about the whole issue that we need to 
address internally to the military and families.
    Deborah, who is here today, hears from spouses all the time 
about the stress they are under, and it is not Post Traumatic 
Stress (PTS), but there are PTS-like symptoms associated with 
that. And many of them have said they are worried about raising 
their hand for fear that it may impact on their husband or 
their wife's career as well. So an awful lot of effort going 
after this.
    Where I am on this is we have got to start producing a 
higher capacity output to address this issue, and it is a very, 
very complex issue.
    And I would also like to thank you and Mr. Bishop for 
standing up the military family caucus, that is a big deal and 
it will focus issues and do so in a way that is fed by your 
concerns and your reaching out to families to get information 
about what is going on, allow us all to continue to press 
forward to make it better for them, because they are so 
important.
    Mr. Hale. May I add, briefly?
    Mrs. McMorris Rodgers. Please.
    Mr. Hale. I think an exciting experiment the Army is trying 
to screen members who are coming back from Iraq and Afghanistan 
for mental health disorders over either the Internet or video 
teleconference to make greater use of health professionals. 
They tried it in an experiment at Tripler, worked out quite 
well. A lot of the younger soldiers really liked it, because 
they are so used to working over the Internet.
    And it would allow greater use or better utilization of 
health professionals.
    So I think they plan to expand that. It is a good idea.
    Mrs. McMorris Rodgers. Great. Great. Thanks.
    And, Admiral Mullen and to your wife, Deborah, I do 
appreciate your leadership and your support of providing the 
support for our military families that is so desperately 
needed.
    And, with that, I will yield back.
    Admiral Mullen. Ma'am, the only thing I would add on top of 
what Mr. Hale said, is there has been more than one result from 
what I would call anonymous counseling--in other words, over 
the Internet, don't know who the counselor--you don't--and it 
is a way to get at the stigma piece. And I would like to see us 
expand that in a way so we can reach a larger number.
    Mrs. McMorris Rodgers. Well, I think there is some exciting 
technology with the--you know, we have done the virtual 
recruiters, maybe we can do virtual counselors and, you know, 
protect the soldier themselves.
    Okay. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    We have two members who wish to have a second round. We 
will get you out very much near your deadline of 3:00.
    Mr. Taylor.
    Mr. Taylor. Thank you, Admiral and Secretary Gates for 
sticking around so long. I did not give you any opportunity, I 
regret to say, to respond to my concerns about the use of rules 
of engagement that were raised on my visit to Afghanistan.
    And, Mr. Secretary, I have noticed, since the publication 
of the book, ``Lone Survivor,'' this is something that comes up 
fairly often as I meet with the moms and dads and loved ones of 
troops deployed. And it is a very serious question.
    I realize where General McChrystal is trying to go, but 
when those two troopers brought it to my attention again, their 
concerns about the use of the Afghan police in particular. 
Another observation was that they were concerned that we have 
stopped prohibiting vehicular traffic from transiting along 
with our convoys, that they were very concerned about vehicle-
borne IEDs.
    And so, again, you know, you are the Secretary of Defense. 
And I did ask General McChrystal. I said, ``Did you write the 
rules of engagement yourself, or did they come from other 
places?'' And I think his answer was it was a combination of 
his suggestions and Washington.
    So, again, I would ask you to address those concerns.
    Secretary Gates. Both of us will take a crack at this.
    I am obviously aware of this concern on the part of some of 
our soldiers. I heard this directly from a young soldier at 
Walter Reed a couple of years--a couple of weeks ago, who told 
me that he thought the reason he had been injured was because 
of the rules of engagement.
    It seems to me that this is an area where I believe that 
the commander on the ground has to have the discretion, in 
terms of the rules of engagement for the troops and how the 
rules of engagement fit with the strategy he is trying to 
pursue.
    The tactics that have been used by us are changing all the 
time. There has been a significant reduction in the use of 
dogs, because they are so offensive to the Afghans. There has 
been a significant reduction in night raids.
    And, frankly, there is--we had a situation--I will give you 
an example of where you can make a mistake, and it actually was 
with I think one of the Predators. And they saw a group of 
people digging a hole in a road. And they were going to target 
the Predator on them, because they were convinced they were 
doing an IED.
    And the guy running the Predator stopped it at the last 
minute. People were on the ground, and it was a bunch of kids. 
And they were just fooling around; they weren't planting bombs.
    Hitting those kids would have been a huge setback for us in 
that area.
    So I basically--I understand their concern. I have heard 
from parents as well about it, and their worry. I understand 
it.
    But I think that in terms of the overall health of our 
force and keeping our kids safe, that being successful in this 
campaign is really the priority, and we are obviously going to 
do everything we can in the course of that to protect our kids. 
But we also have to figure out what the best strategy for 
success is.
    Admiral Mullen. I would only add that I think your comment 
and the comment that was made to you by the soldier you met 
with about the police is an accurate comment. And we are all 
concerned about that. And that is--the Afghan police are the 
long pole in the tent, because in many places they are corrupt.
    And while we are willing to follow an Afghan soldier in, 
not so for the police. And we are working our way through that. 
And I think everybody in the chain of command recognizes that.
    My experience along these lines, back to who wrote it, at 
least I think I would attribute the initial directive that 
General McChrystal put in place to reduce civilian casualties, 
which is what this is a part of--a lot about, Washington was 
involved in that.
    Subsequent to that, I am not aware that we participated at 
all in the house piece--you know, his directive with respect to 
night raids. That really is his business, and he feels very 
strongly. And I would only re-emphasize what the Secretary said 
about it is it is important that he do that.
    The other thing, in my conversations with soldiers out 
there, it has been--those who were in Iraq--and I think I heard 
you say that as well--who had tours in Iraq, they have come to 
Afghanistan for the first time, and they see the rules of 
engagement being so much different.
    We worked our way through that in Iraq over time and found 
we could do that as we were learning.
    In this insurgency, we know what we need to do, and I think 
we--and I think we need to do it earlier. We didn't know that 
at that time in Iraq, we had to work our way through it.
    They have expressed those same concerns about the convoys. 
And at the same time--and there are risks associated with that. 
I believe that General McChrystal in particular believes, and 
we all do, that we are going to get through this more quickly 
and in the end suffer fewer casualties. And the risk may be up 
on the front end.
    What this is all about is how we treat the Afghan people, 
how we treat where they live, and how we impact them in terms 
of this overall campaign. That is the center of gravity.
    And we are protecting--we are--I mean, a priority for us is 
certainly to make sure we take care of our people who are 
fighting----
    Mr. Taylor. Mr. Chairman, a quick question for the record, 
if you don't mind.
    I would be very interested in how many troopers have faced 
either judicial or non-judicial punishment in Afghanistan for 
violating the rules of engagement. It would give us some sort 
of a benchmark of the size of this problem.
    Admiral Mullen. Sure.
    [The information referred to can be found in the Appendix 
on page 163.]
    Mr. Taylor. Thank you very much, gentlemen.
    The Chairman. Thank you, Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Again, I join the others in thanking you for the time that 
you have given us here today, gentlemen.
    In my opening remarks, I talked about $350 million in the 
budget for either supporting detainee operations in Guantanamo 
Bay or any other location. I think you used the term $150 
million.
    Secretary Gates. That was just for the prison in Illinois. 
The $350 million is all detainee operations.
    Mr. McKeon. Okay.
    Secretary Gates. Including Guantanamo.
    Admiral Mullen. The $150 million, as the Secretary said, 
for MILCON. There would also be if we opened the Thomson 
facility some start-up costs, another perhaps $150 million for 
Information Technology (IT), security upgrades. It will be a 
very high-security facility if it is opened, so in total it 
will probably be around $300 million. And then there is $200 
million, as you pointed out, to buy the facility in the 
Department of Justice budget.
    Mr. McKeon. Great. We are all on the same page then on 
that.
    Mr. Secretary, is it the Administration's policy to prevent 
Iran from obtaining nuclear weapons?
    Secretary Gates. Yes.
    Mr. McKeon. What steps is the Department taking to meet 
this objective?
    Secretary Gates. Well, I think that, first of all, to give 
you any kind of a comprehensive answer to that question, we 
probably should do it in a classified session or with a 
classified response. But I think we are looking at a full range 
of options.
    Mr. McKeon. In the State of the Union, the President stated 
that if Iran pursues a nuclear weapons capability, there would 
be growing consequences. Can you explain what these growing 
consequences are? Would that also have to be----
    Secretary Gates. No, I think in the near term, it is more 
likely to be severe sanctions imposed partly by the U.N. 
Security Council and partly by the U.S. and like-minded 
countries.
    Mr. McKeon. Finally, I understand that the Iran military 
power report, section 1245 from last year's--or this year's--
yes, last year's NDAA has missed its deadline and will be 
delivered late to the Congress. Can you please ensure that we 
get this report as soon as possible?
    Secretary Gates. Sure.
    Mr. McKeon. These other questions, we will just submit for 
the record. You have been here a long time. Thank you very much 
for all you are doing.
    Secretary Gates. Thank you.
    The Chairman. Let me thank each of you for your appearance 
today, for your outstanding service to your country.
    You know, we talk about families, but I am not sure anyone 
has said thank you for your families.
    Secretary Gates, your charming wife Becky is the sponsor of 
the USS Missouri and makes us all proud of that fact that she 
is.
    And Admiral Mullen, your lovely wife Deb has done so much 
with you and for you. I am not supposed to introduce her today, 
so I won't, but it is awfully nice to have her with us to share 
this moment.
    Thank you so much.
    And Secretary Hale, we didn't give you too much of a 
workout today, but we will save you for next time.
    Thank you, and we are adjourned.
    [Whereupon, at 3:04 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                            February 3, 2010

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 3, 2010

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            February 3, 2010

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
    
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 3, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. TAYLOR

    Admiral Mullen. There have been no actions taken against anyone for 
tactical directive violations or ROE violations. [See page 73.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BISHOP
    Secretary Gates. The Department's Fiscal Year 2011-2015 Future 
Year's Defense Program budgets for a service life assessment for the F-
18 series aircraft. This engineering assessment will help inform the 
Department on the amount of service life that can be extended and the 
modification costs. The budget also includes funding for F-15 and F-16 
service life modifications designed to ensure the required quantity of 
aircraft can meet their service life requirements. Additionally, there 
is money for Full Scale Fatigue Testing for the F-15, and F-16 Block 
40s/50s.
    Under my direction, the Department will continue to assess strike 
fighter force structure requirements in preparation for future budgets. 
Service life extension is one area that can help address force 
structure requirements. Other mitigation options that are under review 
include changes to current Concepts of Operations, aligning Carrier Air 
Wing readiness with Carrier readiness, and Air Wing composition and 
force structure. [See page 37.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. KLINE
    Admiral Mullen. The Army has a detailed plan for payment to all 
National Guard soldiers who are eligible for compensation under PDMRA. 
The Army is responsible and has received the Army National Guard's 
preliminary list of eligible individuals. The Army began payments on 
March 1, 2010 and will continue to diligently process and pay claims 
until eligible individuals are appropriately compensated.
    Statutory authority was required to retroactively compensate former 
Service members for PDMRA days earned from Jan 19, 2007, through the 
date each respective Service implemented their respective PDMRA 
program. Section 604 of the FY10 NDAA, signed on October 28, 2009, 
provided the Secretary concerned with the discretionary authority to 
compensate current and former Service members for PDMRA days earned 
from Jan 19, 2007 through the date each respective Service implemented 
their PDMRA program. However, the House Appropriations Committee 
version of the Defense Appropriation Bill contained a provision that 
provided non-discretionary authority to pay retroactive compensation 
for PDMRA days. Due to the ``discretionary'' and ``non-discretionary'' 
disparity between the FY10 NDAA and the HAC-D version of the FY10 
Defense Appropriations Bill, the Department was precluded from 
developing final implementation policy. On December 19, 2009, the FY10 
the Defense Appropriations Bill became law. It did NOT include the non-
discretionary retroactive PDMRA compensation authority originally 
contained in the HAC-D version of the bill. Following coordination with 
the Military Departments and the DoD Comptroller, the DoD 
implementation policy was approved on February 1, 2010. [See page 43.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SESTAK
    Secretary Gates. The core goal of the President's strategy is to 
disrupt, dismantle, and eventually defeat al Qaeda in both Afghanistan 
and Pakistan and to prevent their return to both countries. The 
President's strategy addresses the challenges the U.S. Government faces 
on both sides of the border. The U.S. Government cannot allow al Qaeda 
to gain access to the very same safe havens they used before 2001. The 
President's strategy recognizes that the security situation in Pakistan 
is inextricably linked to that of Afghanistan. In my view, Pakistan's 
security, especially along its Western border, cannot be separated from 
developments in Afghanistan.
    Progress in both Afghanistan and Pakistan will be measured and 
assessed by the U.S. Government on a regular basis using a mix of 
quantitative and qualitative measures, intended to capture objective 
and subjective assessments. The assessment will look at past progress 
and start to focus on changes or adjustments that might be necessary 
over the following year. A description and assessment of U.S. 
Government efforts, including the efforts of the Department of Defense, 
the Department of State, the U.S. Agency for International Development, 
and the Department of Justice, in achieving the objectives for 
Afghanistan and Pakistan are due to Congress in March 2010. [See page 
55.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. GIFFORDS
    Secretary Gates. Under my direction, the Department has stepped up 
near and longer-term effort needed to reduce our high level of energy 
consumption, and these efforts are driven first and foremost by mission 
considerations. The Department's own analysis confirms what outside 
experts have long warned: our military's heavy reliance on fossil fuels 
creates significant risks and costs at a tactical as well as a 
strategic level. They can be measured in lost dollars, in reduced 
mission effectiveness and in U.S. soldiers' lives. I believe that 
unleashing warfighters from the tether of fuel and reducing our 
installations' dependence on a costly and potentially fragile power 
grid will not simply enhance the environment; it will significantly 
improve our mission effectiveness.
    Executive Order 13514 was issued in October 2009 and is a tool to 
help the Department turn these vulnerabilities around. As one 
indication, the Department is developing an aggressive target under the 
Order for reducing our greenhouse gas emissions, which are due 
overwhelmingly to direct energy use. These targets will significantly 
shape energy consumption plans and programs both now and in the future. 
For the military, these reduced emissions will represent major gains in 
energy efficiency in the long run. Operational energy is necessarily 
exempt from any regulatory target, since providing immediate support 
for the warfighter must remain our highest priority. Nevertheless, 
reducing the energy demands of our operational forces is a major focus 
of my efforts to cut energy consumption.
    Over the last five years, the Department has steadily reduced 
energy consumption per square foot at our installations, largely in 
response to statutory and regulatory goals. While continuing that very 
positive trend, I believe that it is time for the Department to take a 
longer term perspective and adapt its approach to installation energy 
management from one that is primarily focused on compliance to one 
focused on long-term cost avoidance and mission assurance.
    The management of energy on our installations is important for two 
key reasons. One, facilities energy represents a significant cost. In 
2009, DoD spent $3.8 billion to power its facilities--down from $3.96 
billion in 2008. That represents about 28 percent of the Department's 
total energy costs (that fraction is higher in peacetime, when we are 
not consuming large amounts of operational energy).
    Two, installation energy management is key to mission assurance. 
According to the Defense Science Board, DoD's reliance on a fragile 
commercial grid to deliver electricity to its installations places the 
continuity of critical missions at serious and growing risk.\1\ Most 
installations lack the ability to manage their demand for and supply of 
electrical power and are thus vulnerable to intermittent and/or 
prolonged power disruption due to natural disasters, cyberattacks and 
sheer overload of the grid.
---------------------------------------------------------------------------
    \1\ ``More Fight-Less Fuel,'' Report of the Defense Science Board 
Task Force on DoD Energy Strategy, February 2008.
---------------------------------------------------------------------------
    The changing role of the military's fixed installations accentuates 
this concern. Although in the past these installations functioned 
largely to train and deploy our combat forces, increasingly they have a 
more direct link to combat operations, by providing ``reachback'' 
support for those operations. For example, The Department operates 
Predator drones in Afghanistan from a facility in Nevada and analyzes 
battlefield intelligence at data centers in the United States. DoD 
installations are also becoming more important as a staging platform 
for homeland defense missions. This means that power failure at a 
military base here at home could threaten our operations abroad or harm 
our homeland defense capability.
    The Department has made wide use of third-party financed energy 
conservation projects accomplished through vehicles such as Energy 
Savings Performance Contracts (ESPCs) and Utility Energy Services 
Contracts (UESCs) which allows DoD to use industry funding to pay for 
equipment to reduce life cycle costs of facilities and pay it back from 
the accrued savings. ESPCs and UESCs typically generate 15-20% of all 
facility energy annual savings that DoD realizes. Use of ESPC and UESC 
for 2009 reached an award value over $306 million. DoD annual energy 
savings from these contracts are expected to reach nearly 1.2 billion 
BTUs, which, although significant, represent slightly more than one 
half of one percent (0.5%) of the DoD's annual consumption. From 2003-
2009, third-party financed energy contract awards totaled $1.74B. It is 
my belief that the Department can build on this progress by increasing 
the use of third-party financed contracts, enabling more cost effective 
long-term facilities operation and maintenance with no upfront costs. 
Third-party financed contracts are a valuable tool in the ``energy tool 
box'' towards reduced energy demand. [See page 69.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. HEINRICH
    Secretary Gates. To meet immediate inventory shortfalls, the Air 
Force is replacing operational losses of HH-60G aircraft in its Combat 
Search and Rescue (CSAR) fleet with the current production version, the 
next-generation UH-60M aircraft. With some modifications, this aircraft 
is suitable for the mission. Also, near-term plans are being developed 
to recapitalize the balance of the aging CSAR HH-60G fleet with new 
airframes.
    The Joint Staff continues to assess the current DoD personnel 
recovery capability, including CSAR operations. Initial results 
indicate that improved integration of DoD personnel recovery assets can 
reduce operational risk though better management of material and 
personnel capabilities. The Joint Staff assessment is expected to 
result in a joint concept of operations that exploits joint personnel 
recovery and CSAR capabilities. [See page 61.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 3, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. How many troops have faced either judicial or non-
judicial punishment in Afghanistan for violating the rules of 
engagement?
    Secretary Gates. There have been no actions taken against anyone 
for tactical directive violations or ROE violations.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. SMITH
    Mr. Smith. In your statement prepared for the committee you 
indicated that the F136 engine would still require a further investment 
of $2.5 billion over the next five years. Please provide the 
description, scope of work, by appropriation, by fiscal year, with 
government and contractor costs delineated, included in this estimate. 
What percent of the F-35 Life Cycle Cost (LCC) does $2.5 billion 
represent of the LCC? Please provide the projected cost estimate at the 
time of the signing of the System Design and Development (SDD) contract 
of the cost of Low Rate Initial Production (LRIP) 1-4 F135 engines, by 
lot, for the F-35A aircraft and the actual costs paid for those 
engines. Please provide the estimate of the SDD contract cost and 
schedule (by fiscal year) for the F135 and F136 engines at the time the 
contract was signed for each engine's SDD contract. Please provide the 
current estimate of the contract cost for the F135 and F136 SDD 
contracts, specified for government and contractor costs (FY09 and 
prior, FY10, FY11 FYDP). Please define IOC for F-35A, B, and C. Has 
that definition changed since F-35 SDD began? Has the aircraft hardware 
and or software delivered configuration changed for the aircraft being 
delivered to achieve IOC? How many hardware and software configurations 
of aircraft of each model, will make up the IOC aircraft? Please 
provide the IOC schedule of the F-35A, B, and C at the time of SDD 
contract signing and the current projection for IOC of each aircraft 
now.
    Secretary Gates. The $2.5B through FY15 includes the cost to:

    <bullet>  Complete the development program (i.e., SDD) for the 
alternate engine.

    <bullet>  Fund an engine ``component improvement program'' (or CIP) 
to maintain engine currency.

    <bullet>  Perform directed buys of engines from the primary and 
second sources to prepare for a competition.

    <bullet>  Procure tooling, support equipment, and spares.

    $2.5B represents less than 1% of the Joint Strike Fighter (JSF) 
life cycle procurement costs and about 3.5% of program costs through 
the FYDP.
    Please note that the total cost is estimated at $2.9B which 
includes the $2.5B referenced above plus the additional funding 
required outside the FYDP to prepare the second manufacturer for 
competition in 2017.
    An estimate of costs is below:

  Estimated Resources Required to Fund Joint Strike Fighter Alternate 
                                 Engine

     (Supports Response to HASC QFR#8/Hearing on February 3, 2010)
[GRAPHIC] [TIFF OMITTED] T8170.101


.epsAssumptions:

Reflect additional resource requirements needed to fund an alternate 
    engine program above President's 2011 Budget request and FY 2011-15 
    Future Year's Defense Program, consistent with restructured JSF 
    program
Competitive procurement of engines begins in FY 2017
Annual competition with award of 60% of buy to winner
Directed buys begin in FY13 to prepare second source for competition
International partner participation consistent with JSF program in FY 
    2011 President's Budget

    Mr. Smith. You make the point in your testimony before the 
committee that the F135 baseline F-35 engine has 13,000 test hours. How 
many hours of the 13,000 hours are flight test hours? How many hours 
are currently planned for the entire flight test program? In February 
2009, what was the estimated date of completion of flight testing in 
the F-35 development program? What is the estimated completion date 
now? Please provide the same information for operational test and 
evaluation completion. How many ground test hours have been logged of 
the total ground test hours on engines representative of the 
configuration of the current production F135 engines? For the F136 
engine? How many different configurations are represented in the F135 
test and production engines (F135, F136, lift fan and associated turbo-
machinery) produced to date and included in Low Rate Initial 
Productions (LRIPs) 1-4? Were and will all production engines currently 
under contract be of the same configuration when/as they came/come off 
the production line? If not, how many configurations exist?
    Secretary Gates. The F135 has 13,223 ground test hours and 199.8 
flight test hours. Roughly 723 hours have been on engines in an Initial 
Service Release (ISR) representative configuration. The F136 has 
approximately 638 hours total System Development and Demonstration 
(SDD) ground test run time on all standards of engines in SDD. The F136 
has approximately 135 hours total ground run time on three SDD product 
standard engines. A revised flight test schedule, including total 
planned flight test hours, is currently in work within the Department.
    The F135 SDD test program had three configurations: Initial Flight 
Release, Final Flight Release and Initial Service Release (ISR). The 
F135 Production engines are configured to the ISR standard. The F135 
achieved Conventional Take-off and Landing (CTOL) ISR in February 2010 
and short Take-off and Vertical Landing (STOVL) ISR is planned for 
later this year. LRIP 1, 2 and 3 engines are currently under contract. 
Due to program concurrency, these engines will not have a uniform 
configuration--only LRIP 3 engines and beyond will be produced in the 
ISR configuration. There are no F136 Production Engines under contract 
nor was funding requested in the FY 2011 Presidential Budget.
    In February 2009, completion of Development test was planned in 2nd 
quarter 2013, with Operational Test planned to complete in 4th quarter 
2014. In accordance with the February 2010 F-35 Program restructure, 
Development Test is extended to March 2015, and Operational Test 
completion and Milestone C are planned in April 2016.
    Mr. Smith. You spoke in Fort Worth at the F-35 production facility 
in August 2009 and were quoted as saying: ``My impression is that most 
of the high-risk elements associated with this developmental program 
are largely behind us, and I felt a good deal of confidence on the part 
of the leadership here that the manufacturing process, that the supply 
chain, that the issues associated with all of these have been addressed 
or are being addressed.'' In February 2010 you presented a budget that 
restructures the JSF program, adding nearly $17 billion in cost and 
delaying the production of 122 F-35 aircraft from that projected last 
year. The JSF program is scheduled to be the Department's major fighter 
program for at least the next 30 years with a projected life cycle cost 
of over $1 trillion and representing 95 percent of the manned fighter 
force. The cost of the remaining development required for the F136 
alternate engine is estimated to be $1 billion--one-tenth of the 
projected life cycle cost of the program. Please provide your views on 
why the remaining investment is not justified to maintain a competitive 
program and hedge risks to readiness.
    Secretary Gates. The basis for the Department's decision to not 
fund an alternate engine is provided in Secretary Lynn's February 23, 
2010 letter to each of the defense committees. A PDF of the letter is 
inserted below.
    [The information referred to is ``For Official Use Only'' and 
retained in the committee files.]
    Mr. Smith. In your prepared statement you indicated the additional 
costs [of the F136] are not offset by potential savings generated 
through competition and even optimistic analytical models produce 
essentially a break-even scenario. Please provide what the DOD analysis 
being used by the Department indicates with regard to the financial 
cost-benefit analysis of both a F135 program and a F135 and F136 
program. Also, please provide the assumptions used in this analysis and 
how they differ from the DOD engine study provided to the congressional 
defense committees in 2007.
    Secretary Gates. The basis for the Department's decision to not 
fund an alternate engine is provided in Secretary Lynn's February 23, 
2010 letter to each of the defense committees. A PDF of the letter is 
inserted below. Please note these letters contain proprietary and 
competition sensitive information.
    [The information referred to is ``For Official Use Only'' and 
retained in the committee files.]
    With respect to the estimating assumptions, the following is an 
excerpt from a memo from Ms. Christine Fox (Director, Cost Assessment 
and Program Evaluation) which was included as an attachment in the 
aforementioned letter from Mr. Lynn to the committees.
    ``. . . the CAPE updated two key factors in the 2007 analysis: 1) 
the additional appropriations through FY 2010 that had been directed by 
Congress for development of the F136 alternative engine, which now 
represent `sunk costs'; and, 2) the cost estimates for the primary and 
second engine System Design and Development (SDD) programs based on 
more recent actual cost information from both engine programs. The CAPE 
2010 Quick Update made no other changes to the extensive list of 
assumptions used in the 2007 report to Congress, including the 
assumption that competition would begin in 2014. In particular, it is 
important to note that the 2010 Quick Update does not fully reflect the 
recently restructured JSF program resourced in the FY 2011 President's 
Budget and the FY 2011-15 FYDP.''
    Mr. Smith. What non-financial benefits are seen to potentially 
accrue to the Department for having an alternate engine program? Given 
that the F-35 is projected to compose 95 percent of the manned-fighter 
force by 2035 and is, under DOD plans, intended to be solely dependent 
on the F135, how do you rationalize that dependence and risk to 
readiness if the cost of providing those benefits, under the 
Department's own study, is potentially zero, given ``optimistic 
analytical models produce essentially a break-even scenario?''
    Secretary Gates. Section 2.5 of the Department's 2007 Report to 
Congress on the alternate engine (Joint Strike Fighter Alternate Engine 
Acquisition and Independent Cost Analyses) summarized the non-financial 
benefits that could potentially accrue to the Department from an 
alternate engine program. Contractor responsiveness is the most 
frequently cited potential value of competition.
    The basis for the Department's decision to not fund an alternate 
engine is provided in Secretary Lynn's February 23, 2010 letter to each 
of the defense committees. A PDF of the letter is inserted below.
    [The information referred to is ``For Official Use Only'' and 
retained in the committee files.]
    Mr. Smith. You make the following point in your statement: ``The 
solution to understandable concern over the performance of the Pratt & 
Whitney program is not to spend yet more money to add a second engine. 
The answer is to get the first engine on track.'' What attributes exist 
for required capabilities suitable for a competitive acquisition 
strategy. How do the F135-F136 programs, given the investment in each 
to date, not meet those attributes?
    Secretary Gates. The attributes for required capabilities suitable 
for a competitive acquisition strategy are inherent in both the F135 
and F136 engine programs. However, the F136 program requires an 
additional investment of $2.9 billion to complete development and reach 
a competitive posture. I believe it is more cost effective to focus on 
managing a single engine program for the F-35 aircraft. I am focused on 
controlling F135 costs and ensuring the F135 continues to meet the 
performance and operational capabilities required to support the F-35 
program.
    Mr. Smith. You make the following point in your statement: ``The 
alternate engine program is three to four years behind in development 
compared to the current program.'' What was the original acquisition 
strategy schedule for the F135 and F136 programs? Was it not the case 
that was the strategy--to execute a leader-follower development 
program, with the F136 following the F135 by 3-4 years?
    Secretary Gates. The original acquisition strategy for the Joint 
Strike Fighter (JSF) propulsion program did include a leader-follower 
schedule, with the F136 development following the F135 development by 
approximately 4 years.
    Mr. Smith. You make the following point in your statement: ``The 
Joint Strike Fighter (JSF) is designed to support a wide diversity of 
military customers, including the Navy, Marine Corps, and overseas 
buyers, many of whom are unable or unwilling to purchase from two 
engine manufacturers.'' Why did the U.S. in 2006 agree with all of the 
other F-35 international partners, in the nine-nation F-35 MOU, to 
require the production of both the F135 and F136? If because of a 
different design the F136 provides greater thrust than the F135, are 
you saying that that would not affect purchase decisions? How many 
engine types were represented on a typical deployed aircraft carrier in 
the 1990-2000 period of time and assuming a F135-only F-35 program, how 
many engine types will be represented on a typical carrier in the 2020-
2030 period?
    Secretary Gates. The U.S. and the international partners signed the 
F-35 Production Sustainment and Follow-on Development (PSFD) Memorandum 
of Understanding (MOU) in 2006. The intent of the PSFD MOU was to 
establish a nine-nation arrangement for cooperatively producing, 
sustaining, and conducting follow-on development of the JSF. The 
inclusion of the F135 and F136 in the propulsion areas of the MOU is 
consistent with the F-35 Acquisition Strategy which states, ``The 
Acquisition Strategy recognizes the possibility of two interchangeable 
propulsion systems, the Pratt and Whitney F135 and the General Electric 
Rolls Royce Fighter Engine Team F136, depending on availability of 
funding. Throughout this document, provisions are made for this two 
engine strategy. However, if development, procurement, or sustainment 
funding is not provided for the F136 program, the F-35 will proceed 
with the strategy described, using a single F135 propulsion system.''
    The F135 is meeting the current technical and performance design 
specifications required by the F-35 program. I do not believe that an 
alternate engine is required to meet the performance specifications.
    The ``typical'' aircraft carrier during the 1990's deployed with a 
mix of F/A-18A/C, F-14, S-3, EA-6B and E-2 aircraft. Each aircraft type 
was supported by mostly 1, but in some cases 2, engine models. In the 
2020-2030 timeframe, an aircraft carrier will deploy with F/A-18E/F, 
EA-18G, F-35, and E-2 aircraft. Each aircraft type would be supported 
by a single engine type, assuming an F135-only F-35 program. The 
reduction from multiple platforms on a carrier airwing, or ground-based 
airwing to a smaller number of more effective platforms is an important 
element in the Department's long term goals. Fewer types of more 
effective aircraft will help reduce operations and support costs, in 
addition to providing increased operational capability.
    Mr. Smith. Please provide copies of any industrial base studies/
capability assessments associated with the F135 and/or F136 engines 
completed by the military services or defense agencies/organizations 
within the last five years.
    Secretary Gates. The OSD Cost Analysis Improvement Group (CAIG) and 
the Institute for Defense Analyses (IDA) completed Congressionally-
directed studies in 2007. By direction, both studies assessed 
industrial base implications as well as capability comparisons of a 
single engine and competitive engine program. Both studies were 
provided to the Committee in 2007. OSD's 2007 study drew upon the work 
of the Defense Contract Management Agency (DCMA) to examine industrial 
base implications. Since the 2007 report, DCMA continues to review 
industrial base aspects of fighter engine programs. In response to a 
tasking from the United States Air Force, DCMA authored a May 2008 
presentation tilted, ``Fighter Engine Capability Assessment Update.'' A 
copy of this presentation is included.
    [The information referred to is retained in the committee files and 
can be viewed upon request.]
    Mr. Smith. Please provide the FY06 Future Years Defense Program 
(FYDP), six year budget for the F135 and F136 programs as programmed in 
the FY06 F-35 budget request, with the total amount for the F136 and 
the amounts specified for government and contractor costs.
    Secretary Gates. The FY 2006 President's Budget submission 
(February 2005) reflected the following:

 
 
                                                   FY05    FY06    FY07
 
F135 SDD prime contractor                        786....  709...  421
F136 SDD prime contractor                        207....  227...  362
 


    While the entire Research, Development, Test & Evaluation (RDT&E) 
budget is shown for the 6-year FYDP in the budget exhibits, the FY06 
budget exhibits do not show the entire FY06-FY11 FYDP at the level of 
the F135 and F136, and other RDT&E specific planned accomplishments. 
That level of detail is only submitted for the budget year (FY05), the 
submitted year (FY06), and the following year (FY07).
    In February 2005, government costs were not separately identified 
for each of the two engine contracts.
    Mr. Smith. Please provide the planned and programmed funding, by 
fiscal year, for the F136 System Development and Demonstration (SDD) 
program when the contract was signed with the F136 contractor, with the 
total amount for the F136 and the amounts specified for government and 
contractor costs.
    Secretary Gates. The F136 SDD contract was signed in August 2005. 
The planned and programmed annual funding for the prime contractor as 
of August 2005 is detailed below. The Joint Strike Fighter (JSF) 
program did not track government costs separately for the F135 and F136 
programs at that time.

 
----------------------------------------------------------------------------------------------------------------
 
----------------------------------------------------------------------------------------------------------------
Fiscal Year                                              Planned and Programmed
----------------------------------------------------------------------------------------------------------------
FY 2005                                                  $102 million
----------------------------------------------------------------------------------------------------------------
FY 2006                                                  $343 million
----------------------------------------------------------------------------------------------------------------
FY 2007                                                  $417 million
----------------------------------------------------------------------------------------------------------------
FY 2008                                                  $458 million
----------------------------------------------------------------------------------------------------------------
FY 2009                                                  $393 million
----------------------------------------------------------------------------------------------------------------
FY 2010                                                  $386 million
----------------------------------------------------------------------------------------------------------------
FY 2011                                                  $226 million
----------------------------------------------------------------------------------------------------------------
To Complete                                              $161 million
----------------------------------------------------------------------------------------------------------------
Total                                                    $2,486 million
----------------------------------------------------------------------------------------------------------------


    Mr. Smith. Please provide the budgets for the F135 and F136 for 
FY07-09 as executed and FY10 as projected, with the amounts specified 
for government and contractor costs.
    Secretary Gates. The requested information is provided below; data 
is as of March 2010 ($-M-TY)

 
 
                                                FY07   FY08   FY09  FY10
 
F135 Prime contractor                          781..  654..  507..  637
F135 OGCs                                       31..   33..   33..   40
 
F136 Prime contractor                          338..  464..  425..  400
F136 OGCs                                        6..    9..    5..   28
 


    Mr. Smith. You make the following point in your statement, ``. . . 
. split or shared buys of items, particularly from only two sources, do 
not historically produce competitive behavior since both vendors are 
assured some share of the purchase.'' 1. Could you please provide the 
existing procurement programs that resulted from split or shared buys, 
e.g., the DDG-51? 2. Why does the Air Force continue to support F100 
and F110 U.S. purchases of spares and overseas sales of F100 and F110 
engines, long after the reason for the ``Great Engine War'' no longer 
existed? 3. Does or has any individual foreign military purchaser of 
F100 or F110 engines purchased both F100 and F110 engines? 4. Why does 
the Department purchase similar ammunition capabilities from multiple 
suppliers? 5. How many and what procurement programs continue to 
procure similar capabilities from two or more suppliers? Please specify 
the number of suppliers in each case.
    Secretary Gates. I appreciate your interest in the background and 
current information on split or shared buys within the Department and 
have addressed each one of your questions independently to ensure a 
clear and concise response.
    1. Could you please provide the existing procurement programs that 
resulted from split or shared buys, e.g., DDG-51.
    The Department does have some examples of major defense acquisition 
programs that have resulted from split or shared buys. The Army and the 
Air Force do not have any major defense acquisition programs that 
procure items from two or more suppliers. The Navy has several such 
programs: the F-35 Joint Strike Fighter, the DDG-51, Littoral Combat 
Ship, Virginia Class Submarine, and Mine Resistant Ambush Protected 
vehicle.
    2. Why does the Air Force continue to support F100 and F110 U.S. 
purchases of spares and overseas sales of F100 and F110 engines, long 
after the reason for the ``Great Engine War'' no longer existed?
    The Air Force is no longer buying new F100 and F110 spare engines 
for the active force, but continues to buy small quantities of spare 
engines for the Air National Guard and spare engine components and 
modules are routinely purchased to sustain these engines. The Air Force 
continues to facilitate the purchase of F100 and F110 engines for 
selected Foreign Military Sales (FMS) countries, but only as a 
purchasing agent, and the Department will purchase the engines in 
accordance with the direction provided by the FMS customer. FMS 
countries are free to select and purchase whichever engine they 
require. In this case, some countries (e.g. Chile, Greece, Egypt, South 
Korea and Israel) elected to buy both engines. The Air Force is 
compensated for any workload associated with these contracting actions. 
Additionally, FMS countries provide ``pro-rata'' funding to the Air 
Force Engine Component Improvement Program to gain access to future Air 
Force engine upgrades or modifications.
    3. Does or has any individual foreign military purchaser of F100 or 
F110 engines purchased both F100 and F110 engines?
    A split fleet, for the purposes of this question, means the same 
aircraft type flying with a mix of F-100 and F-110 engines. With this 
as a starting point, of the approximate 27 countries operating the F-
100 or the F-110 engines, only 5 have or will soon have a true ``split 
fleet.'' In one instance, Chile will use both engines due to unusual 
circumstances from a split buy of F-16's from separate nations. The 5 
countries that will have a split fleet are listed below:

  Chile--Operates both engines--because the F-16's they purchased new 
            had F-110 engines, but they later bought used F-16's from 
            the Netherlands which are equipped with F-100 engines.
  Israel--Operates both engines on F-16's
  Egypt--Operates both engines on F-16's
  Greece--Operates both engines on F-16's
  South Korea--Will operate both engines on F-15K's when it takes 
            delivery of the latest jets they have on order.

    Finally, Saudi Arabia operates F-100 on their F-15C/D models, but 
switched their F-15S aircraft to the F-110. These aircraft are 
dissimilar and were purchased separately, and therefore I do not 
consider this example to be one of a split fleet.
    4. Why does the Department purchase similar ammunition capabilities 
from multiple suppliers?
    As identified in the DoD Directive 5160.65, Single Manager for 
Conventional Ammunition (SMCA), It is DoD policy that, ``. . . . DoD 
Components shall: (1) Use acquisition strategies that stabilize the 
business environment . . . . (3) Justify expanded production capability 
for contingency readiness.''
    The Department purchases similar ammunition capabilities from 
multiple suppliers since having multiple sources reduces risk by 
protecting the industrial base against single points of failure. 
Additionally, multiple sources enhance surge capability in times of 
conflict, when there is a much higher and immediate demand for 
ammunition.
    5. How many and what procurement programs continue to procure 
similar capabilities from two or more suppliers?
    The Department does have some examples of Major Defense Acquisition 
Programs (MDAP) that have resulted from split or shared buys. The Army 
and the Air Force do not have any MDAPs that procure items from two or 
more suppliers. The Navy has several examples, the F-35 Joint Strike 
Fighter, the DDG-51, Littoral Combat Ship, Virginia Class Submarine, 
and Mine Resistant Ambush Protected vehicle program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. Congress has long recognized that a strategy is needed 
to maintain our country's body armor manufacturing capabilities so that 
we are prepared and well-equipped if situations call for a surge. In 
the FY10 NDAA, Congress specified that individual procurement and 
research and development line items be established for body armor in 
order to provide increased visibility and oversight within DoD and 
Congress. However, it seems DoD has failed to uphold this statutory 
requirement for FY11. I consider body armor a soldier's primary 
defense, why has the Department not established individual procurement 
and research and development line items for body armor. Secretary 
Gates, can you provide this committee with the Department's rationale 
on this issue?
    Secretary Gates. The Department believes that funding body armor in 
separate procurement and research and development line items would 
limit its flexibility to respond to the warfighters' need for 
protection clothing based on the number of forces deployed and the 
security conditions on the ground. Funding body armor and other 
protection gear in the Operation and Maintenance (O&M) accounts 
provides the Department with the flexibility to react to dynamic field 
situations and changing body armor requirements and technologies on a 
real time basis. Today the Department can quickly provide the 
warfighters with the state-of-the-art small arms protective inserts 
(SAPI) to upgrade their force protection gear. The SAPI plates and 
other force protection gear are considered expense items and are part 
of the soldier's clothing bag, which is bought with O&M funding. 
Budgeting for procurement of body armor (i.e., SAPI plates) as separate 
line items may slow the process of providing the warfighter with the 
state-of-the-art body armor gear on a real-time basis because 
procurement budget requests are put together a year or more in advance 
of submitting them to Congress and the actual field requirements in 
theater may change significantly from the planned assumptions.
    Ms. Sanchez. QDR that was just released states, ``. . . DoD's 
information networks have become targets for adversaries who seek to 
blunt U.S. military operations''. Unfortunately, these threats have 
been ignored for a very long time, and as recent reports have shown, 
our country is NOT prepared for any type of cyber attack. Can you 
provide this committee with a better sense of how the cyber threats to 
DoD and government systems have evolved over the past ten years? What 
new threats do you expect to see in the next ten years?
    Secretary Gates. In general, cyber threats have evolved with the 
technology. As new operating systems, software, devices, or types of 
networks have been added to the global infrastructure, new threats to 
those systems have often emerged within months. The more prevalent a 
system, the greater the likelihood of there being many techniques to 
compromise it. In the last five years, the cyber criminal sector in 
particular has displayed remarkable technical innovation with an 
agility presently exceeding that of network defenders. Criminals are 
developing new, difficult-to-counter tools. For example, cyber 
criminals are targeting mobile devices such as ``smart phones,'' whose 
increasing power and global adoption as an authentication mechanism for 
use in financial transactions makes them lucrative targets.
    In the next ten years, the threats will become more complex as 
technologies that were once separate, begin to merge and become 
seamless. Network convergence--the merging of distinct voice and data 
technologies to a point where all communications (e.g. voice, 
facsimile, video, computers, control of critical infrastructure, and 
the Internet) are transported over a single network--will probably come 
close to completion in the next five years. This convergence amplifies 
the opportunity for disruptive cyber attacks and unforeseen cascading 
effects on other parts of the U.S. critical infrastructure. Along with 
network convergence, the consolidation of data captured in emails via 
Internet search engines, Web 2.0 social networking sites, and via 
geographic location of mobile service subscribers increases the 
potential for identification and targeting of individuals.
    In summary, we face individuals, state and non-state sponsored 
cyber actors, terrorist networks, organized criminal groups, rogue 
states, and advanced nation states, each of which has its own 
combination of access, technical sophistication and intent. As a 
result, the United States faces a dangerous combination of known and 
unknown vulnerabilities, strong and rapidly expanding adversary 
capabilities, and a lack of comprehensive threat awareness. This 
situation is exacerbated by the fact that U.S. networks and 
infrastructure continue to form the core of cyberspace, making the 
scale of our defensive problem greater than that of any other nation.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WILSON
    Mr. Wilson. I am pleased to see that this budget supports care for 
our wounded, ill, and injured military members. One of your key 
initiatives is to ensure a high standard at facilities caring for 
wounded warriors, including first-rate hospitals and the Army's Warrior 
Transition Units. However, I am concerned that the current plans for 
wounded warrior support at the new Walter Reed National Military 
Medical Center when it opens at Bethesda in September 2011 is not at 
the same level of support currently furnished by the Army at Walter 
Reed Army Medical Center. Wounded Warriors who move to the new medical 
center will experience a significant degradation of services and 
support. This is unacceptable. What assurances can you give me that all 
of the wounded warrior support now provided at Walter Reed, including 
barracks space on the Bethesda campus, will be available when the new 
medical center opens in September 2011?
    Secretary Gates. Next to the war itself, casualty care remains the 
Department's top priority. The Military Health System (MHS) as well as 
the Military Treatment Facilities (MTFs) in the National Capital Region 
(NCR), where the majority of Wounded Warriors transit even if they do 
not receive care, will continue to provide the best healthcare and 
recovery services for warfighters and their families. The new Walter 
Reed National Military Medical Center (WRNMMC), Bethesda, and Fort 
Belvoir Community Hospital (FBCH) will anchor this effort in the NCR.
    Warrior Lodging--The Department's capacity planning for Bethesda 
includes 350 Wounded Warriors with a minimum of 150 Non-Medical 
Attendants (NMAs) and other family members. In addition, lodging 
capacity at WRNMMC, Bethesda will greatly exceed that of WRAMC. 
Construction is underway for a 280,000 square foot dedicated warrior 
lodging and services complex to support extended outpatient medical 
treatment. It will finish in June 2011 and supply 153 double occupancy 
suites. The design supports warriors and NMAs in a two bedroom suite 
concept that is fully compliant with the Americans with Disabilities 
Act (ADA). Further, the Department has included $62.9M in the 
President's FY 2011 budget request for another 100 double occupancy 
suites.
    Warrior Support Services--Between the two wings of suites, a four-
story central support facility will include a dining facility, resident 
support center, and administrative functions specifically dedicated to 
the command and control of the wounded warrior population. Each Service 
will have space set aside to provide service to their specific 
population, tailored to meet their mission requirements.
    A physical fitness center is also under construction and will be 
sized to properly accommodate the space and access requirements of the 
WRNMMC, Bethesda Warrior in Transition (WIT) population and allow them 
to exercise alongside other Warriors and caregivers. This will support 
integration and re-integration of WITs into their community, and the 
reestablishment of the warrior/athlete ethos.
    Medical Care for Warriors--The most visible core missions of 
WRNMMC, Bethesda will continue to be amputee/rehabilitative and 
Traumatic Brain Injury (TBI) care. The quality of medical care for the 
wounded warriors at Walter Reed Army Medical Center (WRAMC) and 
National Naval Medical Center (NNMC), as it exists today, will be 
maintained and even enhanced at the WRNMMC, Bethesda.
    By September 15, 2011, Bethesda will provide healthcare and 
recovery services for WITs and their families that exceed those that 
currently exist in the region. As per section 2714(b) of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2010, the Department 
is developing a Comprehensive Master Plan to provide for additional 
world-class capabilities at Bethesda.
    Mr. Wilson. Over the past 11 years, Congress has done much to close 
the gap between military and civilian pay. Closing this gap is critical 
to maintaining recruiting and retention programs that are essential to 
the health of the all volunteer force, especially while the nation is 
currently at war and operations tempo remains high. Given that the 
parity with the private sector is only 2.4 percent away from current 
levels, why do you believe it is wise to stop the process of reaching 
general parity with private sector pay raises at this point?
    Secretary Gates. First, I would like to thank the Congress for the 
attention it has paid to helping to increase the competitiveness of 
military compensation with the private sector. The pay increases of \1/
2\ percent above the ECI over the past decade have helped not only 
close the actual pay gap but also the pay gap as perceived by military 
members. Recent survey data indicates approximately \3/4\ of members 
believe their compensation is as good as or better than their former 
high school classmates.\1\
---------------------------------------------------------------------------
    \1\ April 2008 Status of Forces Survey of Active Duty Members, by 
DMDC.
---------------------------------------------------------------------------
    Today, the Department believes the pay gap has been closed and the 
full compensation package provided to military members compares 
favorably with counterparts in the private sector. The numbers of young 
men and women joining the military continue to exceed our goals. Our 
overall retention numbers are very good. We are on target or ahead of 
plan in meeting our retention goals. Although part of this certainly is 
attributable to current conditions in the economy, members' continued 
willingness to serve and satisfaction with their compensation remain 
high.
    There are a number of ways to measure comparability between 
military and private-sector compensation. From the perspective of the 
Department, the ability of our compensation system to attract and 
retain a sufficient force with the proper mix of skills and specialties 
is the essential measure. Currently, except for some specific skill 
areas, the compensation system is providing the force structure the 
Department needs. In areas where skills are in high demand in the 
private sector, such as nuclear, healthcare, and special operations 
fields, we rely on special and incentive pays and bonuses to compete 
effectively. Instead of across-the-board pay raises in excess of the 
ECI, increases for special and incentive pays and bonuses would provide 
more flexibility to the Department to meet specialized recruiting and 
retention needs.
    The often cited 2.4 percent pay gap compares changes in basic pay 
since 1982 to changes in the ECI. The use of basic pay in this 
comparison is of limited value, because the significance of the housing 
and subsistence allowances has grown. When viewing military 
compensation over this same period and including these allowances, the 
gap of 2.4 percent actually turns into a surplus of over 9 percent.
    Mr. Wilson. Do the equipping and manning strategies for the 
National Guard's new operational role also take into consideration the 
strategic reserve role the National Guard has historically played? For 
example, do National Guard units that are not immediately scheduled for 
deployment have sufficient equipment to perform domestic missions and 
serve as a strategic reserve, should new global demands unrelated to 
the current operations in Iraq and Afghanistan emerge? Are there 
reserve units dedicated to a strategic reserve role and, if so, how are 
they equipped?
    Admiral Mullen. Since September 11, 2001, the Army has relied 
heavily upon the Army National Guard (ARNG) and the U.S. Army Reserve 
(USAR) for sustained operations and enduring requirements under partial 
mobilization authority. The Army has increasingly considered itself an 
operational force that maintains strategic depth. The global demands on 
the services require National Guard forces to be equally equipped and 
manned to handle strategic and operational roles while performing 
federal and state missions.
    The statutory and regulatory structure governing employment of the 
reserve component has changed little since the Cold-War era when the 
Reserve Component was envisioned as a strategic reserve capable of 
rounding out operational Active Component (AC) units when required. The 
ARNG currently maintains a standing rotational commitment of one 
division and five Brigade Combat Teams plus support structure to meet 
an annual mobilization requirement of between 55,000 and 60,000 
Soldiers. The utilization of the ARNG as an operational force to 
augment the operational capability of the AC creates a set of enduring 
requirements and demand for resources.
    Under the current operational tempo, the ARNG must cross-level 
personnel and equipment into mobilizing units at the expense of units 
scheduled for subsequent rotations. Because personnel and equipment 
shortages exist service-wide, the ARNG must provide internal bill-
payers to meet readiness goals. The initiative to operationalize the 
Reserve Component means that the ARNG must build and maintain a high 
degree of unit readiness prior to mobilization in order to support 
enduring operational requirements. The requirement of a generating 
force made up of Table of Distribution and Allowances units is 
necessary for the long-term health and balance of the force even though 
these particular units do not mobilize as part of the operational 
force. ARNG units must also balance accessibility to the AC with the 
dual mission requirements of their home states, placing further demand 
on scarce and valuable resources.
    Within the construct of Army Force Generation (ARFORGEN), Active 
and Reserve Component units in the early phases of ARFORGEN constitute 
the nation's strategic depth, available for contingencies other than 
the current warfight. Throughout the ARFORGEN cycle, National Guard 
units must be prepared to perform domestic missions. The 2009 Army 
Equipping Strategy accounts for these requirements.
    The Army Equipping Strategy specifically acknowledges the need for 
Critical Dual Use equipment, meaning equipment utilized during both 
wartime and Homeland Defense/Defense Support to Civil Authorities 
(homeland) missions, be filled at 80% or better. The overall Critical 
Dual Use on-hand rate (as of SEP 09) stands at 83%; however, due to the 
warfight, the available rate is 65%. This Critical Dual Use available 
rate includes risk that ARNG units will not be able to complete 
homeland missions. It should be noted, however, that ARNG units have 
not failed to complete assigned homeland missions in the past as a 
result of equipment shortages. This risk is mitigated through the use 
of the Emergency Management Assistance Compact program between States.
    The ARNG has no units in a specified ``strategic reserve role''; 
however, ARNG units in the early phases of the ARFORGEN cycle, and not 
immediately identified for deployment, are part of the strategic depth 
of the generating force and are available for contingencies. This level 
of fill includes risk as the Army Unit Status Reporting system 
identifies that a unit at this level does not possess the required 
resources to undertake the full wartime or the primary mission for 
which it has been organized and designed, but the unit may be directed 
to undertake portions of its mission with the resources on hand. 
Mission success is possible, but flexibility is severely restricted. 
This risk is mitigated as units are provided equipment for training 
purposes and follow on deployment, when identified for a contingency 
mission.
    Certain units of the ARNG, such as Counter Drug units and Civil 
Support Teams, are constrained by law to specific missions and are 
unavailable for operational missions outside of their statutory 
mandates. A base budget informed by enduring requirements enables the 
ARNG to achieve the proper balance of operational strength and 
generating force capability while providing trained, ready, and 
equipped units accessible to the AC for current operations in addition 
to emergent contingencies. Resourcing the ARNG as an operational force 
creates strategic depth and provides sufficient and necessary 
capability to AC commanders in the field.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. Several defense and space program terminations by this 
Administration in FY10 and recommended for FY11 are already having 
profound negative impacts upon the defense industrial base with regard 
to our nation's ability to design, build, and maintain solid rocket 
motors. These decisions have already resulted in literally thousands of 
highly-specialized and skilled rocket scientists, engineers, and 
technicians losing their jobs over the past several months, along with 
the resultant loss of decades' worth of expertise to the nation.
    I anticipate future impacts on the remaining programs, including 
increased costs for raw products and materials. For example, previous 
Defense Department decisions include the end of the Minuteman III 
Propulsion Replacement Program (PRP), with no solid commitment to a 
warm-line effort; the Missile Defense Agency's decision to terminate 
the Kinetic Energy Interceptor (KEI) and to halt production of the 
Ground Midcourse Defense (BMD) interceptor, also without any 
significant industrial base sustainment. Other negative departmental 
decisions include perpetual delays in beginning development for any DoD 
follow-on program for strategic missiles or other large scale boosters.
    Finally, the recent FY11 NASA recommendation to terminate the 
Constellation program along with the Ares 1 and Ares 5 rockets, 
collectively mean that there effectively remains no large solid rocket 
motor production program, and significantly fewer solid rocket motor 
production programs in general, within the federal government to 
sustain the private defense and space industrial base in this critical 
area.
    The Department of Defense's ``Solid Rocket Motor (SRM) Capabilities 
Report to Congress, Dated June 2009, at page 47 in the Executive 
Summary, makes the following statement: ``Delays in the NASA Ares 
program could have a significant negative impact on the large SRM prime 
contractor industrial base and on some of the SRM subtier base, 
specifically material suppliers. [emphasis added]. If the cited DoD 
report was correct in stating that a mere delay in the NASA Ares 
program could have a ``significant negative impact'' on the large SRM 
prime contractor industrial base, what is the Department of Defense's 
position on the impacts that outright cancellation of the NASA Ares 
rockets under the Constellation program would have on the shared U.S. 
defense and space industrial base as recommended in the President's 
FY11 budget proposal to Congress?
    Secretary Gates. I believe that the outright cancellation of the 
NASA Constellation program will impact all DoD programs that use SRMs 
to include strategic and tactical missiles, missile defense systems, 
and solid booster programs for our space launch platforms. These 
impacts could include cost increases, as component suppliers may have 
higher costs structures associated with lower production rates. The 
Department believes that regardless of the NASA decision, the large SRM 
industrial base must ``right-size'' its significant facility 
overcapacity to remain viable, innovative and competitive for future 
needs. It is possible that a reduction in excess capacity may, in fact, 
ultimately create savings for the Department over the longer-term.
    Mr. Bishop. Several defense and space program terminations by this 
Administration in FY10 and recommended for FY11 are already having 
profound negative impacts upon the defense industrial base with regard 
to our nation's ability to design, build, and maintain solid rocket 
motors. These decisions have already resulted in literally thousands of 
highly-specialized and skilled rocket scientists, engineers, and 
technicians losing their jobs over the past several months, along with 
the resultant loss of decades' worth of expertise to the nation.
    I anticipate future impacts on the remaining programs, including 
increased costs for raw products and materials. For example, previous 
Defense Department decisions include the end of the Minuteman III 
Propulsion Replacement Program (PRP), with no solid commitment to a 
warm-line effort; the Missile Defense Agency's decision to terminate 
the Kinetic Energy Interceptor (KEI) and to halt production of the 
Ground Midcourse Defense (BMD) interceptor, also without any 
significant industrial base sustainment. Other negative departmental 
decisions include perpetual delays in beginning development for any DoD 
follow-on program for strategic missiles or other large scale boosters.
    Finally, the recent FY11 NASA recommendation to terminate the 
Constellation program along with the Ares 1 and Ares 5 rockets, 
collectively mean that there effectively remains no large solid rocket 
motor production program, and significantly fewer solid rocket motor 
production programs in general, within the federal government to 
sustain the private defense and space industrial base in this critical 
area.
    The Department of Defense's ``Solid Rocket Motor (SRM) Capabilities 
Report to Congress, Dated June 2009, at page 47 in the Executive 
Summary, makes the following statement: ``Delays in the NASA Ares 
program could have a significant negative impact on the large SRM prime 
contractor industrial base and on some of the SRM subtier base, 
specifically material suppliers. [emphasis added]. If NASA's FY11 
proposal to terminate Constellation and Ares 1 and Ares 5 rockets is 
agreed to by the Congress, what additional risks and negative impacts 
will occur to the private SRM industrial base's ability to sustain our 
strategic, missile defense, space launch, and tactical missile weapons 
systems in future years?
    Secretary Gates. I expect the private SRM industrial base for large 
SRMs to ``right-size'' an already significantly underutilized and 
overcapitalized infrastructure. This is an important opportunity for 
industry to better align its industrial capabilities with the current 
and future large SRM market demand. I do not expect that the large SRM 
industry will ever see the requirements for large SRMs that we 
encountered during the industry buildup from the 1960s through the 
1980s, or even the 1990s, but I am also well aware that the Department 
must ensure it has the design skills and production capabilities 
necessary to support both strategic and tactical programs well into the 
future. Prime SRM suppliers and their sub-tier suppliers will have to 
downsize and/or consolidate their capacity, which is already at all 
time low levels of utilization, to adjust to the new market demand 
levels. I am committed to working closely with our industrial partners 
as we right size this base to meet our future requirements.
    Mr. Bishop. Several defense and space program terminations by this 
Administration in FY10 and recommended for FY11 are already having 
profound negative impacts upon the defense industrial base with regard 
to our nation's ability to design, build, and maintain solid rocket 
motors. These decisions have already resulted in literally thousands of 
highly-specialized and skilled rocket scientists, engineers, and 
technicians losing their jobs over the past several months, along with 
the resultant loss of decades' worth of expertise to the nation.
    I anticipate future impacts on the remaining programs, including 
increased costs for raw products and materials. For example, previous 
Defense Department decisions include the end of the Minuteman III 
Propulsion Replacement Program (PRP), with no solid commitment to a 
warm-line effort; the Missile Defense Agency's decision to terminate 
the Kinetic Energy Interceptor (KEI) and to halt production of the 
Ground Midcourse Defense (BMD) interceptor, also without any 
significant industrial base sustainment. Other negative departmental 
decisions include perpetual delays in beginning development for any DoD 
follow-on program for strategic missiles or other large scale boosters.
    Finally, the recent FY11 NASA recommendation to terminate the 
Constellation program along with the Ares 1 and Ares 5 rockets, 
collectively mean that there effectively remains no large solid rocket 
motor production program, and significantly fewer solid rocket motor 
production programs in general, within the federal government to 
sustain the private defense and space industrial base in this critical 
area.
    The Department of Defense's ``Solid Rocket Motor (SRM) Capabilities 
Report to Congress, Dated June 2009, at page 47 in the Executive 
Summary, makes the following statement: ``Delays in the NASA Ares 
program could have a significant negative impact on the large SRM prime 
contractor industrial base and on some of the SRM subtier base, 
specifically material suppliers. [emphasis added]. If NASA's FY11 
proposal to terminate Constellation and Ares 1 and Ares 5 rockets is 
agreed to by the Congress, what impact will that decision have on the 
Department of Defense's ability in future years to undertake the 
development of new programs that utilize solid rocket motors, such as 
any strategic, missile defense, space lift, or tactical missiles 
programs?
    Secretary Gates. In accordance Section 1078 of the National Defense 
Authorization Act for Fiscal Year 2010 (Public Law 111-84), the 
Department is preparing a ``sustainment plan'' for its SRM industrial 
base. The Under Secretary of Defense for Acquisition, Technology and 
Logistics established an interagency task force that has been working 
on this important issue since November of last year. The Interagency 
Task Force is currently assessing the impacts that the decision to 
cancel the NASA Constellation program will have on DoD's ability to 
develop new programs that utilize large SRMs. It is clear that the 
industrial base must ``right-size'' itself to be more aligned with the 
reality of future requirements in order for the base to continue to be 
viable, innovative, and competitive.
    Mr. Bishop. Several defense and space program terminations by this 
Administration in FY10 and recommended for FY11 are already having 
profound negative impacts upon the defense industrial base with regard 
to our nation's ability to design, build, and maintain solid rocket 
motors. These decisions have already resulted in literally thousands of 
highly-specialized and skilled rocket scientists, engineers, and 
technicians losing their jobs over the past several months, along with 
the resultant loss of decades' worth of expertise to the nation. I 
anticipate future impacts on the remaining programs, including 
increased costs for raw products and materials. For example, previous 
Defense Department decisions include the end of the Minuteman III 
Propulsion Replacement Program (PRP), with no solid commitment to a 
warm-line effort; the Missile Defense Agency's decision to terminate 
the Kinetic Energy Interceptor (KEI) and to halt production of the 
Ground Midcourse Defense (BMD) interceptor, also without any 
significant industrial base sustainment. Other negative departmental 
decisions include perpetual delays in beginning development for any DoD 
follow-on program for strategic missiles or other large scale boosters. 
Finally, the recent FY11 NASA recommendation to terminate the 
Constellation program along with the Ares 1 and Ares 5 rockets, 
collectively mean that there effectively remains no large solid rocket 
motor production program, and significantly fewer solid rocket motor 
production programs in general, within the federal government to 
sustain the private defense and space industrial base in this critical 
area. The Department of Defense's ``Solid Rocket Motor (SRM) 
Capabilities Report to Congress, Dated June 2009, at page 47 in the 
Executive Summary, makes the following statement: ``Delays in the NASA 
Ares program could have a significant negative impact on the large SRM 
prime contractor industrial base and on some of the SRM subtier base, 
specifically material suppliers. [emphasis added]. Did NASA, or the 
Office of Management and Budget (OMB), specifically consult with the 
Department of Defense during formulation of the President's FY11 budget 
proposal regarding the impacts that cancellation of the Constellation 
program and Ares 1 and Ares 5 rockets would have on the shared defense 
and space industrial base? If so, please describe the extent to which 
those consultations took place and which executive-level Administration 
officials were involved in those consultations.
    Secretary Gates. The Office of Science and Technology Policy (OSTP) 
for the White House did ask the Navy what they believed the impact 
would be to the SRM industrial base if the Ares programs were 
terminated. During the spring of 2009, representatives from OSTP met 
with the Industrial Policy office (part of the Office of the Under 
Secretary of Defense for Acquisition, Technology, and Logistics), met 
to discuss the result of the SRM Industrial Capabilities Report to 
Congress, signed on April 2, 2009. As part of a government-wide effort, 
AT&L/IP also met with OSTP representatives in mid-November to consult 
on the congressionally directed SRM Sustainment plan, at which time the 
various human flight options NASA was considering were discussed.
    Mr. Bishop. Several defense and space program terminations by this 
Administration in FY10 and recommended for FY11 are already having 
profound negative impacts upon the defense industrial base with regard 
to our nation's ability to design, build, and maintain solid rocket 
motors. These decisions have already resulted in literally thousands of 
highly-specialized and skilled rocket scientists, engineers, and 
technicians losing their jobs over the past several months, along with 
the resultant loss of decades' worth of expertise to the nation.
    I anticipate future impacts on the remaining programs, including 
increased costs for raw products and materials. For example, previous 
Defense Department decisions include the end of the Minuteman III 
Propulsion Replacement Program (PRP), with no solid commitment to a 
warm-line effort; the Missile Defense Agency's decision to terminate 
the Kinetic Energy Interceptor (KEI) and to halt production of the 
Ground Midcourse Defense (BMD) interceptor, also without any 
significant industrial base sustainment. Other negative departmental 
decisions include perpetual delays in beginning development for any DoD 
follow-on program for strategic missiles or other large scale boosters.
    Finally, the recent FY11 NASA recommendation to terminate the 
Constellation program along with the Ares 1 and Ares 5 rockets, 
collectively mean that there effectively remains no large solid rocket 
motor production program, and significantly fewer solid rocket motor 
production programs in general, within the federal government to 
sustain the private defense and space industrial base in this critical 
area.
    The Department of Defense's ``Solid Rocket Motor (SRM) Capabilities 
Report to Congress, Dated June 2009, at page 47 in the Executive 
Summary, makes the following statement: ``Delays in the NASA Ares 
program could have a significant negative impact on the large SRM prime 
contractor industrial base and on some of the SRM subtier base, 
specifically material suppliers. [emphasis added]. Is preservation of 
the SRM industrial base a matter of significant concern to the 
Department of Defense and, if so, what specific funding or 
administrative actions do you propose in FY11 and beyond to maintain 
this viable SRM industrial capability?
    Secretary Gates. Yes, I believe that the Department requires the 
large SRM industrial base to provide the propulsion for its strategic 
systems, missile defense programs, and space launch. The Department is 
evaluating current research and development and production programs to 
determine how the SRM programs must be adjusted to the changing large 
SRM critical skills and subtier supplier base. The Department is 
committed to sustaining an adequate SRM industrial base to support both 
its strategic and tactical needs.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. My question is regarding the military humanitarian 
mission in Haiti. Can you comment as to whether or not the C-27, Joint 
Cargo Aircraft, have been used for the Haiti Humanitarian Relief 
Operations and in what capacity? If the aircraft has not been utilized, 
can you explain why this tactical asset has not been used to disperse 
needed supplies to regions outside the epicenter of Port-au-Prince?
    Admiral Mullen. The C-27J is not in use in Haiti because it is 
still in the Test and Evaluation stage of development. It is currently 
scheduled for Multi-Service Operational Test and Evaluation in April 
2010. Presently three aircraft are in the inventory and the first 
operational deployment is tentatively scheduled for spring 2011.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. This submission continues the trend of reducing the 
proportion of the budget dedicated to research and development. This 
continued erosion limits our ability to maintain technological 
superiority over our adversaries. In both the QDR and this budget you 
talk about prevailing in today's conflicts while positioning for the 
future. What is the department's plan to ensure that we do not mortgage 
our future technologically by eroding our investment in basic and 
applied research today?
    Secretary Gates. Under my leadership, the Department remains 
committed to the future by increasing investments in both basic and 
applied research. The FY 2011 President's Budget Request for basic 
research ($1.999 billion) represents an 11.2 percent increase over the 
amount requested in FY 2010 ($1.798 billion). When compared to the FY 
2008 DoD request for basic research ($1.428 billion), the FY 2011 
request has risen 40 percent over a 3-year period. The FY 2011 
President's Budget Request for applied research ($4.476 billion) 
represents a 5.4 percent increase over the level requested in FY 2010 
($4.247 billion). Combined, the FY 2011 request for basic and applied 
research is $6.475 billion, an increase of 7.1 percent over the 
combined FY 2010 request for $6.045 billion. It is my view that that 
the Department's continuing increased investment in basic and applied 
research represents a commitment to preserving the future technological 
superiority of our Armed Forces.
    Mr. Lamborn. In your budget hearing testimony, you provided an 
example to illustrate why a reduction in overall aircraft for the Air 
Force from 2200 strike aircraft to 1500 or 1600 is not as severe as it 
seems because replacement aircraft are more capable, i.e. it is not a 
one to one trade. Your specific example talked to the fact that a MQ-9 
Reaper Unmanned Ariel Vehicle (UAV) is as capable perhaps as two F-16s 
in its ability to provide combat effects over Iraq and Afghanistan 
(Intelligence, Surveillance, and Reconnaissance (ISR) and air-to-ground 
strike capabilities). This may be true for today's fight, but your 
answer overlooks, like much of the QDR, the longer term threat and 
requirements on this force. The MQ-9 Reaper cannot perform nor does it 
perform the Suppression of Enemy Air Defenses (SEAD) mission. The F-16 
does. How does your equation for force structure and the fighter gap 
change when these mission areas gain importance, as they may, in a 
future conflict against a peer or near-peer?
    Secretary Gates. The Air Force manned fighter/attack inventory will 
decrease in size from about 2200 aircraft in FY 2009 to about 1860 in 
FY 2020. During this time the capability of the force will dramatically 
increase. The number of fifth-generation aircraft will grow from about 
140 in FY09 to about 630 in FY20, a 340% increase. This is an order of 
magnitude greater than the estimated fleets of any potential adversary.
    The Air Force has procured 187 F-22s and plans to procure 1763 F-
35s to provide the capabilities needed for a future peer or near-peer 
conflict. The F-35 is scheduled to replace the F-16 in all mission 
areas, including the Suppression of Enemy Air Defenses (SEAD). With its 
stealth features and advanced sensing the F-35 is significantly more 
capable than the F-16. Given the magnitude of these improvements we do 
not need to replace legacy aircraft strictly on a one for one basis.
    Mr. Lamborn. Does the delay in the F-35 fighter program drive the 
need for further life extension upgrades on 4th generation fighters? If 
so where will the funding come from for these Service Life Extension 
Programs (SLEPs) and when can we expect to hear specifics about the 
upgrade plan?
    Admiral Mullen. The Joint Strike Fighter (JSF) program restructure 
is currently not driving service-life extension efforts for legacy 
fighters. Rather, the Department continually assesses strike-fighter 
force structure requirements in preparation for future budgets, and 
service-life extension is one option that can help mitigate future 
challenges. Other options to maintain the legacy fighter fleet include 
changes to current Concepts of Operations, aligning Carrier Air Wing 
readiness with Carrier readiness, and Air Wing composition and force 
structure.
    The Department's Fiscal Year 2011-2015 Future Years Defense Program 
includes funding for several legacy fighter efforts. Specifically, the 
Navy budgeted for a service life assessment for the F-18 series 
aircraft to help inform the Department on the amount of service life 
that can be extended and the modification costs. In addition, the Air 
Force has scheduled a fleet-viability review for the F-16C/D that will 
be completed by the end of Fiscal Year 2011. Finally, funding is 
allocated for Full-Scale Fatigue Testing for both F-15s and F-16s.
    Mr. Lamborn. According to your testimony, the President's budget 
request includes funding for two new Combat Aviation Brigades (CABs). 
The 4th Infantry Division at Ft. Carson is the only Infantry division 
without a CAB. Given that, will at least one of these new CABs be 
designated for the 4th ID at Ft. Carson?
    Admiral Mullen. The Army is studying courses of action for the 
final stationing of both CABs you mention in your question. The final 
stationing decision for the 13th CAB is tied to the timeline for the 
CAB's activation (between Fiscal Years 2015 to 2018) and Fort Carson is 
one of the facilities under consideration.
    Mr. Lamborn. Testimony at both the budget and QDR hearings 
emphasized the Administration's commitment to sustainment of Homeland 
Missile Defense initiatives while intensifying the focus on regional 
missile defense. The QDR and BMDR report clearly states that the 
ballistic threat is expanding rapidly both qualitatively and 
quantitatively. Taking both of these facts into account, it is 
interesting that the MDA is only procuring 8 new SM-3 interceptors in 
FY11, when the industrial base is sized to support 48 per year. Why is 
this and are we procuring enough SM-3s to properly resource the new 
missile defense strategy in the near and long term?
    Admiral Mullen. The Missile Defense Agency procurement plan for SM-
3 missiles is structured to balance competing needs of the theater/
regional Combatant Commander mission for Aegis Ballistic Missile 
Defense (BMD) ships and SM-3 missiles, with development and procurement 
plans for new versions of the SM-3, continuing Aegis BMD's realistic 
test program, and development and installation of upgrades to the Aegis 
BMD weapon system.
    Fiscal Year 2011 drop in SM-3 production orders represents the 
shift in resources from producing SM-3 Block IA missiles to production 
of the more capable SM-3 Block IB missiles. As part of this shift and 
along with the eight procured missiles, twelve additional SM-3 Block IB 
interceptors are being purchased in Fiscal Year 2011 with RDT&E funds 
to support testing and evaluation.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. The Post-Deployment/Mobilization Respite Absence 
(PDMRA) program was established to provide benefits to service members 
who have been deployed beyond established rotation cycles. 
Unfortunately, because of a delay between the announcement of the 
program and its implementation, roughly 23,000 Army National Guard 
Soldiers nationwide, and roughly 750 Soldiers in Iowa, have not 
received the benefits they earned. This is compounded by the fact that 
roughly 2,000 Soldiers who are owed PDMRA benefits have already been 
re-deployed and many more are preparing for another deployment. The FY 
2010 NDAA authorized DOD to provide PDMRA benefits retroactively. I 
understand that Deputy Under Secretary of Defense Carr recently signed 
 memorandum authorizing the Service Secretaries to provide the PDMRA 
benefits retroactively. These Soldiers have been waiting for two years 
for the benefits that they are due for their service, so I would very 
much encourage you to move as expeditiously as possible to get these 
benefits paid out. Can you provide me with a timeframe for when the 
Service Secretaries will provide these payments to the Soldiers who are 
still waiting for them?
    Secretary Gates. The Army has a detailed plan for payment to all 
National Guard soldiers who are eligible for compensation under PDMRA. 
The Army received the Army National Guard's preliminary list of 
eligible individuals. The Army will begin payments on March 1, and will 
continue to diligently process and pay claims until eligible 
individuals are appropriately compensated.
    Statutory authority was required to retroactively compensate former 
Service members for PDMRA days earned from Jan 19, 2007, through the 
date each respective Service implemented their respective PDMRA 
program. Section 604 of the FY10 NDAA, signed on October 28, 2009, 
provided me the discretionary authority to compensate current and 
former Service members for PDMRA days earned from Jan 19, 2007, through 
the date each respective Service implemented their PDMRA program. Based 
on the FY 2010 Defense Appropriations Bill passed on December 19, 2009, 
DoD implementation policy was coordinated and approved on February 1, 
2010.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS
    Ms. Giffords. Thank you, Mr. Chairman and thank you Secretary Gates 
and Chairman Mullen for your service to our country and for appearing 
here today. I am confident that this year's budget request represents a 
strong commitment by the Administration to our national defense. 
However, this year's budget repeats many of the mistakes of last 
year's. While this year's budget documents are accompanied by the QDR, 
neither adequately explains the continued gap in fighter aircraft nor 
does it address in any way whatsoever the recapitalization of Search 
and Rescue equipment. These two areas represent a significant oversight 
in the short- and long-term force level constructs. Last year, the U.S. 
Joint Forces Command study of Combat Search and Rescue showed that the 
Air Force does it better than any other service, consistently, across 
the board. In fact, their evaluation showed that the Air Force is 
better at nearly all Rescue functions than even the elite Army Special 
Operations units. Still, the budget reflects no noticeable attention to 
this necessary mission nor does the QDR dedicate one single word to 
this question. There are nearly a dozen units in my district alone and 
hundreds of thousands of service members around the globe that depend 
on this capability every day. On another issue, for several years, 
Congressman LoBiondo and I have requested a full and fair assessment of 
our fighter requirements and aircraft inventory. After long last, we 
finally have a number from the Department that indicates we will lower 
the requirement for manned fighter aircraft by 206 planes. Overall, 
this represents a reduction of 536 aircraft from two years ago. 
According to supporting documents, shortages of Air Force strike 
fighters still appear to be likely between 2017 and 2024 and these 
retirements are NOT offset by procurement of the Joint Strike Fighter. 
We cannot continue to ignore these issues and simply hope they will 
resolve themselves. We have learned in the most difficult circumstances 
possible that such a strategy never works. This Committee and this 
Congress do not have the luxury of planning our nation's defense on a 
year-to-year basis. It is the responsibility of this Committee to 
balance short-term security with long-term stability and provide for 
the continued robust defense of our nation. In many ways, this budget 
fails to provide for these systems and the long-term strategy fails to 
see the quality in quantity. Last year you commented on the comparative 
analysis between our 5th generation fighter capability and that of 
China. According to your testimony last year, China will have only 
1,700 aircraft in their inventory and zero 5th Generation fighters by 
2020. But according to available intel data obtained in the last year, 
the PLAAF has 600 attack and bomber aircraft and 1,300 fighters today. 
We also know that incursions into our cyber infrastructure have 
compromised some of our JSF blueprints and that China is now developing 
a 5th Gen fighter. Last week, Russian aeronautics manufacturer Sukhoi 
flew their first Gen 5 fighter, which we know will likely be for 
export.
    Do you stand by your previous testimony on our comparative 
numerical advantage over the next 15 years?
    With the growing aircraft force among our near-peer competitors, 
how do we reconcile decreasing the number of fighters available for 
combat?
    Secretary Gates. The 2010 QDR assessed Defense Department 
capabilities required to provide the President with options across a 
wide range of future contingencies through the 2016 timeframe, 
including deterring conflict and defeating aggression by adversary 
states. The Department has assumed a moderate level of risk in the 
near-term with respect to the number of fighters, but it has re-
invested the savings into the capabilities required as a bridge to a 
future 5th Generation enabled force. QDR assessments indicate the 
programmed force of strike aircraft will be sufficient to defeat the 
efforts of our adversaries, including adversaries with advanced anti-
access capabilities. I will re-evaluate the impacts of the recently 
announced slip in F-35 initial operational capability and the 
implications to our legacy force.
    Ms. Giffords. Under current projections, there continues to be a 
gap in the Air National Guard, even under the most optimistic 
projections. By 2017, the Air Guard will be forced to close 13 Fighter 
Wings unless the Department acts now. Last year at this hearing we were 
promised a plan for recapitalizing the Air National Guard's fighter 
fleet but neither the budget nor the Quadrennial Defense Review (QDR) 
appear to contain one. We simply continue to hear that Joint Strike 
Fighter (JSF) is the answer. Still, your timeline for JSF and your 
timeline for aircraft retirements leave a multi-year hole.
    How does the Department plan to plug that hole with the required 
number of manned fighter aircraft and under the current realities of 
the F-35 program?
    Secretary Gates. The Department has provided Congress a long-term 
plan for fighter forces in the ``Aircraft Investment Plan for Fiscal 
Years 2011-2040'', which was submitted with the budget. The DoD has 
assumed a moderate level of risk in the near-term with the number of 
fighters, but it has re-invested the savings into the capabilities 
required as a bridge to the future 5th-Generation enabled force. The 
QDR assessment indicated the programmed force for strike aircraft will 
be sufficient to defeat the efforts of our adversaries. We will 
continue to evaluate the impact of the shift in F-35 production and 
determine the implications on the legacy force.
    Ms. Giffords. As part of your efforts to rebalance the department 
and increase cost effectiveness of the force, have you examined the 
relative value of the Reserve Components vice the Active Components?
    Secretary Gates. We continue to study the appropriate mix between 
the Active and Reserve Forces and associated cost benefits to support 
warfighter requirements. The Department applies a Total Force 
Integrated process in assessing the benefits that each Component 
contributes in support of the fighter community.
    Ms. Giffords. What criteria does the Department use to apportion 
capabilities and missions between the components?
    Secretary Gates. The Department apportions capabilities and 
missions based upon President of the United States, Secretary of 
Defense, and Chairman of the Joint Chief of Staff guidance promulgated 
in documents such as the Unified Command Plan, National Security 
Strategy, National Military Strategy, and as refined in the QDR, the 
Congressionally mandated Quadrennial Roles and Mission review process, 
the Joint Operating and Integration Concepts, the Joint Strategic 
Capabilities Plan and the Guidance for Development of the Force. Also, 
there are OSD-led efforts such as the OSD/Capabilities Assessment 
Program and Evaluation ``Tactical Air Issue team'' that contribute to 
the decisions.
    Ms. Giffords. Assuming that Reserve Component forces are cheaper, 
is the department prepared to modify its historic fielding plans which 
typically replace Active Duty equipment first, with a concurrent and 
proportional fielding method?
    Secretary Gates. During the past two decades the Air Reserve 
Component has transitioned to more of an operational force. The Air 
Reserve Component's ability to potentially provide forces at a reduced 
operating cost is directly tied to the Active Component's on-going 
investment in Air Force-wide equipment, modernization, and training 
pipeline. Historically the ratio between Active and Air Reserve 
Component aircraft has not exceeded a 60/40 mix. If the Air Reserve 
Component grows beyond 40% of the total Air Force, sustainability and 
potential cost benefits diminish. At the end of Fiscal Year 2011, the 
percentage of Air Reserve Component combat-coded fighter aircraft is 
projected to be 42% of the total combat-coded fighter force.
    Ms. Giffords. When you cancelled the CSAR program, you testified 
that the next year would be spent researching potential alternatives 
and verifying the requirement. At Davis-Monthan Air Force Base in my 
district, they have long awaited the final selection and delivery of a 
new aircraft. Among operators, there is no question of the need for 
this system. The Joint Personnel Recovery Agency verified what we 
already knew--that the Air Force does this mission better than anyone.
    What is the plan for the next year and succeeding years to 
recapitalize this capability?
    Secretary Gates. Concurrent with the cancellation of the CSAR-X 
program, the Department and the United States Air Force (USAF) began 
two complementary actions. The urgent need to restore the HH-60G 
inventory resulted in a funded program in Fiscal Years 2010 through 
2012, described further below. Additionally, the USAF's urgent need to 
recapitalize its aging HH-60G fleet will be refined in the next year.
    The USAF will continue to work with OSD and the Joint Staff to 
finalize requirements and develop an acquisition strategy to sustain 
Combat Search and Rescue operational capability in support of globally 
deployed Airmen and the Joint Team for the long term. DoD will leverage 
current analysis and chart a course to a Material Development Decision 
(MDD) as soon as possible. The President's Budget Request for FY 2011 
includes initial funding estimates in FY 2012 and beyond that will be 
used to implement that program.
    Ms. Giffords. Were you aware that the current fleet of Pave Hawk 
aircraft began to reach the end of their designed service life 7 years 
ago?
    Secretary Gates. The design service life of the Pave Hawk was known 
and part of my consideration during the decision process. That urgent 
need resulted in my direction to the Air Force to pursue immediate 
replacement of HH-60G operational losses and additional aging HH-60Gs 
with rotary wing aircraft based on currently fielded CSAR capabilities.
    Ms. Giffords. Are additional aircraft forthcoming?
    Secretary Gates. Yes. The Department of Defense Appropriations Act, 
Fiscal Year 2010, Public Law 111-118 includes an Air Force program 
start to replace HH-60G Operational Losses and funded the four 
aircraft. The President's Budget Request for Fiscal Year 2011 seeks 
funding for 6 aircraft in Fiscal Year 2011 (including 3 from OCO 
funding) and 5 aircraft in Fiscal Year 2012. These aircraft would 
restore the legacy HH-60G fleet to the quantity of 112 aircraft. The 
Air Force will procure the current in-production variant, UH-60M, and 
modify them with the requisite mission equipment. The long-term 
recapitalization of the legacy HH-60G fleet would begin in Fiscal Year 
2012, following final requirements definition and acquisition strategy 
approval.
    Ms. Giffords. I am strongly encouraged by what I have seen from DoD 
on energy issues, and I am confident that the Senate will move, if not 
swiftly, to confirm the nominee for Director of Operational Energy. 
Over the last year, I have been working aggressively with the Committee 
and the services on developing an overarching master plan for DoD's 
energy usage. I am also pleased by much of what I see in the QDR on 
this topic and the great partnerships we have forged between the 
Congress and the Department on this consensus issue.
    Can you comment on where DoD is in meeting their short- and long-
term energy reduction and renewable energy requirements?
    Secretary Gates. Over the last five years, the Department has 
steadily reduced energy consumption per square foot at our 
installations, largely in response to statutory and regulatory goals. 
While continuing that very positive trend, I believe that it is time 
for us to take a longer-term perspective and adapt our approach to 
installation energy management from one that is primarily focused on 
compliance to one focused on long-term cost avoidance and mission 
assurance. The Department made substantial headway meeting the energy 
efficiency (energy intensity) goals from 2006 through 2008 compared to 
the 2003 baseline. While I set a target of 12 percent below the 2003 
baseline for 2009, DoD fell short, meeting only a 10 percent energy 
intensity reduction from the baseline. Some of the reasons for not 
meeting the 2009 target are large mission changes in the Army and use 
of millions of square feet of temporary facilities that are energy 
inefficient. The Army's increase in energy intensity level was a result 
of increased military activities of training, mobilization, deployment, 
and global defense posture realignment, in addition to an increase in 
troop strength. These factors required the use of a number of energy 
inefficient temporary facilities and dual-use buildings to accommodate 
personnel in transition. Energy efficiency is a primary component of 
DoD's investment strategy. I believe the energy investments made 
through the 2009 American Reinvestment and Recovery Act (ARRA) will 
manifest a drop in energy intensity in FY 2010 and FY 2011 as these 
ARRA-funded projects become operational.
    Renewable energy investments on a large scale have the potential to 
impact military training and operations as they require large tracts of 
land or include tall structures that encroach upon military ranges and 
special use routes on DoD- or Bureau of Land Management-controlled 
lands. Under my direction, the Department is making every effort to 
review the impacts of renewable energy infrastructure on a case-by-case 
basis working to preserve military training areas while being open to 
public-private partnership that yield green energy and green jobs and a 
measure of energy security for our installations. In 2009, DoD exceeded 
the 3 percent requirement for electrical energy from renewable 
resources by reaching 3.6 percent.
    Ms. Giffords. Does this year's budget demonstrate a significant 
investment in growing the renewable energy portfolio within DoD?
    Secretary Gates. DoD invests directly in renewable energy through 
the Energy Conservation and Investment Program (ECIP). The Fiscal Year 
2011 President's Budget included $120 million for ECIP, of which $63 
million was designated for renewable energy projects.
    Ms. Giffords. Is the top-line real dollar amount an increase from 
last year's allocations?
    Secretary Gates. The Fiscal Year 2011 President's Budget increased 
the amount for ECIP and renewable energy from the 2010 President's 
Budget. The Fiscal Year 2010 President's Budget included $90 million 
for ECIP, of which $53 million was designated for renewable energy 
projects. However, the Fiscal Year 2010 appropriations were $174 
million for ECIP, of which $74 million will go toward renewable energy 
projects.
    Ms. Giffords. Have Energy Savings Performance Contracts (ESPCs) 
proven fruitful in providing significant energy cost savings with 
little or no government outlays?
    Secretary Gates. The Department made wide use of Energy Savings 
Performance Contracts (ESPCs) and Utility Energy Services Contracts 
(UESCs), which allow DoD to use industry funding to pay the up-front 
costs of energy savings projects. The investment is paid back from 
accrued savings. ESPCs and UESCs typically generate 15 to 20 percent of 
all facility energy annual savings that DoD realizes. Use of ESPC and 
UESC for 2009 reached an award value over $258 million. DoD annual 
energy savings from these contracts are expected to reach nearly 1.2 
billion BTUs, which, although significant, represent slightly more than 
one half of one percent (0.5 percent) of the DoD's annual consumption. 
From 2003-2009, third-party financed energy contract awards totaled 
$1.74 billion.
    Ms. Giffords. What can Congress be doing to improve or streamline 
the process for installing large-scale renewable projects and 
accelerate their construction?
    Secretary Gates. DoD is leveraging current authorities to install 
large-scale renewable projects on military installations where 
appropriate and compatible with mission. Should Congress propose 
additional authorities to streamline the process or accelerate 
construction, my staff will evaluate them on a case-by-case basis.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. The FY 2010 NDAA (Sec. 141 BODY ARMOR PROCUREMENT) 
clearly articulated that the Secretary of Defense shall ensure that 
within each military department procurement account, a separate, 
dedicated procurement line item is designated for body armor starting 
with the budget for fiscal year 2011. It also articulated the same 
requirement for a separate, dedicated program element for research and 
development of individual body armor and associated components. The 
total body armor program has evolved from a $40 million program in 1999 
to over $5 billion through 2009. The establishment of an individual 
procurement and RDT&E (Research, Development, Test and Evaluation) line 
items would provide increased accountability and transparency in long-
term planning, programming, and investment for the acquisition of body 
armor, and would accelerate the amount of investment by industry to 
further advancements in survivability and weight reduction. Available 
technology has not been able to keep the system within the desired 
weight levels without sacrificing performance. It is critically 
important that efforts be made to lighten the warfighter's load for 
current operations, especially in Afghanistan where most operations are 
dismounted in mountainous terrain. The Vice Chief of Staff of the Army 
and the Assistant Commandant of the Marine Corps testified to the same 
last year before this committee. Prior to Congress passing law 
mandating separate procurement and RDT&E line items for body armor, 
body armor was funded from Operation and Maintenance accounts. Separate 
line items were mandated because Operations and Maintenance monies can 
be moved around as the year progresses and although an initial dollar 
amount might be placed against a body armor requirement, that dollar 
amount can fluctuate if the military services think the money is needed 
elsewhere. Establishing funds that are devoted to body armor programs 
via separate, dedicated procurement line items ensures the warfighter 
is equipped with the most technologically advanced, lightest, most 
effective individual protection gear. Why did the Department of Defense 
fail to comply with the statutory requirement to create separate, 
dedicated procurement and RDT&E line items in the FY 2011 Defense 
budget submission? What is the requested level of funding specifically 
for body armor procurement and RDT&E for FY 2011? Will the Department 
include separate procurement and RDT&E body armor line items in next 
year's budget request?
    Secretary Gates. I fully recognize the importance of personal body 
armor to our troops deployed in combat operations. Since FY 2004, the 
Congress at the request of the Department, has appropriated $3.1 
billion for the procurement of small arms protective inserts and 
enhanced small arms protective inserts (SAPI) for use by U.S. 
personnel. This investment, along with other force protection 
initiatives implemented by the Services saved countless lives and 
limited casualties.
    The Department's reluctance to fund the purchase of personal body 
armor protection clothing in the procurement appropriations has as much 
to do with the purpose of funding, as it does with its flexibility. 
Because the procurement programs are separately funded in their own 
budget lines, they lack the flexibility of the Operation and 
Maintenance (O&M) appropriations. Since the quantity of body armor that 
is needed to outfit forces is to a great extent directly related to the 
number of troops deploying, the actual amount of body armor gear needed 
is unknown when the procurement budgets are prepared a year or more 
before the deployment date.
    Because O&M funds are more readily available and have far greater 
flexibility in their use, the Services are better able to reallocate 
funds within their O&M accounts to ensure that sufficient body armor 
gear has been purchased. Furthermore, personal body armor is considered 
to be a consumable product, similar to boots and clothing. The personal 
body armor used by our forces is actually clothing and jackets that 
have specially designed pockets that hold the SAPI plates. Because of 
the nature of the SAPI plates and the associated clothing, they are not 
durable like hardware, so their replacement cycle may be more frequent 
depending on combat operations.
    Personal body armor research and technologies are currently funded 
in the Services' Research, Development, Test, and Evaluation (RDT&E) 
accounts. However, because these developmental efforts, relative to 
major weapon systems are small, the requirement is funded in existing 
RDT&E budget lines (example: Soldier System Advanced Development; 
Infantry Support Weapons; SOF Soldier Protection and Survival System; 
and Marine Corps Ground Combat/Supporting Arms System).
    In FY 2011, the Department requested $1.3 billion for personal body 
armor in the O&M accounts and $12.9 million in RDT&E.
    Ms. Tsongas. I would like to understand if the DoD considers 
leveraging proven, affordable, scalable programs as an alternative to 
developmental programs that have a high likelihood of experiencing cost 
overruns. The Patriot air and missile defense system is currently 
fielded in 12 nations, including 5 NATO countries. Since production 
began in 1980, over 170 Patriot fire units and over 9,000 missiles have 
been delivered. An international industry team of over 4,000 suppliers 
and subcontractors support the Patriot air defense system. Modern 
production methods have proven effective in maintaining a production 
reliability of over 10 times the required specification. Reliability of 
Patriot systems deployed world-wide, measured in ``mean-time between-
failure'', remains over twice the required system specification. U.S. 
Army operational availability has been consistently over 95 percent. 
Complex, multi-year, developmental defense procurements often involve 
some cost escalation. Constraining costs via the long-term usage of 
proven, scalable programs is a way to continue to serve the needs of 
our troops and allied troops without undergoing the process of funding 
new programs with significant cost and schedule risk.
    Has the Department of Defense considered controlling acquisition 
costs through the continued use of proven, scalable technologies that 
are already in use by our forces and those of our allies? For example, 
the Patriot systems has been fielded by the U.S. and 12 international 
partner nations for over 20 years and benefits today from cost savings 
gleaned through the on-going investment by its current users. 
Continuing to utilize systems like Patriot (and Theater High Altitude 
Air Defense (THAAD), Standard Missile-3 (SM-3), etc.) in lieu of 
costly, new development programs like the current Medium Extended Air 
Defense System (MEADS) program would save DoD billions of dollars. And, 
should some of the capabilities currently being developed in the MEADS 
program be procured in the future, would it be possible to incorporate 
elements of the Patriot-based solution to create a merged air and 
missile defense system, a ``best of both worlds'' approach? Your 
comments on this topic, please?
    Secretary Gates. As illustrated by the examples provided in the 
question (e.g., Patriot, SM-3 and THAAD), yes, the Department actively 
seeks to control acquisition costs through the continued use of proven, 
scalable technologies that are already in use by our forces and those 
of our allies. However, to keep pace with evolving threats and 
operational concepts, it is often necessary to develop new capabilities 
to augment those already fielded.
    The theater air and missile defense mission area is a good example 
of this situation. In December 2009, the Defense Acquisition Executive 
approved the Army's Integrated Air and Missile Defense (AIAMD) program 
for entry into Engineering, Manufacturing, and Development. The 
objective of the AIAMD program is to integrate sensors and weapons 
(Patriot, SLAMRAAM, Improved Sentinel, and JLENS) and develop a common 
battle command across a single, integrated fire control network to 
engage the range of Air and Missile Defense (AMD) threats.
    To minimize costly new sensor and weapon development, leverage 
proven systems, and minimize the number of redundant battle command 
systems, existing Army AMD sensor and weapon platforms will be enhanced 
with a ``plug and fight'' interface module, which supplies distributed 
battle management functionality to enable network-centric operations 
for advanced AMD capabilities such as extended sensor coverage and 
better intercept capabilities.
    I believe this U.S. capability as it matures could be beneficial to 
our coalition air and missile defense partners. As such, both as part 
of our ongoing MEADS program and separately with other partners, the 
Department has opened discussions on how best to achieve a truly 
integrated coalition air and missile defense capability, with the AIAMD 
Battle Command System capability as the centerpiece. Components from 
Patriot, as well as the more capable, more easily sustained, and more 
mobile radars and launchers being developed in MEADS, when ready, could 
be integrated in the AMD System-of-Systems. Not only will this allow 
the U.S. and our partners to save cost in the long term, but it could 
ultimately serve as an AMD force multiplier for coalition forces.
    Ms. Tsongas. The MEADS program was initiated to provide replacement 
for the Patriot Air and Missile System in the U.S. Army, as well as 
Patriot, Nike Hercules and Hawk in Germany and Italy. However, the 
MEADS development program has not delivered on promised timely and 
cost-effective fielding of new air and missile defense capabilities.
    Since the program's initiation, the time to field the First Unit 
Equipped (FUE) has repeatedly been revised resulting in increased costs 
and delays to fielding warfighter capability as follows: in 1996, the 
expected RDTE cost was $2B to $3B, with a planned FUE in 2008; in 2002, 
the expected RDTE cost was $7B to $9B, with a planned FUE in 2012; in 
2008, the expected RDTE cost was $10B, with a planned FUE in 2015; and 
in 2008, the GAO reported that the FUE date will slip an additional two 
years, to 2017.
    In addition, recent GAO reports (GAO-08-467SP & GAO-09-326SP 
Assessments of Major Weapon Programs) found that only two of six 
critical MEADS technologies were maturing at an adequate pace to meet 
program schedule. In order to continue to fight the wars we are in, and 
support our troops for the scenarios we will face in the future, we 
must make difficult budgetary decisions which sometimes involve the 
termination or restructuring of programs which, despite original 
intent, are no longer performing, or are now unnecessary. Currently the 
Department of Defense has programs that are over-budget and behind 
schedule (e.g. JSF, MEADS).
    Has the DoD performed a thorough analysis of its program suite, 
evaluating performance, requirements and relevance of these programs? 
And is it not possible to harvest some cost savings from these programs 
in order to pay for other higher priority, near term costs including 
ongoing costs in Iraq and Afghanistan, needed increases in shipbuilding 
to cover European missile defense, etc?
    Secretary Gates. MEADS experienced schedule delays and cost growth 
that emerged prior to the program Preliminary Design Review in 2007. 
The MEADS partner nations conducted an independent program review, 
which documented several technical and management issues that led to 
the delays and cost growth. Many of the recommendations of the review, 
including restructuring the program and extending the Design and 
Development (D&D) phase have either been implemented or are being 
considered by the nations.
    The MEADS independent review team estimated that the planned 110-
month MEADS D&D program (which began in September 2004) would require 
an additional 24 months and increased costs on the order of $1 billion 
to complete the design and initial testing.
    In response, the MEADS partner nations agreed to pursue a re-
planned MEADS D&D program that extends the 110-month program, reduces 
the program risk, and provides additional time to ensure the maturity 
of the MEADS design. The Department is conducting a full assessment of 
the MEADS program to support the MEADS System Decision Review. This 
review includes an assessment of the ongoing MEADS Critical Design 
Review (CDR), an evaluation of the costs, and an evaluation of the 
status of negations with the MEADS partners on program restructure. 
These elements are described below.
    The DoD is conducting an assessment of the CDR to determine the 
technical maturity and expected performance of the system. The U.S. 
Cost Assessment and Program Evaluation (CAPE) is conducting an 
independent cost estimate (ICE) of the re-planned MEADS program to re-
validate the total cost of the program to inform the restructure 
effort. This cost estimate is expected by July 2010. The U.S. is also 
in negotiations with the partner nations on a U.S.-proposed restructure 
of the tri-national governance and technical scope of the existing 
program, including seeking partner approval to modify the MEADS program 
of record to integrate the Army Integrated Battle Command System (IBCS) 
functionality to enhance MEADS BMC4I capabilities. Incorporating IBCS 
into the MEADS concept is a necessary change for the program to meet 
U.S. air and missile defense requirements and Army operational 
concepts, keep pace with emerging threat capabilities, and enhance 
coalition operations. DoD is conducting a thorough review of the 
current MEADS threat assessments and requirements.
    While it is always possible to divert funding from one priority to 
another, I must balance the overall program portfolio to meet the range 
of valid capability needs. I also place a priority on honoring our 
commitments to our cooperative program partners. I believe MEADS is 
critical, and the DoD is on a path to ensure the program is affordable 
and capable for all MEADS partner nations. In order for me to make 
informed decisions, the ongoing assessments and ICE must be completed.
    Ms. Tsongas. The 2009 Weapon Systems Acquisition Reform Act was put 
in place to provide accountability and ``directly impact the operation 
of the Defense Acquisition System and the duties of key officials who 
support it'' (DTM 09-027, Implementation of the Weapon Systems 
Acquisition Reform Act of 2009). After thirteen years of development, 
the Army's Medium Extended Air Defense System (MEADS) program is nine 
years behind schedule, and several billions of dollars over-budget. 
This program is a prime example of the problems in managing a large, 
complex program with technical risk, and the impetus for the 2009 
Weapon Systems Acquisition Reform Act.
    What does the Department plan to do about this program given the 
continuously extending schedule and predictions of yet further cost 
overruns topping a billion dollars? Given the changing missile defense 
environment, has the Department completed a thorough review of air and 
missile defense requirements and validated the requirements attributed 
to this program?
    Secretary Gates. MEADS experienced schedule delays and cost growth 
that emerged prior to the program Preliminary Design Review in 2007. 
The MEADS partner nations conducted an independent program review, 
which documented several technical and management issues that led to 
the delays and cost growth. Many of the recommendations of the review, 
including restructuring the program and extending the Design and 
Development (D&D) phase have either been implemented or are being 
considered by the nations.
    The MEADS independent review team estimated that the planned 110-
month MEADS D&D program (which began in September 2004) would require 
an additional 24 months and increased costs on the order of $1 billion 
to complete the design and initial testing.
    In response, the MEADS partner nations agreed to pursue a re-
planned MEADS D&D program that extends the 110-month program, reduces 
the program risk, and provides additional time to ensure the maturity 
of the MEADS design. The Department is conducting a full assessment of 
the MEADS program to support the MEADS System Decision Review. This 
review includes an assessment of the ongoing MEADS Critical Design 
Review (CDR), an evaluation of the costs, and an evaluation of the 
status of negations with the MEADS partners on program restructure. 
These elements are described below.
    The DoD is conducting an assessment of the CDR to determine the 
technical maturity and expected performance of the system. The U.S. 
Cost Assessment and Program Evaluation (CAPE) is conducting an 
independent cost estimate (ICE) of the re-planned MEADS program to re-
validate the total cost of the program to inform the restructure 
effort. This cost estimate is expected by July 2010. The U.S. is also 
in negotiations with the partner nations on a U.S.-proposed restructure 
of the tri-national governance and technical scope of the existing 
program, including seeking partner approval to modify the MEADS program 
of record to integrate the Army Integrated Battle Command System (IBCS) 
functionality to enhance MEADS BMC4I capabilities. Incorporating IBCS 
into the MEADS concept is a necessary change for the program to meet 
U.S. air and missile defense requirements and Army operational 
concepts, keep pace with emerging threat capabilities, and enhance 
coalition operations. DoD is conducting a thorough review of the 
current MEADS threat assessments and requirements.
    While it is always possible to divert funding from one priority to 
another, I must balance the overall program portfolio to meet the range 
of valid capability needs. I also place a priority on honoring our 
commitments to our cooperative program partners. I believe MEADS is 
critical, and the DoD is on a path to ensure the program is affordable 
and capable for all MEADS partner nations. In order for me to make 
informed decisions, the ongoing assessments and ICE must be completed.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. PINGREE
    Ms. Pingree. Admiral Mullen, when the Department of Defense 
announced its strategy to repeal the Don't Ask, Don't Tell policy, you 
stated that, while the Department conducts a yearlong study, it would 
make an effort to use existing authority to prevent or delay the 
dismissal of openly gay service members. While this yearlong study is 
being conducted, do you believe that the Department can prevent the 
dismissal of any and all service members who are found to be gay or 
lesbian? What criteria will be used to evaluate whether or not an 
openly gay or lesbian service member will be dismissed from active duty 
service while the Department studies the best way to implement repeal?
    Admiral Mullen. In my testimony, I did not address the issue of 
pending or future discharges, nor did I state that the Department would 
prevent or delay discharges of openly gay service members. The law 
requires separation for homosexual conduct, and we must follow the law. 
Only the Congress can change the law.
    On February 2nd, the Secretary of Defense announced that he had 
directed the Department of Defense to quickly review the regulations 
used to implement 10 U.S.C. Sec. 654 and within 45 days present 
recommended changes to those regulations that would, within the 
confines of the existing law, enforce the law in a fairer and more 
appropriate manner. This review has been completed. The Secretary of 
Defense, in consultation with the Military Services and the Joint 
Chiefs of Staff, has approved revisions to these regulations. The 
changes were announced on March 25th, and are now in effect.
    The modifications, among other things, raise the level of the 
commander authorized to initiate inquiries and separation proceedings 
regarding homosexual conduct; revise what constitutes ``credible 
information'' and ``reliable persons''; and specify certain categories 
of information that cannot be used for purposes of homosexual conduct 
discharges.
    The Service Chiefs and I support these changes.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL
    Mr. Kissell. During the hearing, and throughout the budget and the 
Quadrennial Defense Review (QDR), I applaud your continued commitment 
to the health and welfare of our wounded warriors. Today's medical 
advancements allow men and women that suffer horrific casualties to 
live and to have a functional quality of life. In previous conflicts 
many of our service members that survived today would have died. You 
have adopted a very aggressive approach to post-traumatic stress and 
traumatic brain injury. This aggressive attack only benefits those that 
are dutifully serving our nation. Their sacrifices are being honored by 
your attention to their needs. However, I recently saw a piece on CBS's 
60 Minutes about the Armed Forces Institute on Regenerative Medicine 
(AFIRM) and had an opportunity to meet with one of the civilian doctors 
conducting research for AFIRM. The advancements being made are 
absolutely astounding and in some ways it seems like science fiction. 
The 60 Minutes piece chronicled a young Marine whose hand was blown off 
in an explosion. The doctors completed a hand transplant and now the 
Marine, who at one time would have had to settle for a prosthetic hand 
and a limited life, is training to be an electrician. AFIRM also 
addresses the dated medical response to burn victims. Doctors are using 
burn treatment techniques developed 30 years ago to treat burn victims 
from Iraq and Afghanistan.
    The Department of Defense (DoD) has developed a number of 
innovative ways to treat post-traumatic stress disorder (PTSD), mild 
TBI, and other wounds, but burn treatment lags behind a considerable 
amount. AFIRM's research uncovered innovative ways to bridge the gap 
and improve the lives of our wounded warriors suffering from burn 
injuries. Although, AFIRM is a DoD program designed to develop 
treatment techniques far beyond comprehension some five or ten years 
ago, no funding is allocated for clinical trials next year. In fact, 
for the remainder of this year, AFIRM can only conduct two more 
clinical trials and next year zero clinical trials. After meeting with 
one of the physicians in AFIRM, he provided me a list of 13 clinical 
trials pending without funding and 21 additional projects ready for 
clinical trials. The 21 projects have no funding and are within two 
years of readiness. These are unfunded opportunities. I think this will 
be a huge help to our wounded warriors, but am unsure why the budget 
does not request funds to push the research to trials and out to the 
field where it is needed. Please provide an answer as to the future of 
AFIRM, funding for the research ready to progress to clinical trials, 
and the number of wounded warriors helped by the tremendous efforts of 
military and civilian physicians in AFIRM. I would also like to meet 
with the Program Director for AFIRM to discuss other developments and 
the best way to expedite implementing the techniques.
    Secretary Gates. The AFIRM Science and Technology Program is funded 
through a Memorandum of Understanding (MOU) among the United States 
Army Medical Research and Materiel Command (USAMRMC), Office of Naval 
Research, USAF Surgeon General, Department of Veterans Affairs, and 
National Institutes of Health. USAMRMC directs the AFIRM Program. Per 
the MOU, funding is agreed among the parties. We anticipate renewal of 
the MOU to continue AFIRM beyond 2013, pending agreement by all 
parties.
    The initial objectives (i.e., covering 2008-2013) for clinical 
trials in the AFIRM Program included two hand transplants and one 
facial tissue transplant, all included advanced immunosuppressive anti-
rejection therapies. In addition, the Program anticipated funding up to 
two clinical trials after investigations in animal models revealed the 
highest payoff candidates for clinical demonstration. These animal 
model investigations have been much more successful than anticipated, 
and the number of AFIRM technologies ready for clinical trials has been 
and is expected to be much greater than our original plan projected.
    Since unexpected funding for clinical development of additional 
AFIRM technologies was required during budget execution years, the 
following sources were leveraged: In calendar year 2009, AFIRM clinical 
trials were funded with the Defense Health Program (DHP) medical 
Research, Development, Test and Evaluation (RDT&E) funds from the 
Fiscal Year (FY) 2008 Overseas Contingency Operations appropriation 
($10 million). The $10 million funded six clinical trials of which five 
will be partially conducted at the Army's Institute of Surgical 
Research, mostly on military patients. This year (FY 2010), RDT&E 
funding for trials ($5.8 million) was funded by appropriated funds that 
were requested as part of the Department's request for enhancement of 
battlefield injuries research. We will be able to fund three clinical 
trials with these funds. Finally, for FY 2010 and FY 2011, the Joint 
Improvised Explosive Device Defeat Organization (JIEDDO), through the 
Director, Defense Research and Engineering's Office of Technology 
Transition, funded $17.4 million in clinical trials associated with 
AFIRM objectives.
    Currently, $2.4 million is programmed under the DHP RDT&E for 
regenerative medicine clinical trials in FY 2011. The USAMRMC is 
presently preparing its DHP FY 2012-2017 program review that will 
identify requirements for funding up to 48 additional trials and 
advanced development studies, based on AFIRM progress to date and 
reasonable technical success going forward. AFIRM's strategy is to 
conduct as many patient trials as possible at DoD medical facilities.
    Although the actual number of warfighters being helped with AFIRM 
technologies to date is small and limited to ongoing, early clinical 
trials to substantiate safety and efficacy, the potential to help much 
larger numbers exists. Particularly for wounded warriors, regenerative 
medicine will likely have its greatest impact treating traumatic 
injuries of the extremities, injuries of the head and neck, and serious 
burns. Of the approximately 17,000 battle-injured warfighters medically 
evacuated from the Iraqi and Afghanistan theaters, such injuries 
account for more than 75%. Orthopedic injuries alone account for over 
60% of all ``unfit for duty'' Medical Board determinations resulting in 
loss from the Services. Serious burns account for approximately 5% of 
all evacuations and 77% of those patients experience burns to the face. 
Regenerative medicine has the potential to help many of these patients 
during their definitive care and/or rehabilitation once these 
technologies are proven safe and effective.
    Colonel Bob Vandre, the AFIRM Program Director, will make an 
appointment to meet with Representative Kissell to discuss other 
developments and the best way to expedite implementing the techniques.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
